<html>
<title> - EXAMINING PROCEDURES REGARDING PUERTO RICO'S POLITICAL STATUS AND ECONOMIC OUTLOOK</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]







 
  EXAMINING PROCEDURES REGARDING PUERTO RICO'S POLITICAL STATUS AND 
                           ECONOMIC OUTLOOK

=======================================================================

                           OVERSIGHT HEARING

                               before the

                  SUBCOMMITTEE ON INDIAN, INSULAR AND
                         ALASKA NATIVE AFFAIRS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                        Wednesday, June 24, 2015

                               __________

                           Serial No. 114-13

                               __________

       Printed for the use of the Committee on Natural Resources



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

95-300 PDF                     WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001      
      
      
   
   
   
   
   
   
   
   
      

                     COMMITTEE ON NATURAL RESOURCES

                        ROB BISHOP, UT, Chairman
            RAUL M. GRIJALVA, AZ, Ranking Democratic Member

Don Young, AK                        Grace F. Napolitano, CA
Louie Gohmert, TX                    Madeleine Z. Bordallo, GU
Doug Lamborn, CO                     Jim Costa, CA
Robert J. Wittman, VA                Gregorio Kilili Camacho Sablan, 
John Fleming, LA                         CNMI
Tom McClintock, CA                   Niki Tsongas, MA
Glenn Thompson, PA                   Pedro R. Pierluisi, PR
Cynthia M. Lummis, WY                Jared Huffman, CA
Dan Benishek, MI                     Raul Ruiz, CA
Jeff Duncan, SC                      Alan S. Lowenthal, CA
Paul A. Gosar, AZ                    Matt Cartwright, PA
Raul R. Labrador, ID                 Donald S. Beyer, Jr., VA
Doug LaMalfa, CA                     Norma J. Torres, CA
Jeff Denham, CA                      Debbie Dingell, MI
Paul Cook, CA                        Ruben Gallego, AZ
Bruce Westerman, AR                  Lois Capps, CA
Garret Graves, LA                    Jared Polis, CO
Dan Newhouse, WA                     Vacancy
Ryan K. Zinke, MT
Jody B. Hice, GA
Aumua Amata Coleman Radewagen, AS
Thomas MacArthur, NJ
Alexander X. Mooney, WV
Cresent Hardy, NV
Vacancy

                       Jason Knox, Chief of Staff
                      Lisa Pittman, Chief Counsel
                David Watkins, Democratic Staff Director
             Sarah Parker, Democratic Deputy Chief Counsel
                                 ------                                

       SUBCOMMITTEE ON INDIAN, INSULAR AND ALASKA NATIVE AFFAIRS

                        DON YOUNG, AK, Chairman
                RAUL RUIZ, CA, Ranking Democratic Member

Dan Benishek, MI                     Madeleine Z. Bordallo, GU
Paul A. Gosar, AZ                    Gregorio Kilili Camacho Sablan, 
Doug LaMalfa, CA                         CNMI
Jeff Denham, CA                      Pedro R. Pierluisi, PR
Paul Cook, CA                        Norma J. Torres, CA
Aumua Amata Coleman Radewagen, AS    Raul M. Grijalva, AZ, ex officio
Rob Bishop, UT, ex officio

                                 ------                                

















                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Wednesday, June 24, 2015.........................     1

Statement of Members:
    Grijalva, Hon. Raul M., a Representative in Congress from the 
      State of Arizona, Prepared statement of....................    25
    Sablan, Hon. Gregorio, a Delegate in Congress from the 
      Territory of the Northern Mariana Islands..................     4
        Prepared statement of....................................     5
    Young, Hon. Don, a Representative in Congress from the State 
      of Alaska..................................................     1
        Prepared statement of....................................     3

Statement of Witnesses:
    Barcelo, Carlos Romero, Former Governor of Puerto Rico 1977-
      1985 (PNP), San Juan, Puerto Rico..........................    30
        Prepared statement of....................................    33
    Berrios, Ruben, Former Senator in the Puerto Rican Senate, 
      President of the Puerto Rico Independence Party (PIP), San 
      Juan, Puerto Rico..........................................    15
        Prepared statement of....................................    17
    Fortuno, Luis G., Former Governor of Puerto Rico, 2009-2011 
      (PNP), Washington, DC......................................    35
        Prepared statement of....................................    37
    Pierluisi, Pedro R., Resident Commissioner of Puerto Rico, 
      Presidente of New Progressive Part (PNP), Washington, DC...     6
        Prepared statement of....................................     8
    Ramirez, Miriam J., M.D., Former Puerto Rico State Senator, 
      2001-2004 (PNP), Founder, Puerto Ricans in Civic Action, 
      Orlando, Florida...........................................    46
        Prepared statement of....................................    47
    Rodriguez, Cesar R. Miranda, Attorney General of Puerto Rico, 
      Testifying on Behalf of Governor Alejandro Garcia Padilla, 
      San Juan, Puerto Rico......................................    10
        Prepared statement of....................................    11
    Soto, Carmen Yulin Cruz, Mayor of San Juan, 2013-Present 
      (PPD), San Juan, Puerto Rico...............................    44
        Prepared statement of....................................    45
    Vila, Anibal Acevedo, Former Governor of Puerto Rico, 2005-
      2009 (PPD), San Juan, Puerto Rico..........................    40
        Prepared statement of....................................    41

Additional Materials Submitted for the Record:

    List of documents submitted for the record retained in the 
      Committee's official files.................................    72
                                     

               OVERSIGHT HEARING ON EXAMINING PROCEDURES

               REGARDING PUERTO RICO'S POLITICAL STATUS

                          AND ECONOMIC OUTLOOK
 
                              ----------                              


                        Wednesday, June 24, 2015

                     U.S. House of Representatives

       Subcommittee on Indian, Insular and Alaska Native Affairs

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to notice, at 2:24 p.m., in 
room 1324, Longworth House Office Building, Hon. Don Young 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Young, Benishek, LaMalfa, 
Radewagen; Ruiz, Bordallo, Sablan, Pierluisi, and Torres.
    Also present: Representatives Serrano and Grijalva.
    Mr. Young. The committee will come to order. I do apologize 
for the delay. Strange as the Congress may be, we have burning 
questions and we had to talk about the baseball game. They 
already knew who won and who lost, but then it was beside the 
point.
    Anyway, the Subcommittee on Indian, Insular, and Alaska 
Native Affairs will come to order. The subcommittee is meeting 
today to hear testimony on the following oversight topic: 
``Examining Procedures Regarding Puerto Rico's Political Status 
and Economic Outlook.''
    Under Rule 4(f), any oral statements on the hearing are 
limited to the Chairman and the Ranking Minority Member, and 
this allows us to hear from the witnesses. We do have two 
panels here today. Therefore, I ask unanimous consent that all 
Members' opening statements be made part of the hearing record 
if they are submitted to the Subcommittee clerk by 5:00 p.m. 
today, or at the close of the hearing, whichever comes first.
    [No response.]
    Mr. Young. Hearing no objections, so ordered.
    I also ask unanimous consent that the gentleman from New 
York, Mr. Serrano, be allowed to join us on the dais to be 
recognized and participate in today's hearing.
    [No response.]
    Mr. Young. Hearing no objection, so ordered.

STATEMENT OF HON. DON YOUNG, A REPRESENTATIVE IN CONGRESS FROM 
                      THE STATE OF ALASKA

    Mr. Young. Some time around the turn of this last century, 
over 100 years ago, John Green Brady, the fifth territorial 
governor for the District of Alaska, before Alaska was even a 
territory, was reflecting upon the vain struggle of Alaskans to 
obtain more initial self-government. The struggle of those 
Alaskans had lasted for nearly 40 years up to that point, 
leaving Governor Brady to remark, ``We are graduates of the 
school of patience.''
    Even today the words of Governor Brady still ring true when 
referring to American citizens who call the island of Puerto 
Rico home.
    While the plight of Alaska being charted from its humble 
beginnings as a Department in 1867 to its progression as a 
District, then as a Territory, then ultimately its admission as 
the 49th state of the Union in 1959, the overall journey that 
citizens had to endure lasted for roughly 92 years.
    For the past 117 years, another clock has been keeping time 
on the relationship between the United States and an exotic 
land off its shores, that of the island of Puerto Rico. Since 
1898, the United States of America has held in its possession 
the island of Puerto Rico.
    Since establishing self-governance with the passage of the 
Federal Relations Act of 1950 and the ratification of the 
Puerto Rican Constitution in 1952, the United States has 
allowed Puerto Ricans to govern themselves on internal matters. 
However, Congress has maintained plenary powers over the 
islands through the territorial clauses of the U.S. 
Constitution, Article IV, Section 3, Clause 2.
    Today's hearing will aim to continue the discussion on the 
issue of Puerto Rico's political status, an important 
discussion given the current economic crisis the island faces 
today.
    For the last 8 years, the island's economy has been mired 
by recession, a result of misguided management policies from 
within the public utilities and irresponsible debt trading 
practices.
    As Puerto Rico struggles to solve an economic and financial 
crisis that is causing a migration of residents off the island 
to the mainland, Congress must consider how the island's 
unresolved political status is related to its economic and 
fiscal problems, and what legislative measures are necessary to 
restore Puerto Rico's financial stability.
    The discussion of political status for the island always 
sparks lively debate from Puerto Rico and among my colleagues 
here in Congress and on this committee. I anticipate the same 
here today, and I welcome it; such spirited debate is healthy.
    Holding hearings such as this will further the discussion 
and drive the point home that Congress maintains its duty to 
serve the Americans of the island, just as we do to the 
Americans here on the mainland. We must show the 3.7 million 
Americans living in Puerto Rico that although they may not have 
voting representation in the House or the Senate, those of us 
tending this Nation will hear them when they speak. It is our 
duty and we honor that duty to listen today.
    On a personal level, I have been involved in this project 
since 1994. I believe very strongly, right up front with you, 
in statehood. That is no hidden secret. But that is up to the 
decision of the Puerto Rican people. But the status quo cannot 
exist--the unfairness to Americans not being listened to by 
this Congress, and I think the responsibility to the people of 
Puerto Rico.
    A little history about this. Puerto Rico was supposed to 
become a state first, and Alaska slipped in. I apologize for 
that. We did a good job.
    [Laughter.]
    Mr. Young. Then the next was supposed to be Puerto Rico, 
and it became Hawaii. Puerto Rico is still waiting, 117 years 
later, to be recognized with full rights, as Americans--not 
being punished, not being set aside and have higher health 
rates and, really, frankly, putting a great group of Americans 
that fought in more wars per capita than any other group of 
people from any other state.
    It is my goal, and always has been, to make a decision. The 
status quo today will not work. Some will disagree with me, and 
I know that, and you have your right to that disagreement. But 
I know what is occurring does not work. The out-migration of 
what I call the more talented people in Puerto Rico into the 
mainland is devastating. So, we have to figure something out in 
this Congress, and my goal is--frankly, stir the pot up--to get 
things moving.
    I want to congratulate my Resident Commissioner, Mr. 
Pierluisi. He has done an outstanding job presenting his points 
of view. I admire his other piece of legislation, Chapter 9, 
that we have to look at. Every other state has that right, only 
Puerto Rico does not. And we will discuss that in this 
legislation.

    [The prepared statement of Mr. Young follows:]
  Prepared Statement of the Hon. Don Young, Chairman, Subcommittee on 
               Indian, Insular, and Alaska Native Affairs
    Sometime around the turn of the last century, over 100 years ago, 
John Green Brady, the fifth territorial governor of the District of 
Alaska, before Alaska was even a territory, was reflecting upon the 
vain struggle of Alaskans to obtain more initial self-government.
    The struggle of those Alaskans had lasted for nearly 40 years up to 
that point, leaving Governor Brady to remark, ``We are graduates of the 
school of patience.''
    Even today the words of Governor Brady still ring true when 
referring to the American citizens who call the island of Puerto Rico 
home.
    While the plight of Alaska can be charted from its humble 
beginnings as a Department in 1867 to its progression as a District, 
then to a Territory and then ultimately to its admission as the 49th 
state of the Union in 1959, the overall journey its citizens had to 
endure lasted for roughly 92 years. For the past 117 years, another 
clock has been keeping time on the relationship between the United 
States and an exotic land off its shores--that of the island of Puerto 
Rico. Since 1898, the United States of America has held in its 
possession the island of Puerto Rico.
    Since establishing self-governance through the passage of the 
Federal Relations Act of 1950 and the ratification of the Puerto Rican 
Constitution in 1952, the United States has allowed Puerto Ricans to 
govern themselves on internal matters; however, Congress has maintained 
plenary powers over the island through the Territorial Clause of the 
U.S. Constitution, Article IV, Section 3, Clause 2.
    Today's hearing will aim to continue the discussion on the issue of 
Puerto Rico's political status, an important discussion given the 
current economic crisis the island finds itself in.
    For the last 8 years, the island and its economy have been mired by 
recession, a result of misguided management policies from within the 
public utilities and irresponsible debt trading practices.
    As Puerto Rico struggles to solve an economic and fiscal crisis 
that is causing a migration of residents to the mainland, Congress must 
consider how the island's unresolved political status is related to its 
economic and fiscal troubles, and what legislative measures are 
necessary to restore Puerto Rico's financial stability.
    A discussion of political status for the island always sparks 
lively debate from within Puerto Rico and among my colleagues here in 
Congress and on the committee. I anticipate the same here today, and I 
welcome it--such spirited debate is healthy.
    Holding hearings such as this will further the discussion and drive 
the point home that Congress maintains its duty to serve the Americans 
of the island just as we do the Americans here on the mainland.
    We must show the 3.7 million Americans living in Puerto Rico, from 
San Juan to Guayama, that although they may not have voting 
representation in the House or in the Senate, those of us attending 
today's hearing still hear them when they speak. It is our duty and we 
honor that duty here today.

                                 ______
                                 

    Mr. Young. With that, I will recognize the Minority Member.

 STATEMENT OF THE HON. GREGORIO SABLAN, A DELEGATE IN CONGRESS 
       FROM THE TERRITORY OF THE NORTHERN MARIANA ISLANDS

    Mr. Sablan. Thank you very much, Mr. Chairman. And buenos 
tardes, everyone. I apologize that it took me, from the 
Northern Marianas, a little over 500 years before we--I got to 
see my fellow people from Puerto Rico. At one time we all owed 
allegiance to a queen. It has been a long time after that 
allegiance to the queen that you became a part of the United 
States.
    I want to begin by welcoming the witnesses to the hearing, 
particularly those who traveled from the Island of Puerto Rico 
to be with us today. I also want to recognize my good friend 
and colleague, Ms. Gutierrez from Illinois. And I think I saw 
Ms. Nydia Velazquez here earlier.
    I want to especially welcome the leaders of Puerto Rico's 
three major political parties, as well as our former Natural 
Resources Committee colleagues, Congressmen and former 
governors, Luis Fortuno, Anibal Acevedo Vila, and Carlos Romero 
Barcelo.
    Today's hearing will examine the link between the current 
economic conditions on Puerto Rico and the unresolved issue of 
the island's political status. I believe such an examination is 
fitting, given the severe fiscal difficulties the island is 
facing.
    Currently, the government of Puerto Rico is $73 billion in 
debt, and there are real concerns that the central government, 
or one of its instrumentalities, may soon default on its bond 
payment.
    I am from the Northern Mariana Islands, which is a 
commonwealth that has a permanent relationship with the United 
States. When Puerto Rico becomes a state, we are next in line, 
because we start first with the commonwealths, and then we do 
the others. That is a joke, OK? It is a joke. We have to 
lighten up the room.
    [Laughter.]
    Mr. Sablan. But that makes sense. The commonwealth status 
in the Marianas was derived from looking at the Puerto Rico 
status model. Puerto Rico and the Northern Marianas have a long 
history, like I have alluded earlier. We were a part of Spain, 
just prior to the Spanish-American War.
    But prior to the covenant approval between the United 
States and the Northern Mariana Islands, the political status 
commission had to decide the future political status for all 
the people of the Northern Mariana Islands. And this was no 
easy feat for a group of Pacific Islanders who had been 
colonies for hundreds of years, and by an act of political 
self-determination, we chose a permanent relationship with the 
United States.
    We also had a plebiscite to decide whether we wanted to 
vote for commonwealth status or reject it with the caveat to 
participate in the determination of an alternative future 
political status. We had one. Puerto Rico will have five or six 
to reach that decision.
    I strongly believe that the people of Puerto Rico should 
similarly be given the opportunity to exercise their right to 
establish a permanent, unalterable relationship with the United 
States, or to become an independent country, controlling their 
own political and economic affairs.
    Puerto Ricans have voted in at least five plebiscites since 
they ratified their local constitution in 1952. The most recent 
in 2012 saw statehood winning a majority for the first time. In 
view of this result, which saw statehood receiving 62 percent 
of the vote and the current status being rejected by 54 percent 
of voters, my colleague, Congressman Pierluisi, introduced H.R. 
727, the Puerto Rico Statehood Admission Process Act.
    H.R. 727 would authorize a federally-sponsored vote to be 
held in Puerto Rico by the end of 2017, with a ballot 
containing a single question: ``Shall Puerto Rico be admitted 
as a state of the United States'' ? As a co-sponsor of the 
Puerto Rico Statehood Admission Act, I am persuaded that the 
island's territorial status is a cause of its economic 
conditions.
    The unequal treatment in Federal funding currently 
experienced by Puerto Rico would be transformed into billions 
of dollars every year under statehood, which would be used to 
bolster and transform the Puerto Rican local economy for the 
people of Puerto Rico.
    Puerto Rico's status is also the reason its municipalities, 
such as the Puerto Rico Electric Power Authority, cannot adjust 
their debts under Chapter 9 of the Federal Bankruptcy Code if 
they become insolvent. States can choose to allow the 
municipalities to file for protection under Chapter 9; however, 
Puerto Rico's government was not authorized to permit its 
municipalities to seek Chapter 9 bankruptcy relief when Chapter 
9 was established by Congress in 1982.
    Mr. Chairman, I look forward to working with you to pursue 
a solution to the unfair and unequal situation that our fellow 
Americans in Puerto Rico face. It is high time we reached a 
consensus on a path forward for Puerto Rico to permanently 
resolve their political status. I thank you, Mr. Chairman.
    [The prepared statement of Mr. Sablan follows:]
   Prepared Statement of the Hon. Gregorio Kilili Camacho Sablan, a 
Delegate in Congress from the Territory of the Northern Mariana Islands
    Thank you Mr. Chairman. I want to begin by welcoming the witnesses 
to the hearing, particularly those who traveled from the island of 
Puerto Rico to be with us today. I want to especially welcome the 
leaders of Puerto Rico's three major political parties as well as our 
former Natural Resources Committee colleagues, Congressmen and former 
governors, Luis Fortuno, Anibal Acevedo Vila and Carlos Romero Barcelo.
    Today's hearing will examine the link between the current economic 
conditions on Puerto Rico and the unresolved issue of the island's 
political status. I believe such an examination is fitting given the 
severe fiscal difficulties the island is facing. Currently the 
government of Puerto Rico is $73 billion in debt and there are real 
concerns that the central government or one of its instrumentalities 
may soon default on its bond payments.
    I am from the Northern Mariana Islands, which is a Commonwealth 
that has a permanent relationship with the United States. The 
commonwealth status in the Marianas was derived from looking at Puerto 
Rico's status. Puerto Rico and the Northern Mariana Islands have a long 
history. We were a part of Spain just prior to the Spanish-American 
War, but prior to the covenant approval between the United States and 
the CNMI, the Political Status Commission had to decide the future 
political status for all the people of the Northern Mariana Islands. 
This was no easy feat for a group of Pacific Islanders who had been 
colonies for hundreds of years, and by an act of political self-
determination, we chose a permanent relationship with the United 
States. We also had a plebiscite to decide whether we wanted to vote 
for commonwealth status or reject it with the caveat to participate in 
the determination of an alternative future political status.
    I strongly believe that the people of Puerto Rico should similarly 
be given the opportunity to exercise their right to establish a 
permanent unalterable relationship with the United States or to become 
an independent country controlling their own political and economic 
affairs.
    Puerto Ricans have voted in at least five plebiscites since they 
ratified their local constitution in 1952. The most recent in 2012, saw 
statehood winning a majority for the first time. In view of this 
result--which saw statehood receiving 62 percent of the vote and the 
current status being rejected by 54 percent of voters--my colleague, 
Congressman Pierluisi introduced H.R. 727, the Puerto Rico Statehood 
Admission Process Act. H.R. 727 would authorize a federally-sponsored 
vote to be held in Puerto Rico by the end of 2017, with the ballot 
containing a single question: ``Shall Puerto Rico be admitted as a 
state of the United States? '' As a co-sponsor of the Puerto Rico 
Statehood Admission Act, I am persuaded that the island's territorial 
status is a cause of its economic conditions.
    The unequal treatment in Federal funding currently experienced by 
Puerto Rico would be transformed into billions of dollars every year 
under statehood which would be used to bolster and transform the Puerto 
Rican local economy.
    Puerto Rico's status is also the reason its ``municipalities''--
such as the Puerto Rico Electric Power Authority, (PREPA)--cannot 
adjust their debts under Chapter 9 of the Federal Bankruptcy Code if 
they become insolvent. States can choose to allow its municipalities to 
file for protection under Chapter 9, however Puerto Rico's government 
was not authorized to permit its municipalities to seek Chapter 9 
bankruptcy relief when Chapter 9 was established by Congress in 1982.
    Mr. Chairman, I look forward to working with you to pursue a 
solution to the unfair and equal situation that our fellow Americans in 
Puerto Rico face. It is high time that we reach a consensus on a path 
forward for Puerto Rico to permanently resolve their political status.
    Thank you.

                                 ______
                                 

    Mr. Young. I thank the gentleman. And now, I believe our 
first panel has been seated.
    We have the Honorable Pedro Pierluisi, Resident 
Commissioner; Cesar Miranda, Attorney General for Puerto Rico; 
and the Honorable Ruben Berrios, President of the Puerto Rican 
Independence Party.
    Honorable Commissioner, you are up.

   STATEMENT OF PEDRO R. PIERLUISI, RESIDENT COMMISSIONER OF 
    PUERTO RICO, PRESIDENTE OF NEW PROGRESSIVE PART (PNP), 
                         WASHINGTON, DC

    Mr. Pierluisi. Thank you, Chairman Young, Mr. Ranking 
Member, and members of the subcommittee. The facts are as 
follows.
    Puerto Rico is a territory. If it does not wish to remain a 
territory, it can become a state or a sovereign nation, either 
fully independent or with the compact of free association with 
the United States. However, if Puerto Rico becomes a sovereign 
nation, future generations of island residents would not be 
American citizens.
    My constituents have made countless contributions to this 
Nation in times of peace and war, serving in every military 
conflict since World War I. Many have made the ultimate 
sacrifice. When they do, their casket is flown back to this 
country, draped in the American flag. It takes real patriotism 
to fight for a nation you love, but one that does not treat you 
equally.
    Puerto Rico has more U.S. citizens than 21 states, but my 
constituents cannot vote for President, have no Senators, and 
have a non-voting delegate in the House. Moreover, the 
Constitution gives Congress license to treat territories worse 
than states, and Congress often uses that license.
    Territory status is the root cause of the crisis in Puerto 
Rico, because Puerto Rico is treated unequally under Federal 
programs. It is deprived of critical economic support. To 
compensate, the Puerto Rico government has borrowed heavily, 
which helps explain why the government and its 
instrumentalities have $72 billion in debt. In recent years, 
250,000 island residents have relocated to the states, and 
these numbers are only growing. Once in the states they are 
entitled to full voting rights, and equal treatment under the 
law, rights they lack in Puerto Rico.
    Let me mention two of the many ways that Puerto Rico's 
status hurts the quality of life of my constituents. First, 
Puerto Rico is treated unequally under Medicaid and Medicare. 
The impact on our healthcare system and on our fiscal health 
has been severe. Second, Congress has authorized each state 
government to permit its insolvent municipalities to adjust 
their debts under Chapter 9 of the Bankruptcy Code, but has not 
authorized Puerto Rico to do so. Thus, territory status is a 
significant reason why Puerto Rico has excessive debt, and the 
sole reason why it lacks a critical tool to manage that debt.
    I have introduced bills to give Puerto Rico equal treatment 
under Federal health programs and Chapter 9. While I appreciate 
that the governor of Puerto Rico has endorsed these efforts, it 
is ironic that an anti-statehood administration is seeking 
state-like treatment for the territory in key policy areas. I 
seek equal treatment for Puerto Rico in all respects.
    If you give us the same rights and responsibilities as our 
fellow American citizens, and let us rise or fall on our 
merits, we will rise. But if you continue to treat us like 
second-class citizens, don't profess to be surprised when we 
fall.
    This is now the predominant view in Puerto Rico. In a 2012 
referendum, a majority of voters rejected territory status, and 
more voters expressed a desire for statehood than any other 
option. At my initiative, Congress approved funding for a 
federally-sponsored referendum. Once I have the opportunity, I 
will use this funding to hold a vote on whether Puerto Rico 
should be admitted as a state, just like Alaska and Hawaii did. 
This is logical. Statehood won the 2012 referendum. So we 
should now vote on statehood, itself.
    This is also fair. Those who support statehood can vote 
yes, and those who oppose it can vote no. This approach has 
brought support in Congress. I have introduced a bill to 
authorize a vote in Puerto Rico on whether the territory should 
be admitted to the Union. If a majority of voters say yes, 
Puerto Rico would become a state within 5 years. The bill has 
109 co-sponsors from 39 states and territories, and more 
bipartisan backing than 99 percent of bills filed this year. 
Each co-sponsor refutes the single argument that the United 
States would not accept Puerto Rico as a state.
    Puerto Rico's status is intolerable, and my constituents 
will no longer tolerate it. We want equality under the American 
flag, and we will settle for nothing less. Thank you.

    [The prepared statement of Mr. Pierluisi follows:]
      Prepared Statement of the Hon. Pedro R. Pierluisi, Resident 
                      Commissioner of Puerto Rico
    Chairman Young, Mr. Ranking Member, and members of the 
subcommittee: Puerto Rico has been a territory of the United States 
since 1898. As this committee has made clear many times, if Puerto Rico 
does not want to remain a territory, it can follow one of two paths. 
The territory can become a state or it can become a sovereign nation, 
either fully independent from the United States or with a compact of 
free association with the United States that either nation can 
terminate. If Puerto Rico becomes a sovereign nation, future 
generations of island residents would not be American citizens.
    Those are the options: remain a territory, become a state, or 
become a sovereign nation.
    As the members of this committee are aware, residents of Puerto 
Rico have made countless contributions to this Nation in times of peace 
and war, serving in every military conflict since World War I. They 
fight today in Afghanistan and other dangerous locations, side-by-side 
with young men and women from the states. Many of them have made the 
ultimate sacrifice in battle. And when they do, their casket is flown 
back to this country, draped in the American flag.
    It takes a special kind of patriotism to fight for a nation that 
you love, but one that does not treat you equally. Although Puerto Rico 
is home to more American citizens than 21 states, my constituents 
cannot vote for president, are not represented in the Senate, and have 
one non-voting delegate in the House--a position I have held since 
2009. Moreover, the Constitution gives Congress a license to treat 
Puerto Rico worse than the states under Federal law, and Congress often 
uses that license.
    Every informed observer understands that territory status is the 
root cause of the economic, social and demographic crisis in Puerto 
Rico that you have been reading about in the newspapers. As the GAO 
noted in a recent report requested by the former chairman of the full 
Natural Resources Committee, Puerto Rico is treated unequally under 
Federal spending and tax credit programs and is therefore deprived of 
billions of dollars every year that would otherwise flow to our local 
economy, which--not surprisingly--has been mired in a deep recession. 
To compensate for the shortfall in Federal funding, the Puerto Rico 
government has borrowed heavily in the bond market, which is the main 
reason why the territory government and its instrumentalities have $72 
billion in outstanding debt. In the last 4 years alone, upwards of 
250,000 island residents have relocated to the states in search of 
better economic opportunities for themselves and their families, and 
these staggering numbers are only getting worse. When my constituents 
arrive in the states, they are entitled to vote for their national 
leaders and to equal treatment under Federal law--the same rights they 
were denied while living in Puerto Rico. How any American with a 
conscience could support this shameful situation is, I confess, beyond 
my comprehension.
    There are many concrete examples of how Puerto Rico's territory 
status harms the quality of life in Puerto Rico, but allow me to 
mention just two.
    Puerto Rico has always been treated in discriminatory fashion under 
Federal health programs. This is the result of action or inaction by 
presidents and Members of Congress, both Democrat and Republican, over 
many decades. The adverse impact on doctors, hospitals, insurance 
providers and--most importantly--patients in the territory has been as 
severe as it was predictable. This disparate treatment has also 
decimated Puerto Rico's fiscal health, since the territory government 
must cover the costs of services the Federal Government should be 
covering--and that it would be covering if Puerto Rico were a state. 
Thus, I have introduced a comprehensive bill to essentially provide 
Puerto Rico with state-like treatment under Medicaid and Medicare.
    Another example--Congress has empowered each state government to 
authorize its ``municipalities'' to adjust their debts under Chapter 9 
of the Federal Bankruptcy Code if they become insolvent. A state 
government may choose to allow its municipalities to file for 
protection under Chapter 9, or it may decline to do so. The power to 
decide rests with the state government. However, for reasons that are 
clear to nobody, Congress in 1984 chose not to permit the government of 
Puerto Rico to authorize its municipalities to seek relief under 
Chapter 9. In other words, Puerto Rico's territory status is the 
primary reason why Puerto Rico has so much debt and is the sole reason 
why Puerto Rico does not possess a critical tool that could help the 
island manage this debt. I have introduced a bill in Congress to give 
Puerto Rico state-like treatment under Chapter 9. It is opposed by a 
handful of investment firms for specious and self-interested reasons, 
but otherwise has remarkably broad support.
    Now I appreciate that the governor of Puerto Rico has endorsed my 
legislative initiatives with respect to both Federal health programs 
and Chapter 9. I will continue to fight alongside him in pursuit of 
these goals. We both want to help Puerto Rico because we both love 
Puerto Rico. However, I don't know whether to laugh or cry at the irony 
of the Governor's anti-statehood administration seeking state-like 
treatment for Puerto Rico in these and other critical policy areas. The 
fact is that politicians in Puerto Rico who defend or rationalize our 
territory status are complicit in the terrible treatment this status 
brings. That may be a tough statement, but it is a true statement.
    What I desire for Puerto Rico is simple. I don't need to resort to 
tortured legal or policy arguments to explain it. I don't seek special, 
different or unique treatment. I don't ask to be treated any better 
than the states, but I won't accept being treated any worse either. I 
want only for Puerto Rico to be treated equally. Give us the same 
rights and opportunities as our fellow American citizens, and let us 
rise or fall based on our own merits. Because I know that we will rise.
    To be clear, this is not only my personal view. To the contrary, 
this is now the predominant view among the Puerto Rico public. In 2012, 
the government of Puerto Rico sponsored a referendum in which a 
majority of voters rejected Puerto Rico's current territory status and 
more voters expressed a desire for statehood than for any other status 
option, including the current territory status. In the wake of that 
historic vote, I conveyed the results to you--my colleagues in 
Congress--and to the Obama administration. I did this because, for a 
territory to become a state, Congress must approve legislation known as 
``an admission act'' and the President must sign that legislation into 
law, just like any other bill.
    At my initiative, the Obama administration in April 2013 
requested--and Congress in January 2014 approved with bipartisan 
support--an appropriation of $2.5 million to fund the first federally-
sponsored status referendum in Puerto Rico's history. We wrote the 
provision, which is contained in Public Law 113-76, so that this 
funding will remain available until it is used. While the law does not 
prescribe the exact format of the ballot, leaving those details to the 
Puerto Rico government, it does require the U.S. Department of Justice 
to certify that the ballot and voter education materials are consistent 
with U.S. law and policy. This will ensure that the ballot contains 
only real status options, as opposed to fanciful proposals.
    It is now clear that the governor of Puerto Rico will not use this 
funding before his term in office ends next year--and I hope the 
members of this subcommittee will ask the Governor's representative at 
this hearing why not. When I am in a position to utilize this funding, 
I will do so without hesitation. My proposal is to use the funding to 
hold a simple yes-or-no vote on whether Puerto Rico should be admitted 
as a state. This approach is logical and fair. First, it is deeply 
rooted in precedent. Alaska and Hawaii each conducted federally-
sponsored yes-or-no votes prior to statehood. Second, because statehood 
obtained the most votes in the 2012 referendum, it makes sense to now 
hold a vote on statehood itself. Third, the format is inclusive. Those 
who support statehood can vote ``yes'' and those who oppose it for any 
reason can vote ``no.'' Fourth, the vote would yield a definitive 
result that nobody could reasonably question. Politicians in Puerto 
Rico who favor the status quo have perfected the dark art of seeking to 
undermine the legitimacy of any vote they lose; the process I have 
proposed will make it impossible for them to do so again.
    This approach has broad support in Congress. In February, I 
introduced H.R. 727, the Puerto Rico Statehood Admission Process Act. 
Consistent with my philosophy, the bill would authorize a federally-
sponsored vote to be held in Puerto Rico by the end of 2017, with the 
ballot containing a single question: ``Shall Puerto Rico be admitted as 
a state of the United States? '' To conduct this vote, the Puerto Rico 
government could use the $2.5 million that Congress already approved in 
Public Law 113-76. If a majority of voters affirm their desire for 
admission, the bill provides for an automatic series of steps to occur 
that would culminate in Puerto Rico's admission as a state in the year 
2021.
    H.R. 727 is forceful and ambitious, because the days of half-steps 
and half-measures on this issue are over. Yet the bill already has 109 
co-sponsors from 39 states and territories, and more bipartisan support 
than 99 percent of the nearly 3,000 bills that have been introduced in 
Congress this year. Co-sponsors include the Chairman and Ranking Member 
of this subcommittee; 7 of the 12 members of this subcommittee; the 
Ranking Member of the full committee; all 10 Democrats and 4 
Republicans from the critical state of Florida; and a majority of the 
members of the Congressional Hispanic Caucus. Each co-sponsor helps 
refute the false and cynical argument that the United States would not 
accept Puerto Rico as an equal member of the American family. Each co-
sponsor endorses the proposition that, if a majority of my constituents 
confirm in a federally-sanctioned vote that they want Puerto Rico be 
admitted as a state, then Congress should act to implement that 
democratically expressed desire on a reasonable but rapid timetable. In 
my view, this is the only morally acceptable position, and I thank 
those Members who have taken it. You are on the right side of history.
    Chairman Young, thank you for scheduling this hearing and for 
everything you have done over the years to support Puerto Rico's quest 
for equality through statehood. I know that one day, not too far off, 
Puerto Rico will follow in Alaska's footsteps.

                                 ______
                                 

    Mr. Young. Well done. Cesar Miranda, Attorney General of 
Puerto Rico, you are up.

 STATEMENT OF CESAR R. MIRANDA RODRIGUEZ, ATTORNEY GENERAL OF 
PUERTO RICO, TESTIFYING ON BEHALF OF GOVERNOR ALEJANDRO GARCIA 
                 PADILLA, SAN JUAN, PUERTO RICO

    Mr. Rodriguez. Thank you, Chairman Young.
    Mr. Young. Turn that microphone on.
    Mr. Rodriguez. Thank you, Chairman Young, members of the 
subcommittee. My name is Cesar Miranda, I am the Secretary of 
Justice of Puerto Rico. I am appearing today representing the 
Governor of Puerto Rico. I am not representing the Popular 
Democratic Party, but the Governor in his executive capacity.
    We have been invited to discuss an issue over which there 
is no consensus in Puerto Rico. Puerto Rico's political status 
is a divisive matter, both in Puerto Rico and in this Congress. 
I recognize the importance of this historical debate. However, 
given today's fiscal and economic crisis in Puerto Rico, I 
prefer to direct my testimony to address other matters of 
urgent importance to our island.
    The fiscal and economic situation in Puerto Rico has 
reached a tipping point. We are in a state of fiscal emergency, 
as we have no access to the capital markets, and our public 
institutions face a liquidity crisis. The situation is truly 
dire. Puerto Rico has been experiencing an unemployment crisis. 
Unemployment remains twice that of the mainland, and the loss 
of employment opportunity has cost an increasing number of 
residents to move to the mainland. Nearly half of all residents 
in Puerto Rico qualify for low-income health insurance 
subsidies, and the average personal income per capita was only 
$17,000 in Fiscal Year 2013.
    Puerto Rico's unprecedented economic difficulties have 
contributed to rising budget deficits that have turned into 
large debts. Puerto Rico owes approximately $73 million in 
debt, and it has no ability to refinance it.
    I believe that there are certain issues that this Congress 
can explore to address Puerto Rico's fiscal crisis and put 
Puerto Rico on a path of long-term fiscal sustainability.
    First, the Congress can approve H.R. 870, which was 
introduced by Resident Commissioner Pierluisi earlier this 
year. H.R. 870 would amend the U.S. Bankruptcy Code and extend 
Chapter 9 to Puerto Rico. Extending Chapter 9 would provide 
significant benefits to all involved. Chapter 9 would provide a 
process that is understood by creditors, prospective lenders, 
and suppliers. It would facilitate market access by offering 
debtor-in-possession financing. There is no good reason to deny 
Puerto Rico Chapter 9, in what has been proven time and again 
to be a vital tool for recovering from dire economic 
consequences. Detroit is the last of those examples.
    Second, Congress can provide Puerto Rico with relief from 
the Jones Act, which drives up the cost of all goods in Puerto 
Rico and depresses the Puerto Rican economy. Congress could 
even grant Puerto Rico a temporary extension of the Jones Act, 
in order to evaluate its impact on the economy before granting 
a permanent extension.
    Third, Congress needs to fix future reductions in Federal 
health care funding that will harm Puerto Rico residents. These 
reductions are not in line with the funding treatment received 
by the 50 states, and they threaten the health and welfare of 
Puerto Ricans. It also threatens economic stability. 
Specifically, I understand that a further reduction will occur 
when the 2016 Center for Medicaid and Medicare Services rate 
structure becomes effective. This would cut Medicare funding by 
11 percent in Puerto Rico, while increasing by 3 percent in the 
states on the mainland. This cut will compound the financial 
difficulty for Puerto Ricans who pay the same Social Security 
and Medicare taxes as residents.
    There are some other examples in which Puerto Rico can be 
assisted by Congress. There is widespread consensus in Puerto 
Rico on the approval of H.R. 870 to amend the U.S. Bankruptcy 
Code. In addition, there is consensus in crafting an extension 
from the Jones Act, and amending the sunset provisions of 
certain health care funding.
    This basically summarizes my positions regarding my 
appearance today.
    [The prepared statement of Mr. Rodriguez follows:]
Prepared Statement of Cesar R. Miranda Rodriguez, testifying on behalf 
          of Governor Alejandro Garcia Padilla of Puerto Rico
    Chairman Young, Ranking Member Ruiz, and members of the 
subcommittee: My name is Cesar R. Miranda Rodriguez, and I am the 
Secretary of Justice of Puerto Rico. I am the chief legal officer of 
Puerto Rico and the chief executive of the Department of Justice (the 
``DOJ''). Prior to my appointment as Secretary of Justice in January 
2014, I served as Chief of Staff under former Governor Sila M. Calderon 
and in many other posts as a public servant. I am appearing today 
before this subcommittee representing the Governor of Puerto Rico.
    We have been invited today to discuss an issue over which there is 
no consensus, but quite the opposite either in Puerto Rico or in 
Congress. The status of Puerto Rico is a debate in which we have been 
perpetually immersed for well over a century. It has always been a 
divisive matter in Puerto Rico as in Congress. Recognizing the 
importance of such a historical debate but taking into consideration 
the extreme fiscal and economic crisis that we are facing in Puerto 
Rico, I honestly prefer to direct my participation to address other 
matters of the utmost importance for our Island, in which there is a 
common understanding and consensus.
    The first of these issues is the approval of H.R. 870, which was 
introduced by our Resident Commissioner. H.R. 870 would amend the U.S. 
Bankruptcy Code to treat Puerto Rico like a ``state'' for purposes of 
Chapter 9. Its approval is supported among all political parties in 
Puerto Rico and among informed experts and intellectuals in the United 
States. In addition to passing H.R. 870, and as I discuss below, there 
are other uncontroversial measures Congress can take to assist Puerto 
Rico, including crafting a limited exemption for Puerto Rico from the 
Jones Act, fixing the automatic sunset provisions of health care 
funding, and providing much-needed certainty on creditability of 
certain taxes paid in Puerto Rico. These are just a few of the ways in 
which Congress can assist Puerto Rico.
                     economic crisis in puerto rico
    I would like to begin by emphasizing that the fiscal and economic 
situation in Puerto Rico has reached a tipping point. The Legislative 
Assembly has declared a fiscal emergency, the credit markets have 
closed their doors, and many of Puerto Rico's public institutions face 
liquidity crises. The situation is truly dire, and it is important to 
tell why it is so.
    Puerto Rico's economy is closely tied to that of the United States 
but was disproportionately and adversely impacted by the U.S. financial 
crisis and the ``Great Recession.'' The Commonwealth has experienced 
high unemployment rates, steady population decline, loss of industry, 
consecutive budget deficits, and truly unprecedented levels of debt and 
unfunded pension obligations. A number of significant economic and 
legal factors have contributed to this fiscal crisis. An example of 
this is the repeal and phase-out by Congress of Section 936 of the 
Internal Revenue Code, which, until its phase-out in 2005, provided tax 
benefits for certain businesses (including large pharmaceutical 
companies) operating in Puerto Rico. The elimination of these tax 
benefits led to a significant loss of employment in Puerto Rico's 
manufacturing sector, and generated strong headwinds for economic 
growth. Other factors include the decline in the local housing sector, 
the failure of a number of local banking entities, and the doubling in 
oil prices between 2005 and 2012 (this posed a major problem for the 
Commonwealth given its dependence on oil for virtually all of its power 
generation).
    The Commonwealth has also been experiencing an unemployment crisis. 
In fact, unemployment remained above 15 percent for many years 
following the financial crisis, suggesting continued weakness in Puerto 
Rico's economy. Unemployment dropped to a still-elevated rate of 12.1 
percent at the end of 2014 while unemployment in the rest of the United 
States dropped to 5.6 percent. The loss of employment opportunities in 
the Commonwealth has caused an increasing number of residents to seek 
opportunities in the mainland. Many residents that are leaving are 
those with the greatest earnings potential, while many who remain 
strain existing resources at a time when the Commonwealth is least able 
to meet such demands. In fact, nearly half of all residents in Puerto 
Rico qualify for low-income health insurance subsidies, and the average 
personal income per capita, including transfer payments, was 
approximately $17,000 in Fiscal Year 2013.
    Puerto Rico's unprecedented economic difficulties have contributed 
to rising budget deficits at all levels of government, including at 
Puerto Rico's public corporations. Historically, these entities have 
relied on access to the credit markets, interim financing from the 
Government Development Bank for Puerto Rico (the ``GDB''), and private-
sector banks to cover budget shortfalls and provide essential services. 
Today, these entities have been closed out of the credit markets and 
are unable to refinance any portion of their nearly $73 billion in 
outstanding public debt. In addition, Puerto Rico's public pension 
funds, though subject to a major overhaul during Fiscal Year 2014 that 
reduced future annual cash-flow needs, still face significant unfunded 
liabilities, which will require increased governmental contributions in 
the coming years.
    Governor Alejandro Garcia Padilla has taken unprecedented fiscal 
measures in an effort to achieve long-term fiscal sustainability in 
Puerto Rico. Within 2 years of taking office, for example, the Padilla 
administration reduced budget deficits, imposed unprecedented cost-
control measures at the central government and public corporation 
levels, established limits on government payroll (as of November 2014, 
there were 92,842 government employees, compared to 139,640 in 2008), 
implemented comprehensive pension reform, imposed loan origination 
discipline at the GDB, reformed rates at certain public corporations, 
and completed and is actively exploring public-private partnerships.
    One critical component of achieving fiscal sustainability is 
ensuring that Puerto Rico's governmental instrumentalities are self-
sufficient. In Puerto Rico, public services, including water and 
wastewater services, electric power, and transportation are performed 
by state-owned public corporations. The most critical public 
corporations in Puerto Rico are: (1) the Puerto Rico Electric Power 
Authority (often referred to as ``PREPA''), which provides 
substantially all of the electricity to residents, businesses and 
governmental units in Puerto Rico; (2) the Puerto Rico Aqueduct and 
Sewer Authority (often referred to as ``PRASA''), which provides 97 
percent of the water and 59 percent of the wastewater services to 
residents in Puerto Rico; and (3) the Puerto Rico Highways and 
Transportation Authority (often referred to as ``PRHTA''), which is 
responsible for highway construction and maintenance on the island.
    The fact that Puerto Rico is an island exacerbates its already high 
cost of providing these services. In November 2014, for example, 
utility customers in Puerto Rico paid more than twice the national 
average per kilowatt hour for electricity. Nonetheless, these public 
corporations have had chronic budget deficits in recent years 
resulting, in part, from population and economic decline. In 2012-2013 
alone, the combined deficit of PREPA, PRASA, and PRHTA was over $800 
million. Public corporations have historically financed their deficits 
by relying on capital market financings or the central government, 
which has provided loans through the GDB or private sector banks. These 
deficits, combined with borrowings for infrastructure projects, have 
left these three public corporations with over $20 billion in debt.
                                 prepa
    I would like to provide additional detail on the fiscal crisis at 
PREPA because it provides an example that illuminates some of the 
challenges that Puerto Rico faces more generally in the absence of a 
legal regime like Chapter 9.
    PREPA supplies virtually all of the electricity in Puerto Rico and 
carries a debt burden of over $9 billion, including approximately over 
$1.1 billion that is due on or before July 1, 2015. PREPA has been 
facing a financial crisis since the summer of 2014 when nearly $700 
million in revolving credit lines was set to expire and PREPA was 
unable to access the capital markets or secure financing from other 
sources. In response, the Legislative Assembly adopted the Public 
Corporation Debt Enforcement and Recovery Act (the ``Recovery Act'') to 
provide a framework for a consensual resolution of PREPA's liquidity 
and debt crisis that would have been negotiated between PREPA and its 
creditors. Because Puerto Rico is precluded from invoking Chapter 9 of 
the U.S. Bankruptcy Code, such a measure was seen as vital to bringing 
the necessary parties to the negotiating table. Following enactment of 
the Recovery Act, PREPA succeeded in executing forbearance agreements 
with its revolving credit-line lenders and the insurers and bondholders 
controlling more than 60 percent of PREPA's $8.3 billion of outstanding 
power revenue bonds.
    The forbearance agreements enabled PREPA to conserve cash, thereby 
improving its liquidity and stabilizing its operations, while also 
providing PREPA with much-needed time to develop a long-term recovery 
plan. Under those agreements, PREPA was authorized to use funds for 
ordinary operational expenses that would otherwise have been required 
to pay debt service and was temporarily excused from making hundreds of 
millions of dollars in payments into reserve accounts for the payment 
of debt service. PREPA's ongoing ability to operate today is due in 
large part to the relaxation of these financial obligations during the 
forbearance period that may not have been possible but for the 
existence of the Recovery Act. In fact, the forbearance agreements 
expire at the end of June 2015, and PREPA faces imminent default and an 
uncertain future beyond June. As the sole provider of electricity in 
Puerto Rico, this is really not a tenable situation. Unfortunately, 
many other government entities in Puerto Rico could find themselves in 
similar positions in the future.
                            the recovery act
    Research and experience makes clear that investors, creditors and 
anyone doing business in or with Puerto Rico need to have more clarity 
on how the Commonwealth's financial crisis might be resolved before 
investing in or transacting business with Puerto Rico. The 
establishment of an orderly and consensus-based process for addressing 
outstanding debt at the public corporations is absolutely vital to 
providing this clarity. Our public corporations are not eligible to 
reorganize under Chapter 11 of the U.S. Bankruptcy Code because they 
are governmental units, and they are not eligible to adjust their debts 
under Chapter 9 because Puerto Rico is expressly--and inexplicably--
excluded from the U.S. Bankruptcy Code's definition of ``State'' for 
purposes of Chapter 9 eligibility. Prior to the enactment of the 
Recovery Act in June 2014, Puerto Rico was in the unique position of 
having no means for authorizing a legal regime under which its public 
corporations could adjust their debt or address creditor claims in an 
orderly manner.
    The Legislative Assembly's adoption of the Recovery Act in 2014 was 
a response to the legislative gap in the U.S. Bankruptcy Code. The 
Recovery Act was designed to allow public corporations to adjust their 
debt in an orderly process--with creditor input and court supervision--
while protecting the collective interest of their constituents, 
including bondholders and other creditors, as well Puerto Rico's 
residents and businesses who depend on them for the essential services 
they provide. The Recovery Act ensured that the provision of essential 
public services to Puerto Rico's residents would not be interrupted in 
the event of a fiscal emergency.
    Immediately after the passage of the Recovery Act, two groups of 
PREPA bondholders filed suit, seeking judgments declaring the Recovery 
Act unconstitutional. On February 6, 2015, the U.S. District Court for 
the District of Puerto Rico enjoined enforcement of the Recovery Act, 
holding that the Recovery Act is unconstitutional because it is pre-
empted by Section 903 of the U.S. Bankruptcy Code. Specifically, the 
court concluded that Puerto Rico cannot pass a law allowing its public 
corporations to adjust their debts through a method of composition. The 
Commonwealth and the GDB have appealed the ruling and the matter is 
under advisement. It is not appropriate for me to comment on the 
specifics of the appeal, or the reasons why we believe the Recovery Act 
is lawful, but I can say that we are hopeful that the court will uphold 
the legality of the Recovery Act as a means of addressing Puerto Rico's 
fiscal crisis.
    More recently, the Commonwealth's Resident Commissioner, the Hon. 
Pedro Pierluisi, who joins me on the panel, introduced legislation that 
would amend the U.S. Bankruptcy Code's definition of ``State'' to 
include Puerto Rico for purposes of Chapter 9. See H.R. 870, 114th 
Cong. Sec. 2 (2015). If enacted, the Commonwealth's political 
subdivisions, public agencies, and instrumentalities would be treated 
like every other municipality in the United States. There would no 
longer be a need for the Recovery Act.
    In the end, the practical and unfortunate result of the District 
Court's decision enjoining enforcement of the Recovery Act is that 
there is currently no available legal regime for Puerto Rico's public 
corporations to adjust their debts through a consensus-based, court-
supervised process. In this respect, Puerto Rico is treated differently 
than every state in the Nation.
    the consequences of treating puerto rico differently under the 
bankruptcy code are significant, but extending chapter 9 to puerto rico 
                     provides significant benefits
    The absence of any legislative tools to adjust the debts of Puerto 
Rico's public corporations has exacerbated Puerto Rico's fiscal 
challenges by creating an environment of uncertainty that makes it more 
difficult to address these challenges. It has increased Puerto Rico's 
cost of borrowing; it may require Puerto Rico to take extraordinary 
liquidity measures to ensure the continued performance of essential 
public services; it may encourage creditors to race to the courthouse 
and exercise remedies that include attempting to appoint a receiver; 
and it will ultimately depress economic growth in Puerto Rico, making 
long-term investment and capital expenditure plans at the public 
corporations impossible.

    Extending Chapter 9 to Puerto Rico, however, would provide 
significant benefits to all stakeholders.

    First, Chapter 9 provides an orderly process for debt adjustment 
that is understood by the capital markets, creditors, prospective 
lenders, and suppliers. Specifically, it provides a framework that 
requires the public corporation to negotiate in good faith, creating an 
ideal environment to reach consensus under the supervision of an 
experienced court. Chapter 9 has also been tested many times, 
including, most recently, in Detroit, Michigan, Stockton, California, 
and Jefferson County, Alabama, to name a few. These municipalities are 
now on their way to recovery and renewed prosperity.
    Second, public corporations in Chapter 9 would be permitted to 
obtain debtor-in-possession financing and use cash collateral under 
well-tested procedures, permitting the continuation of normal 
operations and the provision of essential public services to Puerto 
Rico's residents. Third, oversight by a U.S. Bankruptcy Judge with 
expertise in insolvency matters will also ensure that all parties in 
interest have recourse to an independent arbiter and no party is denied 
its rights.
    In short, the virtue of Chapter 9 can be seen in the successes of 
its most recent graduates, including the city of Detroit, whose 
adjustment proceedings lasted less than 18 months, and Stockton, whose 
adjustment proceedings lasted less than 2 years. There is simply no 
good reason to deny the residents and creditors of Puerto Rico what has 
proven time and again to be a vital tool for recovering from dire 
economic straits.
 congress can take other measures to assist puerto rico in navigating 
                          through this crisis
    There are a number of other measures Congress can take to assist 
Puerto Rico during this financial crisis. For example, Congress could 
provide Puerto Rico with a limited exemption from the Merchant Marine 
Act of 1920, which is more commonly known as the ``Jones Act,'' to 
significantly reduce the cost of doing business and delivery services 
in Puerto Rico. The Jones Act imposes significant restrictions on 
shipping between U.S. ports, thereby significantly driving up the cost 
of all goods in Puerto Rico and depressing the Puerto Rican economy. 
The Jones Act requires that all goods shipped, or passengers conveyed, 
by water between ports in the United States, including ports in Puerto 
Rico, be carried in U.S.-flagged ships, which are primarily constructed 
in the United States and owned and crewed by U.S. citizens and 
permanent residents. Because Puerto Rico is an island economy, the 
Jones Act disproportionately harms the local economy. Specifically, the 
Jones Act severely limits the supply and increases the costs of 
shipping services, imposing a substantial burden on local productivity 
(this is particularly pronounced in Puerto Rico's energy sector--
including PREPA--because nearly all of the electricity is generated by 
oil that is shipped to Puerto Rico). Congress could even grant a 
temporary exemption from the Jones Act in order to evaluate its impact 
on Puerto Rico's economy and assess the costs and benefits of a 
permanent exemption.
    Moreover, Congress needs to fix the significant reductions in 
Federal health care funding that will harm Puerto Rico's residents in 
the near future. Puerto Rico has begun experiencing significant 
reductions in Federal health care funding. These reductions are not in 
line with funding treatment received by the 50 states and they threaten 
the health and welfare of Puerto Ricans, as well as Puerto Rico's 
financial and economic stability. I understand that a further reduction 
will occur when the 2016 Center for Medicaid and Medicare Services rate 
structure becomes effective and cuts Medicare Advantage funding by 11 
percent in Puerto Rico while increasing it by 3 percent on the 
mainland. This cut compounds the difficulties that Puerto Ricans--who 
pay the same Social Security and Medicare taxes as mainland residents, 
but receive significantly lower reimbursement rates--face. It also 
threatens the viability of Medicare Advantage on a going-forward basis, 
and should Medicare Advantage collapse, patients may move to Mi Salud, 
Puerto Rico's Medicaid program, which already receives 70 percent lower 
reimbursement rates than any mainland state and faces a funding 
shortfall within the next few years, when a grant provided under the 
Affordable Care Act is exhausted.
    Finally, Congress and the U.S. Department of the Treasury can 
provide clarity on the creditability of certain taxes paid in Puerto 
Rico pursuant to a local law known as Act 154 on Federal income tax 
returns. Act 154, which was enacted in 2010, imposed a special 
temporary excise tax and has become one of Puerto Rico's principal 
sources of tax revenue. Act 154 revenues accounted for approximately 20 
percent of Puerto Rico's General Fund revenues in 2012, 2013, and 2014. 
The Act 154 tax base is very small (only 27 groups of affiliated 
taxpayers paid the special temporary excise tax in Fiscal Year 2015), 
and six of these groups accounted for approximately 75 percent of 
collections. The GDB has noted that any action the U.S. Department of 
the Treasury to reduce or eliminate the Federal income tax credit 
available with respect to the Act 154 temporary excise tax is likely to 
reduce Act 154 revenues.
    In conclusion, I believe that we should focus our attention to 
these matters of critical importance to our Island, around which there 
is common understanding and consensus. There is widespread consensus on 
the approval of H.R. 870, which was introduced by our Resident 
Commissioner, to amend the U.S. Bankruptcy Code to treat Puerto Rico 
like a ``state'' for purposes of Chapter 9. In addition, Congress can 
take other measures, including crafting an exemption from the Jones 
Act, amending the automatic sunset provisions of much-needed health 
care funding, and providing certainty on creditability of certain taxes 
paid in Puerto Rico. Of course, these are just a few of the ways in 
which Congress can assist Puerto Rico, but they would be a good start.

                                 ______
                                 

    Mr. Young. Thank you, sir. Ruben Berrios, former Senator, 
Puerto Rican Senate Independence Party, you are up.

STATEMENT OF RUBEN BERRIOS, FORMER SENATOR IN THE PUERTO RICAN 
SENATE, PRESIDENT OF THE PUERTO RICO INDEPENDENCE PARTY (PIP), 
                     SAN JUAN, PUERTO RICO

    Mr. Berrios. Mr. Chairman and members of the subcommittee, 
the virtual bankruptcy of Puerto Rico's economy is a self-
evident reality. Puerto Rican voters have repudiated the 
territorial status that is the root cause of our economic and 
social problems. The territorial status was never democratic 
and has now become tyrannical.
    Internationally, the community of Latin American and 
Caribbean states has recently reaffirmed its support for the 
right of Puerto Rico to its self-determination and 
independence. And yet Congress refuses to comply with its 
decolonizing obligation toward Puerto Rico.
    This subcommittee is well aware of Puerto Rico's status 
problem. For decades it has held hearings on the issue, and 
many in Puerto Rico can reasonably wonder whether this 
oversight hearing pursues a legitimate legislative purpose, or 
is merely a pro forma, partisan, quid pro quo. Only time will 
tell.
    I shall utilize this hearing to publicly propose a route 
map toward the solution of Puerto Rico's status problem. The 
relationship between Puerto Rico's territorial status and our 
economic and social problems has been well summarized by 
Senator Ron Wyden, Chairman of the Committee on Energy and 
Natural Resources. I quote, ``Puerto Rico faces huge economic 
and social challenges. . . . The lack of resolution of Puerto 
Rico's status not only distracts from addressing these and 
other issues, it contributes to them. As the most recent 
reports from the President's Task Force on Puerto Rico's status 
found--and I quote--`identifying the most effective means of 
assisting the Puerto Rican economy depends on resolving the 
ultimate question of status'.''
    Senator Wyden further added, ``The present relationship 
undermines our moral position in the world.''
    To say that Puerto Rico should first decide what it wants, 
as President Obama has proposed, is merely an excuse to evade 
the legal responsibility of the United States as a colonial 
power, particularly when the President insists that the 
territorial relationship already repudiated by the Puerto Rican 
electorate should be one of the options. Colonialism is the 
problem, not the solution.
    We, therefore, propose the following process to resolve 
Puerto Rico's status problem. Puerto Rico and the U.S. Congress 
should engage in a collaborative process of self-determination 
for Puerto Rico.
    In Puerto Rico, various proposals have been advanced to 
initiate the process. The party I preside, for example, has 
proposed a status assembly in which each status option, 
proportionately represented, would formulate a proposal for its 
desired non-colonial, non-territorial option, requiring a 
response by the U.S. Government by a date certain. Ultimately, 
only realistic, non-territorial options negotiated with the 
U.S. authorities would be submitted to the Puerto Rican 
electorate.
    Unfortunately, the present government of Puerto Rico 
refuses to move in this direction. However, Congress could jump 
start a process directed toward the same end. Bipartisan 
representatives of the congressional leadership, in 
coordination with the executive branch, could convene 
representatives of the different status alternatives to present 
their respective decolonizing status proposals. In response, 
Congress would then specify which alternatives, and under what 
conditions it would be willing to consider. The Puerto Rican 
people could then cast a meaningful vote for the available non-
colonial, non-territorial options.
    If Congress takes no action, and the colonialist PPD 
prevails in Puerto Rico's 2016 election, the democratic 
bankrupt territory of extreme dependency will continue to breed 
support for statehood. If the pro-statehood party prevails, 
Congress will then be faced with a statehood petition as a 
consequence of a statehood yes-or-no vote. That vote would be 
totally uninformed as to the conditions that Congress would 
impose, and driven principally by the widespread notion that 
statehood represents an endless cornucopia of Federal funds. 
You would then be faced not only with the economic crisis in 
Puerto Rico, but with a political crisis of unforeseeable 
consequences to the United States. The rational way to avoid 
such a scenario would be to start a collaborative process of 
self-determination.
    Time is running out. To conclude, I must urge and demand of 
the President of the United States the immediate release of 
political prisoner Oscar Lopez Rivera, who has been in prison 
for more than 34 years here in the United States. Thank you 
very much.
    [The prepared statement of Mr. Berrios follows:]
 Prepared Statement of Ruben Berrios Martinez, President, Puerto Rican 
                           Independence Party
    Mr. Chairman and members of the subcommittee: The virtual 
bankruptcy of Puerto Rico's economy is a self-evident reality.

    Puerto Rican voters have repudiated the territorial status that is 
the root cause of our economic and social problems. A territorial 
status that was never democratic has now become tyrannical.
    Internationally the community of Latin American and Caribbean 
states (CELAC) which includes all the heads of states of the region has 
recently reaffirmed its support for the right of Puerto Rico to its 
self-determination and independence. A similar position has been 
adopted by the U.N. Decolonization Committee.
    And yet Congress refuses to comply with its decolonizing obligation 
toward Puerto Rico.
    What more is needed for Congress to act?
    It is my duty as President of the Puerto Rican Independence Party 
to utilize any forum available to demand an end to colonial rule. 
Furthermore I shall utilize this hearing to publicly propose a route 
map toward the solution of Puerto Rico's status problem.
    The relationship between Puerto Rico's territorial status and our 
economic and social problems is by now a recognized reality. In the 
words of Senator Ron Wyden, Chairman of the Committee on Energy and 
Natural Resources at an oversight hearing on August 1, 2013, ``Puerto 
Rico faces huge economic and social challenges. Per capita income is 
stuck at about half that the poorest U.S. state. The violent crime rate 
is well above the national average and raising. The lack of resolution 
of Puerto Rico's status, not only distracts from addressing these and 
other issues, it contributes to them. As the most recent reports from 
the president's Task Force on Puerto Rico's status found and I quote, 
``identifying the most effective means of assisting the Puerto Rican 
economy depends on resolving the ultimate question of status''.'' [The 
emphasis is mine]
    The real question before Congress is therefore what will you do to 
bring about a resolution to Puerto Rico's undemocratic political 
subordination?
    To say that Puerto Rico should first decide what it wants, as 
President Obama has proposed, is merely an excuse to evade the legal 
obligations of the United States as a colonial power; particularly when 
the President insists that the territorial relationship--already 
repudiated by the Puerto Rican electorate--should be one of the 
options. Colonialism is the problem, not the solution.
    Furthermore for there to be a meaningful choice among viable 
alternatives, the U.S. Government must clarify what the decolonizing 
options are, what each would entail, and under what conditions it would 
commit to a process to achieve them.
    We therefore propose the following process to resolve Puerto Rico's 
status problem: Puerto Rico and the U.S. Congress should engage in a 
Collaborative Procedure for the Self-Determination of Puerto Rico.
    It is the rational way out.
    In Puerto Rico various proposals have been advanced to initiate the 
process. The party I preside, for example, has proposed a Status 
Assembly in which each status option proportionately represented would 
formulate a proposal for its desired non-colonial, non-territorial 
option requiring a response by the U.S. Government by a date certain. 
In the demand for a response all delegations would stand united. 
Ultimately only realistic non-territorial options negotiated with U.S. 
authorities would be submitted to the Puerto Rican electorate.
    Unfortunately the present government of Puerto Rico refuses to move 
in this direction.
    However, Congress could jump start a process directed toward the 
same end. An appropriate mechanism could be established to operate 
within a limited time frame. Bipartisan representatives of the 
congressional leadership in coordination with the executive branch 
would convene representatives of the different status alternatives to 
present their respective decolonizing status proposals. In response 
Congress would then specify which alternatives and under what 
conditions it would be willing to consider. The Puerto Rican people 
could then cast a meaningful vote for the available non-colonial, non-
territorial options. Naturally any alternative other than independence 
involves a process of mutual self-determination.
    If Congress takes no action and the colonialist PPD prevails in 
Puerto Rico's 2016 election, the undemocratic bankrupt territory of 
extreme dependency will continue to breed support for statehood. If the 
pro-statehood PNP prevails Congress will then be faced with a statehood 
petition as a consequence of a Statehood Yes or No vote which that 
party has pledged to implement. That vote would be totally uninformed 
as to the conditions that Congress would impose and driven principally 
by the widespread notion that statehood represents an endless 
cornucopia of Federal funds. You would then be faced not only with an 
economic crisis in Puerto Rico, but with a political crisis of 
unforeseeable consequences in the United States. The rational way to 
avoid such a scenario would be to start a Collaborative Process of 
Self-determination.

    The choice is yours. Time is running out.

    I have included an addendum which is a detailed exposition of the 
relationship between Puerto Rico's territorial status and our economic 
and social problems.

                                Addendum

    La economia de Estados Unidos ha estado creciendo, luego de la 
crisis de 2008, desde el tercer trimestre del ano 2009. Su desempleo, 
que llego hasta un 10 por ciento, se ubica en alrededor de 5.5 por 
ciento. En contraste, la economia de Puerto Rico, cuya ``recesion'' se 
inicio oficialmente en marzo de 2006 -antes de la crisis financiera de 
Estados Unidos y de otros paises- continua en franca contraccion. Este 
desfase entre Puerto Rico y Estados Unidos hace patente el hecho de que 
el agotamiento de la economia de nuestro pais no es un fenomeno ciclico 
o pasajero sino que, como han senalado tantos economistas del patio 
como extranjeros (entre otros el premio Nobel de Economia Joseph 
Stiglitz), se trata de un problema estructural e institucional.
    En sintesis, Puerto Rico carece de los instrumentos institucionales 
(fiscales, monetarios, comerciales, regulatorios, etc.) para 
desarrollarse sanamente. Por lo tanto, ante la crisis lo unico que hace 
es manifestar su impotencia.
    Los titulares de los periodicos destacan diariamente la indefension 
politica, la contraccion economica, el descalabro social, el peso del 
endeudamiento y la insuficiencia fiscal del gobierno. Ya los hechos son 
mas elocuentes que las palabras.
    Del ano 2006 al presente la ruta que ha transitado la economia de 
Puerto Rico solo puede caracterizarse como catastrofica. Segun los 
datos de la Junta de Planificacion el Producto Nacional Bruto sobre 
bases reales se ha reducido en mas de 13 por ciento. Esta contraccion 
se refleja dramaticamente en el mercado de empleo. Del ano fiscal 2006 
al ano fiscal 2014 el numero de personas empleadas se redujo en 20 por 
ciento. Puerto Rico cuenta con una de las tasas de empleo -la 
proporcion de empleados respecto a la poblacion de 16 anos o mas- mas 
baja del mundo. En el ano 2006 era de 43.2 por ciento. Eso es bajo. Hoy 
no sobrepasa el 35 por ciento. En otras palabras, el 65 por ciento de 
la poblacion de 16 anos o mas no esta empleada. Esto, aparte del 
desempleo, se traduce en dos grandes problemas: dependencia y 
desarrollo de la economia informal o subterranea, con el consecuente 
azote de la criminalidad y de la creciente inseguridad social que todo 
esto genera.
    Estos problemas no deben despacharse como si fueran expresion de 
una fase pasajera del mercado o reflejo de la crisis financiera en 
otros paises. La contraccion economica comenzo en marzo de 2006 -hace 
nueve anos-, mucho antes que la debacle financiera que precipitara la 
recesion en la economia estadounidense y en otras economias. Ademas, 
fue precedida por un largo periodo de relativo estancamiento, a partir 
de la decada de 1970, que ni la Seccion 936, ni las transferencias 
Federales ni el endeudamiento publico pudieron evitar. A este periodo 
le precedio un tramo de alto crecimiento del enclave industrial en 
funcion de privilegios fiscales que no pudo conjurar los altos niveles 
de desempleo y que se acompano de un enorme flujo emigratorio y de una 
creciente remision de ganancias hacia el exterior.
    En el siglo 21 la emigracion masiva ha reaparecido con mayor 
intensidad, hasta el extremo que la poblacion total del pais acusa 
reduccion continua. Por otro lado, aunque resulte inconcebible, los 
rendimientos de capital (ganancias, dividendos e intereses) remitidos 
al exterior sumaron $36,052.2 millones en el ano fiscal 2014. Esto 
refleja una mezcla perversa de exenciones tributarias y precios de 
transferencia que han permitido la instalacion de enclaves economicos 
cuyos beneficios no se traducen en desarrollo sustentable para el pais.
    Ahora, la agudizacion de todos los problemas citados coincide con 
un gobierno cuyos grados de libertad de operacion parecen reducidos al 
minimo: sus finanzas ``agonizan'' y su margen de endeudamiento ha 
llegado practicamente al limite. El escenario fiscal luce tragico: 
deficit presupuestario, deuda insostenible, anuncio de recortes, 
inseguridad de empleo, deterioro de servicios, impuestos improvisados, 
sistemas de retiro en crisis, medidas de corto plazo (como la 
transferencia de fondos del Fondo del Seguro del Estado al Fondo 
General) que agravarian la situacion en el futuro inmediato y sume y 
siga. Y todo esto acompanado por un sector corporativo publico, 
encabezado por la Autoridad de Energia Electrica, igualmente lastrado 
por deudas e insolvencia.
    Ante tal panorama economico aun los defensores de la colonia han 
reconocido que hay que realizar reformas institucionales, como es el 
caso, por ejemplo, de las Leyes de Cabotaje y la Ley de Quiebras donde 
se hace patente el hecho de que Puerto Rico es una colonia. Pero para 
superar los graves problemas que Puerto Rico enfrenta no basta con 
reformar una que otra ley. Puerto Rico necesita una completa caja de 
herramientas politicas y economicas para llevar a cabo los profundos 
cambios institucionales y estructurales que le permitan encarar sus 
problemas efectivamente. La condicion indispensable para la 
articulacion del nuevo ordenamiento institucional es pues, la 
superacion del coloniaje a traves de la independencia que es la unica 
que provee la caja de herramientas que necesitamos.
    Vivimos en un mundo en el que los cambios institucionales y 
tecnologicos se han acelerado. Estamos rodeados de nuevos arreglos 
politicos y de nuevas redes de relaciones economicas cobijadas por 
complejos tratados multilaterales, regionales y bilaterales. Puerto 
Rico no puede permanecer al margen. Le va la vida.
    La dimension politica y la economica estan inextricablemente 
unidas. Mientras mas se intente eludir el problema del status de Puerto 
Rico mas evidente se tornara la necesidad de enfrentarlo.

                                 ______
                                 

    Mr. Young. I thank the gentleman. Are you ready? Questions? 
I will recognize the Minority leader for questions.
    Mr. Sablan. I will yield to----
    Mr. Young. You have questions?
    Mr. Sablan. I will yield to Mrs. Torres.
    Mr. Young. Mrs. Torres, go ahead. You are getting closer. 
You keep it up, we will be hugging soon.
    Mrs. Torres. I know.
    Mr. Young. Oh, that sounds good.
    Mrs. Torres. Anything that gets me closer to you, Chairman, 
would be a wonderful thing. And thank you for allowing me to 
come before my colleagues.
    My question would be to Mr. Miranda. Do you think that 
Puerto Rico's territory status is a cause of Puerto Rico's 
economic and fiscal problems, or just a contributing factor? Or 
do you think that the issues are totally distinct?
    Mr. Rodriguez. First, let me qualify the concept of 
territorial status, that the present government does not accept 
as so. And ``commonwealth'' has been defined in other legal and 
constitutional relationships with the United States. But, 
nonetheless, I do not want to expand too much on that. The 
critical economic circumstances that we are facing in Puerto 
Rico are the consequence of many years of perhaps overspending. 
We have to admit that, in some cases, we should have been much 
more careful. But, nonetheless, in some way the island has been 
dealing with some difficulties in dealing with that sort of 
economic condition.
    For instance, every state has a right to resort to a law 
that allows Chapter 9 to be implemented. Therefore, any 
municipality in any state can resort to it. Somebody has said 
that Puerto Rico wants to have a bail out. Puerto Rico is not 
interested in having a bail out by approving H.R. 870, and 
extending Chapter 9 to Puerto Rico.
    Mrs. Torres. I have one more question, so let me stop you 
there. My next question would be to Mr. Berrios. I want to make 
sure I get both of my questions on the record. We can follow 
up.
    Puerto Ricans are leaving the island in huge numbers, and 
they are immigrating to the states. They are not necessarily 
leaving to other countries. In light of this, do you believe 
Puerto Rico's economy would perform better as a sovereign 
nation, or as a state?
    Mr. Berrios. It is Mr. Berrios.
    Mrs. Torres. Oh, Berrios.
    Mr. Berrios. Yes.
    Mrs. Torres. Disculpa.
    Mr. Berrios. No hay problema. Of course, I think the island 
economy will be much better off as a republic, because we would 
then have the tools necessary and the powers necessary to 
diversify our economy, to protect our production, to enter into 
commerce with other nations, to buy in cheaper markets. For a 
number of reasons--I could keep on enumerating them.
    Now in Puerto Rico, we have been under depressive 
conditions since 2006. We have gone down 13 percent in our 
gross domestic product--13 percent. We have shrunk. And since 
1970, we have been practically stagnated. This political status 
does not produce prosperity for the people of Puerto Rico, and 
we need the necessary tools to enter into the world market, 
keep up with the commerce with the United States, but have in 
our hands the means, as every other nation in the world does, 
including the United States, to promote its own economy. And 
the only way to do that is through the powers of independence.
    Mrs. Torres. As a sovereign nation?
    Mr. Berrios. As a sovereign nation, of course. I would pose 
the following rhetorical question to you--If independence is so 
bad, why do we have more than 200 and some-odd independent 
countries, including the United States, and only one territory?
    Mrs. Torres. Thank you, sir. I am not here to answer 
questions, I am here to ask them.
    Mr. Young. Thank you. Ms. Radewagen, you are up.
    Mrs. Radewagen. Thank you, Mr. Chairman.
    I, too, want to welcome the panel of distinguished 
witnesses, the first panel.
    I have a question for Congressman Pierluisi. Some pro-
statehood advocates in Puerto Rico argue that Puerto Rico 
already voted for statehood in 2012, and should not have to 
vote again. You have pointed out the following: when Alaska and 
Hawaii were territories, they each held votes sponsored by the 
local government in which voters expressed a desire for 
statehood. Ultimately, Congress approved an Admission Act for 
Alaska in July 1958, and an Admission Act for Hawaii in March 
1959. Those Acts of Congress provided for admission to occur 
once a majority of voters affirmed in a federally-sponsored 
vote that they desired statehood.
    So you are essentially proposing the same procedure for 
Puerto Rico as was used in Alaska and Hawaii, right?
    Mr. Pierluisi. You are absolutely right, Madam 
Congresswoman. That is exactly what we are doing. We are 
following the path of Alaska and Hawaii. In both former 
territories, there were locally organized plebiscites--if I 
recall correctly, in Alaska, about 57 percent of the population 
supported statehood. And many years later, they finally got it. 
Alaska finally became a state.
    But when Congress decided to legislate it, the admission of 
Alaska, it was conditioned upon a vote by the people of Alaska, 
basically ratifying the admission. And the vote happened, and 
to no surprise, then a much bigger majority of voters in Alaska 
supported the admission, and became a state.
    The same happened in Hawaii. In Hawaii, if my recollection 
serves me right, the plebiscite result was about 67 percent or 
so. And years later, the same process happened. It was, 
coincidental, very close to the time when Alaska came in----
    Mr. Young. Would the gentleman cease for a moment? Whoever 
has that cell phone in this room, you better shut it off, or I 
will ask you to leave. It is impolite to have a cell phone on 
at any time.
    You may proceed.
    Mr. Pierluisi. So, why am I proposing an up-or-down vote on 
the admission of Puerto Rico as a state? Simple. In 2012, a 
majority of the people of Puerto Rico, 54 percent, rejected the 
current status. And more people voted for statehood than any 
other option, including the current status. Given that 
scenario, the next logical step should be a vote on statehood. 
We had a yes or no in 2012, with respect to the current 
territory. Why not have one with respect to statehood? Anybody 
supporting statehood could vote yes.
    My colleagues here, probably in all likelihood, would vote 
no, for whatever reasons. If you support independence for 
Puerto Rico, you would vote no. If you want Puerto Rico to be a 
sovereign nation with a compact of association with the United 
States, you could vote no.
    So that is what I am proposing. It is fair. Nobody can say 
they would be excluded. All the voters in Puerto Rico could 
express themselves. And that is my position. Thank you.
    Mrs. Radewagen. Thank you, Mr. Chairman. I yield back.
    Mr. Young. My good lady friend from Guam.
    Ms. Bordallo. Thank you very much, Mr. Chairman, and I 
thank you for your leadership on addressing these issues that 
are so very important to the territories.
    I welcome our former colleagues, the governors and the 
mayors and the other leaders from Puerto Rico. It is very nice 
to have you here with us in this very important hearing. I also 
commend Mr. Pierluisi, who has worked diligently to advance 
self-determination efforts, and who champions Puerto Rico's 
issues here in Congress.
    Like our brothers and our sisters in Puerto Rico, the 
people of Guam aspire to determine our political future, and 
fully exercise our right to self-determination. I commend 
Puerto Rico's local leadership for their efforts to determine 
their political status, and I have urged local leaders on Guam 
to make similar efforts, so that we can move forward with our 
self-determination.
    But this process is two-fold. Congress holds the 
institutional obligation to address the political status of 
Puerto Rico and the other territories under Article 4 of the 
Constitution. So I urge this committee to give due 
consideration to the views of the people of Puerto Rico on this 
issue.
    My first question is to you, Mr. Pierluisi. You have argued 
that Puerto Rico's economic challenges make self-determination 
even more urgent now. You are an ardent advocate for statehood 
for Puerto Rico. If statehood vote were selected by the voters, 
and Congress approves it, how could statehood address Puerto 
Rico's difficult economic situation, which is the case now?
    Mr. Pierluisi. Well, the fact is that Puerto Rico has been 
lagging the states now for over four decades. Ever since the 
1970s, Puerto Rico's unemployment, on average, has been 4 or 5 
percent more than on the mainland. Ever since the 1970s, our 
growth has been lagging the one in the mainland. We have been 
behind. Income per capita, the GDP per capita in Puerto Rico, 
consistently has been about one-third the average in the 
states, and one-half the one for the poorest state, 
Mississippi.
    So, it is pretty obvious to me--and let me add one thing, 
an additional fact which is very important. The debt that we 
are talking about, $72, $73 billion, it piled up under the 
current status. So it is pretty obvious to me that the common 
element here is that the current status is not working as a 
platform for Puerto Rico's economic development, for our 
quality of life.
    To add insult to injury, our island is losing population 
like never before: 250,000 American citizens hopping on a plane 
and moving to the states to have the rights and the 
opportunities and the jobs they don't find in Puerto Rico. 
Actually, they are voting with their feet--because once they 
move to the states, they can vote for the President, they can 
elect Members of Congress, and they have equal rights in 
Federal programs, which we don't have in Puerto Rico.
    Now, why would statehood be good for Puerto Rico? Well, 
let's talk about Hawaii and Alaska. In both Hawaii and Alaska 
you had growth, additional growth, once they became states. 
Let's talk about the fact that Puerto Rico's status, by its 
very nature, is not stable. It is insecure. There is political 
risk in Puerto Rico. So statehood is a permanent status. It is 
a stable status which will be very attractive, in terms of 
attracting additional investment to the island.
    When we talk about Federal funding, because of the 
disparities we face, Puerto Rico would be receiving billions of 
additional funding that would flow into our economy if we 
become a state.
    The bill I have introduced proposes basically a 4-year 
transition period, because the parity in Federal programs would 
happen gradually, as well as the taxes that would have to apply 
in Puerto Rico. You could phase them in, as well. So this 
wouldn't happen overnight, but I am sure that, once we put 
Puerto Rico on the path to statehood, we will grow, we will 
have a better quality of life, and our people will stay in 
Puerto Rico.
    Ms. Bordallo. Thank you very much. Mr. Chairman, I have 
another question. Are we going to make a second round?
    Mr. Young. I will let you ask it now.
    Ms. Bordallo. Good. Thank you, Mr. Chairman. This one is 
for Mr. Miranda.
    Last year, Congress appropriated $2.5 million to Puerto 
Rico for a new plebiscite to resolve Puerto Rico's political 
status. Now I understand that the DOJ must approve the 
expenditure plan, ensuring that the plan is compatible with the 
Constitution and laws and policies of the United States. Has a 
plan been submitted? And would such a plan be compatible with 
the U.S. laws and policies?
    Mr. Rodriguez. The plan seems compatible with the U.S. law, 
as you just said. My understanding is that there was a process 
for defining the status that we are going to be participating 
on a referendum. That definition had to be approved by the 
Secretary--by the Attorney General of the United States.
    Where the due process stands now I really do not know, but 
I understand that at some point the Governor of Puerto Rico was 
getting involved in some conversations with the Department of 
Justice to address that point, and to have organized the 
process in Puerto Rico for that event to take place. I cannot 
assure you at this moment what is the actual state of that 
initiative that was very much welcome in Puerto Rico.
    Ms. Bordallo. Thank you very much for the information, and 
I yield back, Mr. Chair.
    Mr. Young. Do you want to ask questions? I recognize the 
Ranking Member.
    Mr. Sablan. Thank you very much, Mr. Chairman. And welcome 
again, everyone.
    Now, this panel, let me get something straight. This panel 
consists of the heads of three political parties in Puerto 
Rico. Is that correct? Mr. Pierluisi is the President of the 
New Progressive Party; the Minister of Justice was the Popular 
Democratic Party; and Mr. Berrios is the President of Puerto 
Rico Independence Party? Is that correct?
    Mr. Rodriguez. Yes, Mr. Chairman, but let me clarify. I am 
appearing here as a representative of the Governor in his 
executive functions. The Governor is also the President of the 
Popular Democratic Party in Puerto Rico, but I am not 
representing him on that particular position. So, therefore, I 
am not here representing the Popular Democratic Party. I am 
here appearing just as a representative of the Governor in his 
executive level.
    Mr. Sablan. So what, then, are you doing here, if you 
didn't get invited? We invited the President of the Popular 
Democratic Party.
    Mr. Rodriguez. I understand that----
    Mr. Sablan. Why are you here?
    Mr. Rodriguez. I am here because the Governor was invited 
in two different categories. He was invited as Governor, and he 
was invited as President of the Popular Democratic Party.
    Mr. Sablan. We made the invitation. We should know who we 
invited--and I think maybe you misunderstood, but we certainly 
don't misunderstand who we invited. Can I ask you a political 
question, then?
    Mr. Rodriguez. You invited the Governor of Puerto Rico, and 
I am appearing here, representing the Governor of Puerto Rico 
in his capacity as governor, not in his capacity as president 
of the Popular Democratic Party.
    Mr. Sablan. I am confused now, because my questions are 
directed to you----
    Mr. Rodriguez. You can direct the question to me, and I can 
decide if there is a----
    Mr. Sablan. You don't have to decide when to answer, sir. 
If you came here, I am assuming you came here as the head of a 
party. But you don't just come here--I mean this is by 
invitation only.
    Mr. Rodriguez. I understand that.
    Mr. Sablan. So let me ask you--because the Governor was 
invited to testify. You agree with that, at least, right? About 
Puerto Rico's political status, and the connection between that 
party, the island's territorial status, and its economic 
problems--and let me ask you something, because--let me make it 
very clear. You want Chapter 9 for Puerto Rico, right? You 
think it benefits Puerto Rico----
    Mr. Rodriguez. I view Chapter 9 of the bankruptcy law for 
Puerto Rico----
    Mr. Sablan. You agree with that, right?
    Mr. Rodriguez. As the Attorney General, I assure you that 
that will be----
    Mr. Sablan. That Chapter 9 is allowed for states.
    Mr. Rodriguez. Well----
    Mr. Sablan. States--the 50 states have the privilege of 
Chapter 9----
    Mr. Rodriguez. Right. That is----
    Mr. Sablan. So you don't want to be a state, but you want 
what belongs to a state.
    Mr. Rodriguez. Well, I will tell you.
    Mr. Sablan. All right.
    Mr. Rodriguez. That could happen. Puerto Rico, as a 
commonwealth, can be treated differently from states. But, 
again, there are many other rights exercised by states that are 
also being granted to Puerto Rico. So why is there a difference 
regarding Chapter 9?
    Mr. Sablan. That is not just Puerto Rico----
    Mr. Rodriguez. I do not understand that difference----
    Mr. Sablan. That is not exclusive to Puerto Rico, that is 
also to the other territories, including the Northern Marianas. 
But you want something that is a privilege extended to the 50 
states, and you want that for Puerto Rico, but you don't want 
Puerto Rico to be a state.
    You are holding on also--I understand your government----
    Mr. Rodriguez. No, excuse me one second----
    Mr. Sablan [continuing]. You are holding on to $2.5 million 
that we appropriated for a plebiscite, a straight up or down 
question on whether Puerto Rico should favor statehood, Puerto 
Ricans favor statehood. You haven't had that plebiscite. We 
gave you the money, so it is no longer a question of money. So 
why don't you have that plebiscite?
    Mr. Rodriguez. I explained, sir, that I am appearing here 
just----
    Mr. Sablan. Mr. Chairman, he is not going to answer my 
question. I yield back.
    Mr. Young. Thank you. Mr. Grijalva--I've got the Ranking 
Member and the Ranking Member. Which one is the rankest? He is 
the rankest?
    Mr. Grijalva. We are both----
    Mr. Young. OK, you are both rankest? All right, Mr. 
Grijalva.
    Mr. Grijalva. Thank you, Mr. Chairman. Very kind of you. 
And thank you for holding the hearing, and welcoming all the 
witnesses and former colleagues that are here with us today. 
And the sponsor of two pieces of legislation, our colleague on 
the committee, Mr. Pierluisi, who has worked long and hard in 
dealing with both the economic reality and challenges that are 
facing Puerto Rico now, as well as a piece of legislation that 
calls for a vote on the status and the statehood status--the 
Puerto Rico Statehood Admission Act, using the money that was 
appropriated previously, as the source for the election cost 
and the promotion of that.
    The other one I think is very important, the submitted H.R. 
870, because it is about equal treatment. And until the other 
issue, in terms of status and jurisdiction are settled, I think 
it is an important piece of legislation, because it talks about 
status. The 11 percent cut in Medicare only on the island, that 
is not an appropriate response to the economic crisis. Allowing 
Chapter 9 bankruptcy for state-owned--whether it be power or 
other authorities, and allowing the government-owned companies, 
as well as municipalities, to use Chapter 9, as would be the 
availability to any community or publicly-owned company here on 
the mainland.
    So I want to thank the gentleman for that. I have a long, 
beautiful statement--10 pages--Mr. Chairman, that I will submit 
for the record.
    Mr. Young. I gladly have you submit it for the record.
    Mr. Grijalva. Thank you.
    [The prepared statement of Mr. Grijalva follows:]
Prepared Statement of the Hon. Raul Grijalva, Ranking Member, Committee 
                          on Natural Resources
    Thank you, Mr. Chairman, and thank you for holding this hearing. I 
want to welcome all of the witnesses, particularly our former 
colleagues, Governors Fortuno, Acevedo Vila and Romero. Today's hearing 
will look at the relationship between Puerto Rico's political status 
and the economic challenges they are facing.
    The Island of Puerto Rico has been a territory of the United States 
since 1898. In all that time, the island's economy has seen its ups and 
downs. It became one of the great post-war economic success stories as 
a manufacturing powerhouse with a thriving middle class. But in the 
1990s the Puerto Rican economy slowed with the repeal of the popular 
possession tax credit, which allowed U.S. corporations to defer paying 
U.S. income taxes on income earned in Puerto Rico. Since 2006, the 
economy has been in and out of recession. Today the unemployment rate 
is around 14 percent; 45 percent of the population lives below the 
Federal poverty line; and there's a fiscal crisis--a scramble to 
restructure debts of $73 billion. The Puerto Rico Electric Power 
Authority (PREPA) is said to be close to defaulting on approximately 
$8.6 billion in municipal bond debt.
    Compounding the crisis is the fact that the territory has been 
losing population at a level not seen in decades. According to the 
Washington Post, ``Puerto Rico lost 54,000 residents--1.5 percent of 
its population--between 2010 and 2012 alone. Since recession struck in 
2006, the population has shrunk by more than 138,000 to 3.7 million, 
with the vast majority of the outflow headed to the mainland.''
    Additionally, because doctors practicing in Puerto Rico receive 
much smaller Medicare and Medicaid reimbursement rates than their 
counterparts on the U.S. mainland, the territory is facing a medical 
crisis. The Center for Medicaid and Medicare Services' (CMS) plans an 
11 percent cut in Medicare Advantage reimbursements because of the rate 
formula. This has caused a steady drain of doctors on the island. This 
funding gap and exodus of trained professionals is expected to grow 
larger.
    Representative Pierluisi believes that as long as Puerto Rico 
remains a territory--without equal treatment under Federal programs, 
forced to borrow heavily to make up the difference and without the 
ability to vote for the national leaders who regulate our economy--the 
island will not be in a position to overcome its economic problems. He 
has introduced H.R. 727, the Puerto Rico Statehood Admission Act, to 
address the question of the island's status.
    He has also introduced a second bill, H.R. 870, to amend the U.S. 
Bankruptcy Code to enable Puerto Rico to authorize PREPA and other 
Puerto Rico government-owned corporations to adjust their debts under 
plans filed as debtors in Chapter 9 of the Bankruptcy Code. Governor 
Garcia Padilla and Congressman Pierluisi are in agreement that swift 
passage of H.R. 970 would go a long way in easing the pressure of 
default on PREPA and the other Puerto Rican government-owned 
corporations.
    Mr. Chairman, I join the New York Times and other major 
publications in calling on Congress to pass H.R. 870 to allow Puerto 
Rican government-owned companies, as well as municipalities, to use 
Chapter 9.

    Thank you again, Mr. Chairman. I yield back the balance of my time.

                                 ______
                                 

    Mr. Young. Are you through?
    Mr. Grijalva. I am through and I yield back. Thank you.
    Mr. Young. Now Dr. Ruiz.
    Dr. Ruiz. Thank you so much, Mr. Chairman. Mr. Chairman, 
our territories are a part of our Nation. Their residents are a 
part of our Nation. And, in fact, by an Act of Congress, they 
are American citizens. And yet, too often, our territories are 
left behind in major Federal legislation. The result of this 
inequality comes in the form of health disparities, severe 
income inequality, and in some cases, substandard living 
conditions.
    For example, territory residents who have paid into the 
Medicare system do not have access to the same benefits they 
would be due as a state. The statistics on the disparities in 
Puerto Rico specifically are appalling. According to Puerto 
Rico's Medical Licensing and Studies Board, the number of 
physicians in Puerto Rico has dropped by 13 percent in the last 
5 years, contributing to the severe primary health professional 
shortage in 34 medical under-served areas across Puerto Rico.
    Compared to the states, Puerto Rico has less than half the 
per capita rate of emergency medicine physicians, which 
oftentimes serve as the individual's last safety net resource. 
And the reimbursement rate for physicians practicing on the 
island is said to go down even further, exacerbating these 
disparities. The people of Puerto Rico deserve to have access 
to the health care services that they have paid for, and 
deserve the opportunity to lead a healthy, full life. So I 
would like to ask you a question if we have enough time.
    This question is for my colleague, Representative 
Pierluisi. How does Puerto Rico's territory status specifically 
harm the health and wellness of Puerto Rico's residents?
    Mr. Pierluisi. Thank you so much, Mr. Ruiz. And I will try 
to be brief and get to the point.
    Actually, the situation we are facing is very similar when 
we talk about all the territories. The life of a territory is 
the life of American citizens in most--I understand that in 
American Samoa we are talking about nationals--unfortunately 
so. But we do not get equal treatment in Federal programs, 
including in Federal health programs. And that translates into 
worse quality of life for our people, particularly our 
vulnerable population.
    What happens, for example, in the Medicaid program is that 
for years the U.S. Government was assuming roughly about 18 to 
20 percent of the cost of Puerto Rico's Medicaid program, up to 
the Affordable Care Act. When the Affordable Care Act came 
about, I worked hard, as well as my fellow delegates from the 
territories, so that the Federal Government would enhance the 
funding we get. But we are still short at the moment, Puerto 
Rico basically--the U.S. Government is assuming 50 percent of 
the cost of our Medicaid program, but not resembling your 
Medicaid program.
    In Puerto Rico, to give you an example, we afford health 
insurance to people up to roughly 80 percent of the U.S. 
poverty level. In the mainland, as you know, the Medicaid 
expansion is getting up to 134 percent of poverty level. So the 
Federal Government is not giving us, not even parity, equal 
treatment, for the population we have under the 100 percent of 
poverty level. To me, that is atrocious. It is unacceptable. 
These are American citizens, vulnerable American citizens, and 
the U.S. Government is not even funding----
    Dr. Ruiz. So you have 1 minute. What is the solution?
    Mr. Pierluisi. The solution--I have a bill before this 
Congress proposing to fix all these disparities we have in 
Medicaid, Medicare, which you refer to, in a pragmatic, 
realistic way.
    Let's say that just the Medicaid disparity is fixed. You 
are talking about roughly $1.2 billion that the government of 
Puerto Rico, is spending right now that the Federal Government 
would be spending. When we talk about fiscal issues in Puerto 
Rico, that, in and of itself, would solve the budget deficits 
that Puerto Rico has been dealing with, and would allow Puerto 
Rico to make the necessary contributions through its state 
pension system.
    So, talk about the life of a territory. We are always 
lacking Federal funding, not to talk about lacking voting 
rights because, as I have said before, we don't vote for the 
President. Puerto Ricans have only me, a Resident Commissioner. 
I can debate, I can speak, but I cannot vote on the Floor--and 
I represent 3.5 million American citizens. That is not 
democratic, that is embarrassing.
    So that is the situation. It definitely would help for you, 
for the Congress, to treat Puerto Rico fairly--at the very 
least, in Federal health programs.
    Dr. Ruiz. Well, as a physician, I care very much in 
reducing those disparities, and ensuring that the citizens in 
Puerto Rico have the opportunity to live a life of wellness and 
a long, prosperous life, as well. Thank you.
    Mr. Young. Thank you, sir.
    Mr. LaMalfa.
    Mr. LaMalfa. I have no questions.
    Mr. Young. Commissioner, in your proposal with the new 
plebiscite--you say you have 5 years. On that plebiscite, what 
would happen if you had the plebiscite, and if the people of 
Puerto Rico voted for statehood that was automatic, then?
    Mr. Pierluisi. There are two pieces of legislation at 
issue. You have the appropriation that we approved, providing 
$2.5 million for a federally-sponsored plebiscite in Puerto 
Rico. The legislation speaks of having a vote to resolve the 
status issue, and it requires that the Attorney General of the 
United States basically bless whatever option is posed before 
the electorate. We don't want to waste time. We want to make 
sure that whatever the people vote on is something real, 
something possible.
    Mr. Young. What I am leading up to----
    Mr. Pierluisi. Yes.
    Mr. Young. The present legislation doesn't have--that is 
not finite. If they vote for it, there is another step. What if 
we were able to put something in the legislation so if they 
vote for it you become a state?
    Mr. Pierluisi. That is what H.R. 727 does. My bill, which 
has 108 co-sponsors--including me, 109--basically has a two-
step process. You have an up-or-down vote on the admission of 
Puerto Rico as a state. And if a majority of the people support 
the admission, then it triggers the transition into the 
admission.
    Mr. Young. OK.
    Mr. Pierluisi. Depending on when the vote takes place, what 
the bill provides for is the admission of Puerto Rico, at the 
latest, in January 2021. We would be voting for President in 
the elections of November 2020, and we would be electing our 
Members of Congress in November 2020. Until then, Congress 
would be conforming the laws, Federal laws, so that Puerto Rico 
receives the same treatment states do.
    Mr. Young. This is a question for the total panel. And, 
like I said, I have been involved in this for a long time, 
because we were the leaders of the state recently, and then 
Hawaii, and then, of course, I hope Puerto Rico.
    When we first got started in 1994, I warned at that time 
that status quo would not prevail and, in fact, you would be in 
economic problems. If we don't do something in the Congress, 20 
years from now--I will start with you, Commissioner--where do 
you see Puerto Rico?
    Mr. Pierluisi. Quality of life is deteriorating incredibly 
fast. I see a bright future for Puerto Rico, because of the 
potential, the capacity of our people. But we cannot keep 
losing them. The current status is not providing them with the 
necessary quality of life, the necessary jobs and 
opportunities.
    Congressman Ruiz was talking about doctors. By the way, the 
top surgeons in Texas, there are lots of Puerto Ricans there. 
And in Florida, they are all over. Not to talk about engineers, 
scientists. They are all over the states. The diaspora, we 
call. And we are losing them. Why are we losing them? Because 
they are American citizens, and the only thing they have to do 
to get a better quality of life is to hop on a plane and move 
to a state.
    Mr. Young. OK.
    Mr. Pierluisi. What are we aspiring to--to become a state.
    Mr. Young. The question was, if nothing occurs, you see a 
devastated island.
    Mr. Pierluisi. Yes.
    Mr. Young. OK.
    Mr. Pierluisi. Yes, the permanent solution to Puerto Rico's 
economic problems, social problems, is equal rights, is 
equality. All nations who have equal rights have prospered.
    Mr. Young. OK. I am just--the gentleman from the Governor's 
office?
    Mr. Rodriguez. We see a brighter future for Puerto Rico. We 
are facing a very difficult financial situation. Actually, a 
crisis. Nonetheless, I understand that we have the capabilities 
to come across and bring the island to a brighter condition. We 
need the help that I mentioned before. We need to have an 
instrument to deal with the debt that we are carrying now. That 
is why we support extending bankruptcy Chapter 9 to Puerto 
Rico. That is a fact.
    But besides that, I understand that all the capabilities 
are there. All the instruments are there in Puerto Rico. If we 
reorganize our debt and we can comply with our compromises, 
with holders of our debt, certainly Puerto Rico can come across 
and enter into a state of parity.
    Mr. Young. All right. Senator?
    Mr. Berrios. Well, the question is quite easy to answer 
with just the past products of the archives of the United 
States. The same downward spiral that started in 1970, and 
which has deepened to the present crisis since 2006, will 
continue. That will mean more dependence, more and more 
dependence, because Puerto Rico cannot exercise the potential 
of its productive capacity. And that will mean that the type of 
argument you have heard today for statehood, that is more and 
more and--billions of Federal funding as the Resident 
Commissioner said. Yet you will see more people aspiring for 
statehood for the wrong reasons.
    Puerto Rico would then be on the verge of potentially 
becoming a ghetto state, and that is not the type of future I 
foresee for my land. We need the political powers, in order to 
develop our own economy and have a friendly relationship with 
the United States and with the rest of the world, not more and 
more dependency--more votes for statehood, because people 
believe statehood is just what the Resident Commissioner said, 
billions of dollars in funding.
    Who aspires to that? We then have 80 percent living off 
food coupons or food checks, instead of 50 percent? That is the 
future of Puerto Rico if Congress doesn't act soon with more or 
less what I have proposed. Let's talk about this. Let's enter 
into the mutual collaboration process to find a way out for 
your benefit, and for our benefit.
    Mr. Young. I thank the panel. You have done well. I will 
tell you again, I personally don't believe--I have said all 
along, and don't get upset with me--if you are not going to be 
a state, you should become an independent nation. Either one. 
But the status quo is not working. We have watched this thing.
    I said 21 years ago, I had the only vote on the House Floor 
on Puerto Rico--by one vote, by the way. I have watched the 
downward spiral. And these are great Americans, and to have 
this occur--I am just sitting here thinking, if something 
doesn't happen, if we don't do something, there is a 
possibility of revolution in Puerto Rico, because you can't 
have a group of people that has American status and not have 
the rights that all other Americans have, and have a poverty 
level which is increasing.
    This is a challenge to Congress. And the reason we are 
having these hearings is trying to get somebody to start 
talking about it, because this is a black eye on American soil. 
And we are going to continue to do that.
    I want to thank the panel. You are excused.
    Mr. Berrios. Thank you very much.
    Mr. Young. Now we will call up the second panel. I have 
never seen so many fine, honorable governors in my life. I love 
it--the Honorable Luis Fortuno; the Honorable Carlos Romero, 
one of my dear friends, both of them were; the Honorable 
Acevedo Vila; and the Honorable Carmen Yulin Cruz, who is a 
mayor; and Dr. Miriam Ramirez, former Puerto Rican State 
Senator.
    And you all know the rules of the game. As soon as you all 
sit down and quit talking, we will start.
    [Pause.]
    Mr. Young. Is everybody situated? You photographers get 
moving.
    Because you are lined up this way, I am going to call on 
the Honorable Carlos Romero. Carlos, welcome. I can remember 
when I was in the Minority and you were in the Majority. You 
fought this battle then, as you are fighting it now. We may 
have different ideas, but I hope the people of Puerto Rico 
appreciated your dedication to a cause, and your word--
crucially important.
    So, you are up, you are first, you know the rules. I am 
pretty lenient, but you do what you have to do.
    Mr. Barcelo. Thank you.
    Mr. Young. Turn that microphone on.

 STATEMENT OF CARLOS ROMERO BARCELO, FORMER GOVERNOR OF PUERTO 
          RICO 1977-1985 (PNP), SAN JUAN, PUERTO RICO

    Mr. Barcelo. Mr. Chairman, members of the committee, good 
afternoon.
    Mr. Chairman, I want to thank you on behalf of my fellow 
Puerto Rican Americans, who, as American citizens, demand equal 
rights and equal participation in the democratic process and 
the government of our Nation with our fellow citizens in the 50 
states, for all your efforts and support to our long-time quest 
for equality.
    Before we continue, I would like to ask you to ask 
yourselves these questions, and ask all the Members of Congress 
and the Senators to ask themselves these three questions: Do 
you believe in our Constitution and in our Nation's republican 
form of government? Do you believe, as our Constitution 
declares, that all men are created equal? And, do you believe 
that all U.S. citizens should have the right to vote and the 
right to representation at all levels of government?
    If you answered yes to the third question, you should 
support and join our efforts to enact a bill for admission of 
Puerto Rico as a state.
    I have dedicated 52 years of my adult life in a quest for 
equality for the people of Puerto Rico. We have been 
disenfranchised American citizens for 98 years. We have been 
denied our right to participate in our Nation's democracy, and 
we have been denied any meaningful participation in our 
Nation's government. We have also been denied the same economic 
opportunities which have been available to our fellow citizens 
in the 50 states. We are, as a matter of fact, the world's last 
colony, with more than 1 million inhabitants. Under our 
Constitution, we are a U.S. territory. But in international, 
geopolitical terms, we are a colony.
    In spite of the fact that we have been denied equality and 
participation in our Nation's democratic process ever since we 
were granted U.S. citizenship in 1917, more than 500,000 Puerto 
Rican Americans have served in our Nation's armed forces, and 
tens of thousands have shed their blood and lost life and limbs 
in defense of democracy, and in defense of our Nation. Puerto 
Rican Americans have more than earned their right to equal 
participation in our Nation's democratic process, as well as 
the right to vote for our President and to elect Senators and 
Representatives to Congress.
    We are tired and increasingly upset to have to plead for 
equality. We are tired and increasingly upset to have to plead 
and beg for equal terms in Federal grants for education for our 
children. We are tired of pleading and begging for equal terms 
in Federal health care grants to provide health services to our 
medically indigent. We are tired of pleading and increasingly 
upset to have to beg for equal terms and Federal grants to help 
families with insufficient income to support their children. 
And we are tired and increasingly upset of being told that we 
don't qualify for Federal funding because we don't pay Federal 
income taxes.
    How can Congress raise the issue of our non-payment of 
Federal income taxes when you know that we don't have the power 
to impose Federal income taxes on income earned in Puerto Rico? 
Only Congress has that power. And why doesn't Congress impose 
Federal income taxes on income earned in Puerto Rico? Because 
Congress knows that if they were to impose Federal income taxes 
on us without granting us equal voting rights and equal rights 
to elect Senators and Representatives to Congress, Congress 
would be invalidating our Nation's famous ``No taxation without 
representation'' battle cry to end the colonial relationship 
with Great Britain.
    Yes, we are tired and increasingly upset by being denied 
the right to vote for our President, and the right to elect two 
Senators and Members of Congress that we would be entitled to 
as a state. And, we are particularly upset when we see our 
President and our Nation's Congress spending billions of 
dollars and sending our Nation's young men and women into 
harm's way, to bring democracy to countries such as Iraq and 
Afghanistan, where they don't understand it and don't want it. 
At the same time, they have kept and are still keeping 3.6 
million U.S. citizens disenfranchised, discriminated against, 
and denied equality under the laws of the Nation for no less 
than 98 years.
    It is no wonder that the United States is losing 
credibility and moral authority to preach democracy and to talk 
about strengthening democracy throughout the world. Our Nation 
is being ridiculed for its hypocrisy in spending billions of 
dollars and putting its young men and women in harm's way to 
bring democracy to people who don't want it or don't understand 
it, while at the same time they deny participation in the 
Nation's democratic process to 3.6 million American citizens 
because they live in Puerto Rico.
    I have enclosed with my statement a disc containing some 
very insightful and satirical criticism of our Nation's 
hypocrisy with Puerto Rican Americans made by British comedian 
John Oliver. You will not only be enlightened by it, you will 
also enjoy it very much. And I also made a short editor--3 
minutes and 30 seconds, that will be available also.
    Yes, we must stop begging for equality and demand it loud 
and clear and belligerently, if need be. It is way past the 
time when Congress and the President should have put an end to 
our disenfranchisement and to our being denied equal 
opportunities under the laws of our Nation. How can anyone who 
claims to believe in democracy stand idly by without putting an 
end to the discrimination and the unacceptable inequality 
between the 3,600,600 American citizens who live in Puerto Rico 
and the 360 million fellow citizens in the 50 states?
    Whether we demand equality or not, it is the Congress and 
the President's duty, as leaders of the world's greatest 
democracy, to put an end to this inequality and denial to 
participate in our Nation's democracy.
    We have decided to ask for admission as a state. In 
November 2012, we held a referendum in Puerto Rico where the 
people were asked to vote whether they wanted to remain as a 
U.S. territory or not. Fifty-four percent of the voters said 
no, and 46 percent said yes. The referendum ballot had a second 
question to give the voters three options, to wit: statehood, 
sovereign commonwealth, or independence. A solid majority of 61 
percent voted in favor of Puerto Rico being admitted as a 
state.
    The solid majority vote for statehood in 2012 cannot be 
ignored. This Congress must address the issue and consider 
enacting a bill to provide for the admission of Puerto Rico as 
a state. The bill should establish the conditions and the 
process, as well as the fiscal and economic arrangements that 
must be implemented for Puerto Rico to be admitted as a state. 
The plebiscite, or referendum, to be held would allow the 
American citizens who reside in Puerto Rico the opportunity to 
accept or deny the offer. The ballot would be a simple yes-or-
no vote. All those who oppose statehood could vote no, so they 
cannot complain that they were not offered an option to 
exercise the right to vote.
    Of the 37 territories admitted to the Union since the 13 
colonies joined to establish the United States of America, not 
a single one was disenfranchised for as long a period of time 
as we have been for 98 years. Not a single territory of the 37 
admitted to the Union were deprived of equal economic 
opportunities and benefits for as long as we have. Not a single 
territory of the 37 territories who were admitted had as many 
citizens killed or wounded in the Nation's wars as we have had 
in the 98 years since we became American citizens.
    The awareness of the importance and the benefits of being a 
state of the Union has become more obvious to Puerto Rican 
Americans as they suffer the effects of a worsening economic 
depression. As they increasingly feel they no longer have 
reasonable opportunities to get a job or get ahead economically 
in the island, they are leaving Puerto Rico to look for 
substantially better opportunities in Florida, Texas, Georgia, 
New Jersey, New York, Connecticut, Pennsylvania, Massachusetts, 
Illinois, Ohio, and many other states. As a result, more and 
more Puerto Ricans realize that our island's economic future 
lies in becoming the 51st state.
    We don't want our sons and daughters, our brothers and 
sisters, our grandchildren, our family and our friends to leave 
Puerto Rico. We want them to stay and enjoy the same 
opportunities available to our fellow citizens in the 50 
states.
    Puerto Ricans have also become more cognizant of the 
importance of having the right to vote for the President, and 
to elect Senators and Representatives to Congress in order to 
participate in our Nation's sovereignty. The value to our 
dignity, to our economic development, and to our self esteem in 
having two Senators and at least five Members of Congress is 
much more widely understood and sought after than ever before.
    Ruben Berrios, the President of the Independence Party, 
claimed that we needed more political power. Definitely we need 
more political power, and definitely two Senators and five or 
six Congressmen have much more power than the President of 
Puerto Rico as an independent nation.
    That, and much more is what millions of American citizens 
in Puerto Rico have been denied for 98 years. The time has 
come, not to beg or plead, but to demand equality. The time has 
come for Congress and the President to stop looking for excuses 
and enact a bill to admit Puerto Rico as a state, to be 
submitted to a vote in Puerto Rico.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Barcelo follows:]
Prepared Statement of Carlos Romero Barcelo, Former Governor of Puerto 
                                  Rico
    Mr. Chairman, members of the committee, good afternoon. Mr. 
Chairman I want to thank you, on behalf of all my fellow Puerto Rican 
Americans who, as American citizens, demand equal rights and equal 
participation in the democratic process and the government of our 
Nation with our fellow citizens in the 50 states of the Union, for all 
your efforts and support to our longtime quest for equality.

    Before we continue, I would like you to ask yourselves the 
following questions:

  1.  Do you believe in our Constitution and in our Nation's republican 
            form of government?

  2.  Do you believe as our Constitution declares, that, ``all men are 
            created equal'', and

  3.  Do you believe that all U.S. citizens should have the right to 
            vote for their President and to elect Senators and 
            Representatives to Congress?

    If you answered yes to the third question, you should support and 
join our efforts to enact a Bill for Admission of Puerto Rico as a 
state.

    I have dedicated 52 years of my adult life in a quest for equality 
for the people of Puerto Rico. We have been disenfranchised American 
citizens for 98 years. We have been denied our right to participate in 
our Nation's democracy and we have been denied any meaningful 
participation in our Nation's government. We have also been denied the 
same economic opportunities which have been available to our fellow 
citizens in the 50 states. We are, as a matter of fact, the world's 
last colony with more than 1 million (1,000,000) inhabitants. Under our 
Constitution, we are a U.S. Territory, but in international 
geopolitical terms, we are a colony.
    In spite of the fact that we have been denied equality and 
participation in our Nation's democratic process ever since we were 
granted U.S. citizenship in 1917, more than 500,000 Puerto Rican 
Americans have served in our Nation's armed forces and tens of 
thousands have shed their blood and lost life and limbs in defense of 
Democracy and defense of our Nation. Puerto Rican Americans have more 
than earned their right to equal participation in our Nation's 
democratic process, as well as their right to vote for our President 
and to elect Senators and Representatives to Congress.
    We are tired and increasingly upset to have to plead for equality; 
we are tired and increasingly upset to have to plead and beg for equal 
terms in Federal grants for education of our children; we are tired of 
pleading and begging for equal terms in Federal health care grants to 
provide health services to our medically indigent; we are tired of 
pleading and increasingly upset to have to beg for equal terms in 
Federal grants to help families with insufficient income to support 
their children, and we are tired and increasingly upset at being told 
that we don't qualify for equal funding because we don't pay Federal 
income taxes.
    How can Congress raise the issue of our non-payment of Federal 
income taxes when you know that we don't have the power to impose 
Federal income taxes on income earned in Puerto Rico. Only Congress has 
that power. And why hasn't Congress imposed Federal income taxes on 
income earned in Puerto Rico? Because Congress knows that if they were 
to impose Federal income taxes on us without granting us equal voting 
rights and equal rights to elect Senators and Representatives to 
Congress, Congress would be invalidating our Nation's famous ``No 
taxation without representation'' battle cry to end the colonial 
relationship with Great Britain.
    Yes, we are tired and increasingly upset by being denied the right 
to vote for our President and the right to elect two Senators and the 
number of Members of Congress that we would be entitled to as a state. 
And, we are particularly upset when we see our President and our 
Nation's Congress spending billions of dollars and sending our Nation's 
young men and women into harm's way, to bring democracy to countries, 
such as Iraq and Afghanistan, where they don't understand it, nor want 
it. At the same time, they have kept, and are still keeping, 3.6 
million U.S. citizens, disenfranchised, discriminated against and 
denied equality under the laws of the Nation for no less than 98 years.
    It is no wonder that the United States is losing credibility and 
moral authority to preach democracy and to talk about strengthening 
democracy throughout the world. Our Nation is being ridiculed for its 
hypocrisy in spending billions of dollars and putting its young men and 
women in harm's way to bring democracy to people in Iraq and 
Afghanistan who do not understand it nor want it, while they deny 
participation in the Nation's democratic process to 3.6 million 
American citizens because they live in Puerto Rico. I have enclosed 
with my statement a disk containing some very insightful and satirical 
criticism of our Nation's hypocrisy with Puerto Rican Americans made by 
British Comedian John Oliver. You will not only be enlightened by it, 
you will also enjoy it.
    Yes! We must stop begging for equality and demand it loud and 
clear; and belligerently, if need be. It is way past the time when 
Congress and the President should have put an end to our 
disenfranchisement and to our being denied equal opportunities under 
the laws of our Nation.
    How can anyone who claims to believe in democracy stand idly by 
without putting an end to the discrimination and the unacceptable 
inequality between the 3.6 million American citizens who live their 360 
million fellow citizens in the 50 states. Whether we demand equality or 
not, it is the Congress and President's duty, as leaders of the world's 
greatest democracy, to put an end to this inequality and denial to 
participate in our Nation's democracy.
    We have decided to ask for admission as a state. On November 2012, 
we held a referendum in Puerto Rico where the people were asked to vote 
whether they wanted to remain as a U.S. Territory or not, and 54 
percent of the voters said no and 46 percent said yes. The referendum 
ballot had a second question which gave the voters three (3) options, 
to wit: Statehood, Sovereign Commonwealth, or Independence. A solid 
majority of 61 percent voted in favor of Puerto Rico being admitted as 
a state.
    The solid majority vote for statehood in 2012 cannot be ignored. 
This Congress must address the issue and consider enacting a bill to 
provide for the admission of Puerto Rico as a state. The Bill should 
establish the conditions and the process, as well as the fiscal and 
economic arrangements that must be implemented for Puerto Rico to be 
admitted as a state. The plebiscite or referendum to be held would 
allow the American citizens who reside in Puerto Rico the opportunity 
to accept or deny the offer. The ballot would be a simple Yes or No 
vote. All those who oppose statehood could vote No, so they cannot 
complain that they were not offered an option to exercise their right 
to vote.
    Of the 37 territories admitted to the Union since the thirteen (13) 
colonies joined to establish the United States of America, not a single 
one was disenfranchised for as long a period of time as we have been 
for 98 years. Not a single territory of the 37 admitted to the Union 
were deprived of equal economic opportunities and benefits for as long 
as we have. Not a single territory of the 37 territories which were 
admitted had as many of its citizens killed or wounded in the Nation's 
wars as we have had in the 98 years since we became American citizens.
    The awareness of the importance and of the benefits of being a 
state of the Union has become more obvious to Puerto Rican Americans as 
they suffer the effects of a worsening economic depression. As they 
increasingly feel they no longer have reasonable opportunities to get a 
job or get ahead economically in the island; they are leaving Puerto 
Rico to look for substantially better opportunities in Florida, Texas, 
Georgia, New Jersey, New York, Connecticut, Pennsylvania, 
Massachusetts, Illinois, Ohio and many other states. As a result, more 
and more Puerto Ricans realize that our island's economic future lies 
in our becoming the 51st state.
    We don't want our sons and daughters, our brothers and sisters, our 
grandchildren, our family and our friends to leave Puerto Rico, we want 
them to stay and enjoy the same opportunities available to our fellow 
citizens in the 50 states.
    Puerto Ricans have also become more cognizant of the importance of 
having the right to vote for the President and to elect Senators and 
Representatives to Congress in order to participate in our Nation's 
sovereignty. The value to our dignity, to our economic development and 
to our self-esteem having two (2) Senators and at (5) Members of 
Congress is much more widely understood and sought than ever before.
    That, and much more is what millions of American citizens in Puerto 
Rico have been denied for 98 years. The time has come, not to beg or 
plead, but to demand equality! The time has come for Congress and the 
President to stop looking for excuses and enact a Bill to admit Puerto 
Rico as a state, to be submitted to a vote in Puerto Rico.

                                 ______
                                 

    Mr. Young. Thank you, Carlos. I have to say you said it 
very well--couldn't be said better. I did give you a little 
more time. I don't want the rest of you to get the idea I can 
be that lenient, but I might. Depends on how well you are 
doing. See, I was interested in what he had to say.
    Mr. Barcelo. Thank you, Chairman. I know you have always 
been very supportive, and I remember the day in the House when 
we won by one vote.
    Mr. Young. Yes, right.
    Luis, former Governor, former colleague. Welcome aboard.

 STATEMENT OF LUIS G. FORTUNO, FORMER GOVERNOR OF PUERTO RICO, 
                2009-2011 (PNP), WASHINGTON, DC

    Mr. Fortuno. Thank you, Mr. Chairman. It is a pleasure to 
see you and so many other friends, and I thank you for your 
leadership on this issue.
    The focus of today's hearing is on point, because the 
economic outlook of Puerto Rico is directly linked to the 
historical necessity of a permanent, constitutionally-defined 
political status. The current economic crisis is a cruel 
manifestation that territorial status is not a sustainable 
model for the political economy of America's last large and 
populous territory.
    Real people are enduring harsh suffering because Puerto 
Rico's development is being suppressed by a century of even 
more severe constraints on growth than 32 other territories 
experienced before transitioning to a statehood economy. The 
dire situation that has developed under the commonwealth regime 
is demonstrated by graphs that I have provided to this 
subcommittee.
    With the exception of a year and a half between 2011 and 
2012, Puerto Rico's economy has been in negative territory 
during the last 9 years. The situation has turned critical 
during the last 30 months. We must reverse this accelerating 
decline and restore fiscal discipline, so that people can go 
back to work and families can recover optimism and prosperity.
    But, Puerto Rico's full potential for economic success and 
job creation will not be realized until economic uncertainty 
generated by the island's unresolved political status is 
replaced by stability and full participation in the U.S. 
national economy. The 3.5 million U.S. citizens of Puerto Rico 
get it. That is why a 54 percent majority voted to end the 
current status in the plebiscite of 2012.
    With voter turnout exceeding 78 percent, more than 61 
percent of voters chose statehood over separate sovereign 
nation, with or without a treaty of free association. Results 
certified by the Puerto Rico Elections Commission confirmed 
that the total number of votes cast for statehood was greater 
than the total vote for the current status. That means the 
current status was defeated on the first ballot question, while 
statehood won a strong majority on the second ballot question.
    There is no legal basis for assigning a meaning to blank 
ballots on the second question in the 2012 vote, while there is 
a historical precedent for a federally-sponsored vote to 
confirm the results of the 2012 plebiscite. That is why 
Congressman Pierluisi's bill, will empower voters either to 
confirm or reverse the 2012 vote for statehood.
    H.R. 727 is fully consistent with the purpose of the 2014 
bipartisan legislation in which Congress allocated $2.5 million 
for a new status vote. Its objective can be accomplished 
pursuant to the Pierluisi bill, under which the U.S. Attorney 
General still must certify the ballot question is legally valid 
under Federal law.
    Yet, instead of open democratic self-determination, the 
ideological faction clinging to the status quo insists on 
obstructing the will of the people, as clearly expressed in the 
2012 plebiscite. The defenders of the status quo can't even 
agree on a legally valid non-territorial status themselves.
    The status proposals made in the past by the commonwealth 
party have not been constitutionally valid, and there is no 
indication that this time it will be any different. Meanwhile, 
as time passes, a steady and indeed unprecedented stream of 
U.S. citizens, denied both self-determination and equal 
economic opportunity in the territory, continue the exodus to 
acquire equal rights secured under our Constitution only 
through residence in a state.
    But vast relocation within our national borders should not 
be required for U.S. citizens in a territory to attain equal 
rights. People know that in America equality includes 
government by consent, and in the United States that means 
voting rights in Federal elections secured only for residents 
of a state under our Constitution.
    The real meaning of the 2012 vote is that decades of false 
doctrine on political status options have ended. A majority of 
your fellow citizens in Puerto Rico now understand that the 
most sacred fundamental rights of citizenship can be secured 
permanently and constitutionally only by citizenship in a state 
of the Union. This modern-day diaspora is a direct reflection 
of the inequities of the current territorial status and a 
direct response to the lack of action by Congress to address 
this flaw in our democratic way of life.
    Every month, thousands of American citizens relocate from 
the island, leaving their homes and families behind, in search 
of equal opportunities, equal rights, and economic freedom that 
can only be attained in one of the 50 states. That is why 
supporters of statehood are not afraid to put the status we 
support to the test of an up-or-down vote. The most logical and 
democratic way for Congress to know where we stand as Americans 
is to allow us an up-or-down vote to confirm or overturn the 
2012 results.
    Thank you, and it is great seeing you again, Mr. Chairman.
    [The prepared statement of Mr. Fortuno follows:]
  Prepared Statement of the Hon. Luis G. Fortuno, Former Governor of 
                              Puerto Rico
    Chairman Young, Ranking Member Ruiz and other members of this 
subcommittee: The focus of today's hearing is on point, because the 
economic outlook for Puerto Rico is directly linked to the historical 
necessity of a permanent, constitutionally defined political status.
    The current economic crisis is a cruel manifestation that 
territorial status is not a sustainable model for the political economy 
of America's last large and populous territory. Real people are 
enduring harsh suffering because Puerto Rico's development is being 
suppressed by a century of even more severe constraints on growth than 
32 other Federal territories experienced before transitioning to a 
statehood economy.
    The dire situation that has devolved under the commonwealth regime 
is demonstrated by graphs from reports released by the Puerto Rico 
Government Development Bank that I have provided to this subcommittee 
(Exhibit A). With the exception of a year and a half between 2011 and 
2012, Puerto Rico's economy has been in negative territory during the 
last 9 years. Said situation has turned critical during the last 30 
months. We must reverse this accelerating decline and restore fiscal 
discipline so that people can go back to work and families can recover 
optimism and prosperity.
    But there can no longer be any illusions about one transcendental 
truth. Puerto Rico's full potential for economic success and job 
creation will not be realized until economic uncertainty generated by 
the island's unresolved political status is replaced by stability and 
full participation in the U.S. national economy.
    The 3.5 million U.S. citizens of Puerto Rico get it. That is why a 
54 percent majority voted to end the current status in the plebiscite 
of 2012. With voter turnout exceeding 78 percent, more than 61 percent 
of voters chose statehood over separate sovereign nationhood, with or 
without a treaty of free association.
    Results certified by the Puerto Rico Elections Commission confirm 
that the total number of votes cast for statehood (834,191) was greater 
than the total vote for the current status (828,077). That means the 
current status got an up or down vote and was defeated on the first 
ballot question, while statehood won a strong majority on the second 
ballot question.
    There is no legal basis for assigning a meaning to blank ballots on 
the second question in the 2012 vote, while there is historical 
precedent for a federally-sponsored vote to confirm the results of the 
2012 plebiscite. That is why Congressman Pierluisi's bill (H.R. 727) 
will empower voters either to confirm or reverse the 2012 vote for 
statehood.
    H.R. 727 is fully consistent with the purpose of the 2014 
bipartisan legislation in which Congress allocated $2.5 million for a 
new status vote. Its objective can be accomplished pursuant to the 
Pierluisi bill, under which the U.S. Attorney General still must 
certify the ballot question is legally valid under Federal law.
    Yet, here we are in 2015, and instead of open democratic self-
determination, the ideological faction clinging to the status quo 
insists on obstructing the will of the people as so clearly expressed 
in the 2012 plebiscite. The simple truth is that defenders of the 
status quo can't even agree on a legally valid non-territorial status 
definition. The status proposals made in the past by the commonwealth 
party have not been constitutionally valid, and there is no indication 
that this time it will be any different.
    Meanwhile, as time passes, a steady and indeed unprecedented stream 
of U.S. citizens, denied both self-determination and equal economic 
opportunity in the territory, continue the exodus to acquire equal 
rights secured under our Constitution only through residence in a 
state.
    But mass relocation within our national borders should not be 
required for U.S. citizens in a territory to attain equal rights. 
People know that in America equality includes government by consent, 
and in the United States that means voting rights in Federal elections 
secured only for residents of a state under Article I and Article II of 
the Constitution.
    Thus, the real meaning of the 2012 vote is that decades of false 
doctrine on political status options have ended. A majority of your 
fellow citizens in Puerto Rico now understand that the most sacred 
fundamental rights of citizenship can be secured permanently and 
constitutionally only by citizenship in a state of the Union. This 
modern-day diaspora is a direct reflection of the inequities of the 
current territorial status and a direct response to the lack of action 
by Congress to address this flaw in our democratic way of life. Every 
month, thousands of American citizens relocate from the island, leaving 
their homes and families behind, in search of equal opportunities, 
equal rights and economic freedom that can only be attained in one of 
the 50 states of the Union.
    That is why supporters of statehood are not afraid to put the 
status we support to the test in an up or down vote. As fate would have 
it, the most logical and democratic way for Congress to know where we 
stand as Americans is to allow an up or down vote to confirm or 
overturn the 2012 results.

* The opinions expressed in this testimony are my own and do not 
necessarily represent the opinions of Steptoe & Johnson, LLP, its 
employees or clients.

Attachment: Exhibit A

                               EXHIBIT A


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 

    Mr. Young. I thank you, Governor. And you are good at this. 
You learned something here. Five minutes, right on the button.
    [Laughter.]
    Mr. Young. Acevedo Vila, former Governor of Puerto Rico, 
former Commissioner, you are up.

  STATEMENT OF ANIBAL ACEVEDO VILA, FORMER GOVERNOR OF PUERTO 
          RICO, 2005-2009 (PPD), SAN JUAN, PUERTO RICO

    Mr. Vila. Thank you, Mr. Chairman. Thank you for the 
invitation.
    I will start by saying the title of this hearing is quite 
revealing, since these procedures are not to analyze any 
pending legislation, and there is no prospect of legislative 
action in the near future.
    On the other hand, the fact that this hearing combines the 
political relationship between Puerto Rico and the United 
States and the economic situation in the island is quite 
revealing, too. As far as I can remember, this is the first 
time any institution of any of the branches of the Federal 
Government have implicitly or explicitly recognized the 
important linkage between these two areas.
    I have written and submitted a well thought-out document 
and a factually accurate testimony about the current economic 
crisis in Puerto Rico and what it means for our political 
status. I invite you to read it carefully. But since this 
committee has allowed me only 5 minutes to talk about such a 
critical point in time for our people, I am going to use my 
time today to request something of you, and make a plea for my 
people and my island. And I am sure that, from it, the 
subcommittee can draft a proper agenda of business to give 
adequate attention to our current economic situation.
    While Puerto Rico first produced sugar and then soldiers, 
the United States told the world we were working together. 
While Puerto Rico provided thousands of our limited acres for 
military training and an open economy where American businesses 
flourish and prospered, you told the world we work together. We 
have gotten to where we are today together. Yes? A lot of the 
good and the bad were done by our own hands. But a lot of the 
good and the bad were done by your hands, too. Yes, it doesn't 
matter how you characterize it. The truth is that we have been 
in this together.
    Now Puerto Rico is in a deep crisis that is threatening 
essential government services, including safety, education, and 
health care. Our economy has closed the door to hundreds of 
thousands of Puerto Ricans that have left their families and 
homes behind. But, contrary to the good old days, this time the 
U.S. Government is keeping distance. In this crisis, you say 
now we are not together.
    I have no problem accepting our fault in the current 
crisis. But to pretend it is 100 percent our fault is incorrect 
and immoral. The economic crisis was worsened by the 
elimination by Congress of Section 936 of the Internal Revenue 
Code, and by fiscal policies and actions and lack of actions by 
the U.S. Government and of this Congress.
    Our budget bubble happened at the same time that yours, 
under a monetary policy that fostered billions of dollars of 
unpayable debt. The Federal Reserve recognized its hand in the 
2000 mortgage crisis, and set the money printing press to 
`high' to solve it. But we have been left behind in the call.
    Let me tell you, Congressmen and Congresswomen, in this 
crisis we are together. We worked together getting it, and work 
together in the consequences. Together, we will suffer the 
dislocations of uncontrollable migration. Together we will be 
hit by rising social programs and needs. Together we will face 
financial litigation by ravenous creditors looking for every 
penny, and with not even a law to organize the process.
    No matter what you may think or want to believe, we are in 
this together. Actually, there is a Supreme Court case solved 
in 2007, which I quote in detail in my written testimony and it 
is included as an annex, that specifically addresses this issue 
in state--that in a situation where a U.S. territory faces 
economic insolvency, the U.S. Government is responsible and 
might be liable.
    I have no doubt that we can solve our crisis and can come 
out of it stronger, if you realize that we are still together 
and come to the table to work with us. One-sided solutions 
won't work, whether they come from your side or ours.
    I request of you a joint resolution of Congress, asking the 
Treasury Department and the Federal Reserve to roll up their 
sleeves and do more than just give advice. They need to get 
involved and be part of the solution. They have the power and 
the tools and the responsibility to do it. We are willing to 
sacrifice, but we need a fighting chance. No country, no state, 
no jurisdiction has gotten out of a crisis like ours without a 
bankruptcy law, a central bank intervention, or help from 
outside.
    Call our relation a bilateral compact or a colonized 
territory. At this time it all means one thing: we are in this 
together. Thank you.
    [The prepared statement of Mr. Vila follows:]
 Prepared Statement of Anibal Acevedo Vila, Former Governor of Puerto 
                                  Rico
    I want to thank this subcommittee and its Chairman for holding this 
hearing and for the invitation to testify. The first time I testified 
before the full Committee on Natural Resources was back in 1997 when I 
first became president of the Popular Democratic Party. A few years 
after that, I became a member of the House and of the committee and, as 
you know, later I was elected Governor of Puerto Rico. One thing is 
clear with the passing of all those years, there has been no action 
from Congress to deal with the status of Puerto Rico. And regarding the 
economic situation of the Island, the actions taken by Congress in the 
last 20 years have badly hurt our economy. It's clear we are in a worst 
situation today and that, yes, the United States has failed the people 
of Puerto Rico despite us being together for so long.
    While Puerto Rico first produced sugar and then soldiers, the 
United States and our island worked together. While Puerto Rico 
provided thousands of our limited acres for military training and an 
open economy where American businesses flourished and prospered, you 
told the world we worked together. We have gotten to where we are 
today, together. A lot of the good and the bad were done by our own 
hands moreover a lot of the good and the bad were done by your hands, 
too. Now, Puerto Rico is in a deep crisis that is threatening essential 
government services, including safety, education and health care. But 
contrary to the good old times, this time the U.S. Government is 
keeping its distance.
    I must say the title of this hearing is quite revealing. First, it 
is evident this hearing is not to analyze any pending legislation 
before this subcommittee, and therefore there's no prospect of actual 
legislative action in the near future. On the other hand, the fact that 
the hearing combines the issue of the political relationship between 
Puerto Rico and the United States and the economic situation in the 
island is quite revealing, too. As far as I can remember, this is the 
first time any institution of any of the branches of the Federal 
Government have implicitly or explicitly recognized the important 
linkage between these two areas.
    For the last 2 years I have written and spoken about these two 
issues. I have submitted for the record a PDF file of a book I 
published in English in August of last year. I invite you to read it 
carefully, but I'll briefly explain my conclusions and commendations:

  1.  It is long past overdue a deep revision of the economic 
            relationship between Puerto Rico and the United States. For 
            many years this subcommittee and the full committee have 
            approached the issue of that relationship from a political 
            perspective, but that has taken us nowhere other than to 
            this major economic crisis in our modern history. The 
            problems between Puerto Rico and the United States are 
            economic as well as political.

  2.  After many decades of economic progress, the island is running 
            out of time and the U.S. Government and its people need to 
            know it's their problem too, because we are in this 
            crossroads together.

  3.  The economy has been in recession for more that 8 consecutive 
            years; government has been running deficits for more than 
            20 years and the government debt service of a debt 
            surpassing $70 billion is unbearable. As I explain in more 
            detail in my book, with the way things are moving, the day 
            Puerto Rico will have to default in its payment of the debt 
            is fast approaching and Puerto Ricans know that. A recent 
            poll made public shows that 57 percent of the people are 
            convinced ``the debt, as it stands today, cannot be paid, 
            the government should tell so to the bond holders, and a 
            negotiation to restructure the debt should start.''

  4.  This crisis is affecting the capability of the government of 
            Puerto Rico to provide basic services to the people, 
            including health.

  5.  If the government of Puerto Rico is not able to provide those 
            services, it will become a problem for the U.S. Government. 
            If Puerto Ricans continue leaving the island, that will 
            become a U.S. problem. If Puerto Rico can't pay its debts, 
            it will definitely become (and almost is) a U.S. problem. 
            And as I will briefly explain here, the U.S. Government 
            might even have a legal responsibility for that $70 billion 
            debt.

    Although Puerto Rico bears a great part of the blame for its 
economic crisis, the United States is also responsible for it. It's not 
only the elimination of Section 936 of the IRS Code in the 1990s 
without giving Puerto Rico another tool to compensate for that loss. 
It's also the indiscriminate application of Federal laws and 
regulations to our Island. The United States is the strongest and most 
developed economy of the world while Puerto Rico is still a developing 
economy. To impose the economic rules and standards of the most 
developed economy of the world upon a developing economy is a recipe 
for disaster.
    The most recent report on Puerto Rico of the Federal Reserve Bank 
of New York (July 2014), specifically mentions as elements that hinder 
our economic growth, the application of the Federal minimum wage and 
the Jones Act to Puerto Rico, which are both clear examples of economic 
variables beyond our control. In fact, the Chairman of the Natural 
Resources Committee, Congressman Rob Bishop, has publicly expressed 
concerns about the negative economic impact the application of certain 
EPA rules can have in Puerto Rico due to our high costs of energy and 
the need we have to move toward more natural gas.

    As someone said sometime ago, ``it's the economy, stupid.''

    Regarding Puerto Rico's $72 billion public debt, there is also a 
shared responsibility. All that debt was originally incurred when 
Puerto Rico had a positive credit rating by the American credit 
agencies, and was all originally sold in the strongly regulated Federal 
municipal bond market. The years in which the amount of money being 
borrowed exploded, was during the time the Federal Reserve Bank carried 
out its expansive monetary policy with near zero interest rates. To 
that same extent, the crisis of the banking system in the United 
States, which almost collapsed in 2008, had a similar origin. In our 
case, if we were incurring in too much debt, it was in part because the 
Feds kept the interest rates artificially low, which in turn opened the 
appetite in Wall Street for higher yielding bonds from Puerto Rico, all 
under the watchful eyes of the various Federal credit rating agencies.
    I firmly believe the United States has to be part of the solution 
to Puerto Rico's economic and debt crises. I firmly believe we are in 
this together, and not as a legal argument, but because there is a 
shared responsibility. But at the end of the day, it might be the legal 
responsibility that will move the United States to action. The U.S. 
Supreme Court might decide that the U.S. Government is responsible for 
Puerto Rico's debt.
    Let's understand how that debt was incurred. Puerto Rican bonds are 
regulated by Federal law (Section 745 of title 48 of the United States 
Code). Our bonds have been marketed based on a Federal law, playing by 
the Federal rules. This provision was adopted in 1917 as part of the 
plenary powers of Congress over the territory of Puerto Rico. Congress 
ordered the other states not to tax our bonds, something that clearly 
Congress has no power to do with regards to specific state bonds.
    For the last 25 years or more, the official position of the U.S. 
Department of Justice, the House and Senate committees with 
jurisdiction over Puerto Rico and the White House reports of both 
presidents, George W. Bush and Barack Obama, have established that even 
after the establishment of the Commonwealth of Puerto Rico in 1952, 
Puerto Rico is still a non-incorporated territory. The most recent 
report from the White House specifically states: ``under Commonwealth 
option, Puerto Rico would remain, as it is today, subject to the 
Territory Clause of the U.S. Constitution'' (March 2011). Therefore, it 
could be argued the powers that Congress had to establish Section 745 
in 1917 granting triple tax exemption to our bonds, are the same powers 
they have today to keep that exemption and impose it upon the 50 
states. All this legal and financial history is a clear indication the 
U.S. Government has a shared responsibility over our debt.
    In January 8, 2007, the U.S. Supreme Court ruled on the case of 
Limtiaco v. Camacho (549 U.S. 483 (2007)). The issues are quite 
particular, but the rationale of the decision is very interesting. 
There was a ``local'' dispute between the Governor of Guam and his 
attorney general regarding a bond issuance and whether it was an 
infringement of a debt limitation disposition included in the Federal 
Organic Act of Guam. The Governor obtained a declaration from the Guam 
Supreme Court that the issuance of bonds to fund the territory's 
continuing obligations, authorized by Guam's legislature, was not in 
violation of debt limitation disposition contained in the Organic Act 
of Guam, contrary to the contention of Guam's attorney general. The 
U.S. Court of Appeals for the Ninth Circuit dismissed the attorney 
general's appeal. The U.S. Supreme Court reversed. It is the last 
paragraph of the Court's opinion, written by Justice Thomas, that 
brings some light to the Federal Government's responsibility in regards 
to the debt of a territory:

        ``It may be true that we accord deference to territorial courts 
        over matters of purely local concern. This case does not fit 
        that model, however. The debt-limitation provision protects 
        both Guamanians and the United States from the potential 
        consequences of territorial insolvency. Thus, this case is not 
        a matter of purely local concern.''

    For many years during my political life I have argued against the 
definition of Commonwealth as a territory. That was my main argument 
when I first testified before this committee back in 1997. 
Nevertheless, the official position of this committee and the U.S. 
Government is that we are still a territory. If that is the case, taken 
together with cited Section 745, there is a strong argument the United 
States might bear ``the potential consequences'' of Puerto Rico's 
insolvency and that the $72 billion debt ``is not a matter of purely 
local concern.'' The Federal Government cannot say that we ``remain, as 
it is today, subject to the Territory Clause of the U.S. Constitution'' 
in order to deny Puerto Rico the powers to solve our economic and 
social crisis, and now turn around and say they have no responsibility 
regarding our debt because the debt crisis is a ``a matter of purely 
local concern.''

    You cannot have your cake and eat it too.

    THE CLOCK IS TICKING. The government of Puerto Rico has entertained 
many important economic, fiscal and government reform initiatives. They 
were urgent and needed, but the crisis is beyond all that. If the U.S. 
Government and its people do not realize soon Puerto Rico is a problem 
that needs to be addressed with new thinking and new approach, the 
United States will soon wake up with a new domestic crisis with 
international ramifications.
    I have no doubt that we can solve our crisis and come out of it 
stronger if you realize that we are still together and come to the 
table to work with us. One-sided solutions won't work whether they come 
from your side or ours.
    That's why I request a joint resolution of Congress requesting the 
Treasury Department and the Federal Reserve to roll up their sleeves 
and do more than just give us advice. They need to get involved and be 
part of the solution. They have the power and the tools to help us. We 
are willing to sacrifice, but we need a fighting chance. No country, no 
state, no jurisdiction has gotten out of a crisis like ours without a 
bankruptcy law, a central bank intervention or help from outside.

    Call our relation a bilateral compact or a colonized territory. At 
this time, it all means one thing: we are in this together.

    Thank you for inviting me and don't hesitate to contact me if you 
want a deeper discussion.

                                 ______
                                 

    Mr. Young. Thank you, Governor.
    Carmen, the Mayor of San Juan. Beautiful town, great 
people. Haven't had the privilege of meeting you yet. Thank 
you. You are welcome.

 STATEMENT OF CARMEN YULIN CRUZ SOTO, MAYOR OF SAN JUAN, 2013-
              PRESENT (PPD), SAN JUAN, PUERTO RICO

    Ms. Soto. Thank you very much, Chairman and members of the 
committee, for the opportunity. Puerto Rico has enjoyed, in the 
past, a commonwealth status responsible for catapulting our 
economic development. But the world has changed. That which 
once made us successful now lacks the necessary tools to handle 
today's reality. Ultimately, any viable political status must 
provide the necessary economic tools to engage and sustain an 
equitable economic growth while strengthening our democracy.
    Puerto Rico has been denied these tools far too long, and 
as long as our options are defined by the powers of this 
Congress, we will always be at your mercy. The measure of our 
success will always be limited by the vastness of your control 
over our affairs.
    I admit, as did the Governor, that our current financial 
situation has a healthy dose of shared responsibility. For 
years, we engaged in chronic patterns of unhealthy 
indebtedness, while you denied us or took away the few tools we 
have at our disposal. Sir Winston Churchill once said, ``Give 
us the tools to win this war.'' It is profoundly evident that 
our political status will determine the tools we have at our 
disposal to wage and win the economic war we are immersed in.
    Far too long you have benefited from our inability to reach 
a consensus in the status question. No more--you can no longer 
use that as an excuse to neglect your responsibility. 
Paraphrasing Gandhi--``The time has come for you to recognize 
that you are masters in somebody else's land.'' The time has 
come for you to put in motion a true self-determination process 
which ensures all voices and all options have equal access to 
the formulation and implementation of the status resolution 
issue.
    I come before you as one of the 454,768 Puerto Ricans who, 
in November 2012, voted to transform the present commonwealth 
relationship into a non-territorial, non-colonial, free 
associated state, to request that Congress include said option 
in any status-defining process in a manner which is 
distinguishable from other status options.
    Said new status is based on the recognition of the 
sovereignty of the people of Puerto Rico and our inalienable 
right to choose whichever form of government we see fit. The 
ELA Soberano will be forged on a compact of association in 
accordance with international law. We aspire, as the majority 
of Puerto Ricans, to guarantee for present and future 
generations the common bond of U.S. citizenship.
    Of course, any serious self-determination process--and I 
must clarify I am personally in favor of a status assembly--
will take time. However, there are matters which may be 
addressed immediately.
    One, we must ensure Resident Commissioner Pedro Pierluisi's 
bill to include Puerto Rico in Chapter 9 of the U.S. bankruptcy 
law is swiftly approved, so that we have the legal capability 
to restructure our obligations and pay them in a manner 
consistent with the well-being of our people. We recently tried 
to deal with this issue and the Federal court ruled against us. 
I fully support this bill.
    Two, give us the authority to enter into commercial 
agreements with other countries, as well as partially or fully 
exempt us, just as the Virgin Islands next to us, from the yoke 
placed upon us by the Jones Act.
    You have the power to help Puerto Rico. Now you must 
exercise it. You have the moral obligation to end the trite 
pilgrimage of Puerto Ricans looking for the status question to 
be resolved. You must move forward. I assure you, you will be 
met by an alliance of relentless people who know how--who have 
in the past and will in the future, once again, overcome 
adversity. Thank you very much, Mr. Chairman.
    [The prepared statement of Ms. Soto follows:]
Prepared Statement of Carmen Yulin Cruz Soto, Mayor of San Juan, Puerto 
                                  Rico
    I want to thank the Chairman and members of this subcommittee for 
today's invitation to share my views regarding Puerto Rico's political 
status and economic outlook. My name is Carmen Yulin Cruz Soto and I 
currently serve as Mayor of San Juan, Puerto Rico.
    Puerto Rico has enjoyed a Commonwealth status responsible for 
catapulting our economic development. But the world has changed; that 
which once made us successful now lacks the necessary tools to handle 
today's reality. Ultimately, any viable political status must provide 
the necessary economic tools to engage in sustained and equitable 
economic growth while strengthening our democracy.
    Puerto Rico has been denied these tools far too long and as long as 
our options are defined by the powers of this Congress, we will always 
be at your mercy. The measure of our success will always be limited by 
the vastness of your control over our affairs.
    I admit, our current financial situation has a healthy dose of 
shared responsibility. For years, we engaged in chronic patterns of 
unhealthy indebtness, while you deny us--or have taken away--the few 
tools we have at our disposal. Sir Winston Churchill once said: ``Give 
us the tools to win this war.'' Have no doubt we are in the midst of an 
economic war. It is profoundly evident that our political status will 
determine the tools we have at our disposal to wage and win that war.
    Far too long you have benefited from our inability to reach a 
consensus in the status question. No more: you can no longer use that 
as an excuse to neglect your responsibility. Paraphrasing Gandhi: ``the 
time has come for you to recognize that you are masters in somebody 
else's land.'' The time has come for you to put in motion a true self-
determination process which ensures all voices and all options have 
equal access to the formulation and implementation of the status 
resolution issue.
    I come before you as one of the 454,768 Puerto Ricans who on 
November 2012 voted to transform the present Commonwealth relationship 
into a non-territorial, non-colonial Free Associated State to request 
that Congress includes said option in any status defining process in a 
manner that is distinguishable from the present territorial 
Commonwealth, as well as from statehood and independence.
    Said new status is based on the recognition of the sovereignty of 
the people of Puerto Rico and our inalienable right to choose whichever 
form of government we see fit.
    The ELA SOBERANO will be forged on a compact of association in 
accordance with International Law. The definition presented to voters 
on 2012 stated that ``(s)uch agreement would provide the scope of the 
jurisdictional powers that the People of Puerto Rico agree to confer to 
the United States and retain all other jurisdictional powers and 
authorities.'' We aspire, as the majority of Puerto Ricans, to 
guarantee, for present and future generations, the common bond of U.S. 
citizenship.

    Any serious self-determination process will take time; however 
there are matters which may be addressed immediately:

  1.  Ensure Resident Commissioner Pedro Pierluisi's bill to include 
            Puerto Rico in Chapter 9 of the U.S. Bankruptcy Law is 
            swiftly approved so that we have the legal capability to 
            restructure our obligations and pay them in a manner 
            consistent with the well-being of our people. We recently 
            tried to deal with this issue and the Federal Court ruled 
            against us. I fully support this bill.

  2.  Give us the authority to enter into commercial agreements with 
            other countries as well as partially or fully exempt us 
            from the yoke placed upon us by the Jones Act.

    You have the power to help Puerto Rico now; exercise it! You have 
the moral obligation to end the trite pilgrimage of Puerto Ricans 
looking for the status question to be resolved; move forward.
    I assure you, you will be met by an alliance of relentless people 
who know how and will in the future once again to overcome adversity.

    Thank you.

                                 ______
                                 

    Mr. Young. I thank the good mayor. Now we have Miriam 
Ramirez, M.D., former Puerto Rican State Senator.

STATEMENT OF MIRIAM J. RAMIREZ, M.D., FORMER PUERTO RICO STATE 
   SENATOR, 2001-2004 (PNP), FOUNDER, PUERTO RICANS IN CIVIC 
                    ACTION, ORLANDO, FLORIDA

    Ms. Ramirez. Yes, Mr. Chairman. It has been a privilege to 
know you and count on your solid and courageous support to 
advance our struggle to achieve equal rights for the almost 4 
million disenfranchised citizens in Puerto Rico.
    Decades ago you responded with your full support when more 
than 350,000 Puerto Ricans petitioned Congress for statehood. 
Today, you are again giving us an opportunity to obtain our 
equal rights and obligations as U.S. citizens of this great 
Nation.
    In my testimony here in Washington, on May 22, 1986, 
Congressman Morris Udall was the Chairman. And I mentioned our 
full rights as citizens being the fundamental reason for the 
poor economic performance of Puerto Rico. Today I want to focus 
my testimony on the negative consequences of the Federal tax 
regime that has kept Puerto Rico labeled as a foreign 
jurisdiction for almost a century.
    I have been hearing people here talking about the dire life 
in Puerto Rico, how bad it is. But did you know it is only for 
a group of people? Because we have a big percentage of people 
in Puerto Rico who relocate from the United States, and can 
live in Puerto Rico tax-free from Puerto Rico and for the 
Federal Government. I hate to get away from my testimony. I 
will continue reading it, but I am just too passionate about 
this issue.
    In 1996, I have been hearing here about how, after Section 
936 was eliminated, the former Section 936 firms used Puerto 
Rico's foreign tax status and converted to controlled foreign 
corporations (CFCs)--corporate welfare. However, the CFCs in 
Puerto Rico are not obligated to create local jobs or to 
generate any real investment in order to benefit from the 
Federal tax deferral. Using transfer pricing abuses, the CFCs 
in the island are causing the U.S. Treasury to lose billions in 
Federal tax revenue without creating jobs and investment in the 
island.
    The Senate Permanent Subcommittee on Investigations 
identified one company in Puerto Rico--just one--that has come 
public that benefits from a tax saving of $22 million a year 
per employee, and they have about 170 employees. And most of 
them--I don't have the statistics--are on part-time jobs. The 
U.S. taxpayer is also maybe paying for some of this money that 
is coming and creating this dependence in Puerto Rico.
    Also, to exploit the special Federal tax code of Section 
933, the pro-statehood administration adopted--the former one--
two laws in 2012, Act 20 and Act 22, to entice millionaires who 
reside in the 50 states to relocate to Puerto Rico by taxing 
their corporate profits from exported services at a flat 4 
percent rate, and allowing those profits to be paid out to 
these owners free of Puerto Rico income tax. Bring them here 
and ask them how they feel living in Puerto Rico is.
    Thus, the CFC regime in Puerto Rico has become a 
significant drain of tax revenue, and a formidable opponent of 
statehood for Puerto Rico. Keeping Puerto Rico as a foreign 
country, as we are coded in the IRS, inside the United States, 
undermines the U.S. Federal tax base, and creates unfair 
competition against local communities in the 50 states and in 
Puerto Rico. But the truth is that Puerto Rico is governed by 
the CFC regime and the economic power of the super-billionaires 
who relocate without paying taxes.
    But that is not the only damage they do. They have the most 
powerful public relations army in the world, ready to lobby and 
fight against anything that endangers this outrageous tax 
evasion scam. The worst concern for them is that Puerto Rico 
becomes a state of the Union, so they throw their lobbyists out 
here. And you will have, enclosed in my written testimony, a 
letter from one of the lobbyists, precisely after the 
plebiscite, demeaning the results of them.
    This is the reason that I find it impossible to fight 
against the CFCs if we want to achieve statehood. We have to 
make the CFCs part of the political status solution. Mr. 
Chairman, I propose that a statehood bill, with the defining 
terms of admission, and a 20-year transition period for 
maintaining the CFCs in Puerto Rico, come out of your 
committee.
    There is a precedent for previous statehood bills to 
include temporary tax benefits, and a transition period was 
included in Senate Bill 712 of 1990.
    Please do not hold any more plebiscites with the various 
options, we have been there and done that. We now put the ball 
in your side of the court. Define the admission terms and ask 
our people.
    And, Mr. Sablan, we are paying for Mr. Cesar Miranda's 
testimony, even though he is reporting for the Governor. He is 
reporting for one of the status options, so we are basically 
paying for that.
    [The prepared statement of Ms. Ramirez follows:]
 Prepared Statement of Miriam J. Ramirez, MD, Former Puerto Rico State 
                                Senator
    Honorable Chairman Young and members of the committee: My name is 
Miriam Ramirez, I am a medical doctor, former Senator of the New 
Progressive Party in Puerto Rico, and founder of a non-partisan 
grassroots movement, called Puerto Ricans in Civic Action, which 
gathered more than 350,000 individually signed petitions for statehood 
and delivered them to Congress in the 1980s.
    Mr. Chairman, it is has been a privilege to know you and count on 
your solid and courageous support to advance our struggle to achieve 
equal rights for the almost 4 million disenfranchised U.S. citizens in 
Puerto Rico. Decades ago you responded with your full support when more 
than 350,000 Puerto Ricans petitioned Congress for statehood. Today you 
are again giving us an opportunity to obtain our equal rights and 
obligations as U.S. citizens of this great Nation.
    In my testimony to this committee on May 22, 1986, when Congressman 
Morris Udall was the chairman, the focus of the hearing was the lack of 
economic growth and welfare dependency in Puerto Rico. Back then I 
identified our lack of full rights as U.S. citizens as the fundamental 
reason for the poor economic performance of Puerto Rico, compared to 
other states. Today I want to focus my testimony on the negative 
consequences of the Federal tax regime that has kept Puerto Rico 
labeled as a ``foreign'' jurisdiction for almost 100 years.
    There are two Federal tax acts which have defined Puerto Rico's tax 
identity since it became a U.S. territory in 1898. The first law--the 
Revenue Act of 1921--classified Puerto Rico as a ``foreign country'' 
for tax purposes. The second law, enacted by Congress in 1996, 
eliminated Section 936 of the tax code, which was used then to promote 
new manufacturing jobs and investments in Puerto Rico.
    What happened in Puerto Rico after 1996? The former Section 936 
firms used Puerto Rico's ``foreign'' tax status to obtain the benefits 
of tax deferral, converting to Controlled Foreign Corporations (CFCs). 
Unlike the former Section 936 program, however, the CFCs in Puerto Rico 
do not have to create jobs and generate real investments to benefit 
from Federal tax deferral. Worse, the U.S. Treasury does not produce 
reports that inform Congress whether the CFCs create jobs and real 
investment in Puerto Rico. Today we know they don't.
    The CFC regime in Puerto Rico has become a significant drain of tax 
revenue and a formidable opponent of statehood for Puerto Rico. Using 
transfer pricing abuses, the CFCs in the Island are causing the U.S. 
Treasury to lose billions in Federal tax revenue without creating jobs 
and investment in the Island. One company in Puerto Rico was identified 
by the Senate's Permanent Subcommittee on Investigations with tax 
savings of $22 million per employee, and only generated 177 employees. 
Other details of this tax abuse are presented in the Appendix.
    Keeping Puerto Rico as a ``foreign'' country inside the United 
States undermines the U.S. Federal tax base and creates unfair 
competition against local communities in the 50 states. For example, in 
2010 the Puerto Rico government imposed a 4 percent excise tax on CFCs 
in Puerto Rico in order to pay for a significant reduction in income 
taxes at the local level. Normally, excise taxes cannot be used as 
foreign tax credits that reduce the U.S. tax liability dollar for 
dollar. However, in the case of the Puerto Rico's 4 percent excise tax 
on the U.S. CFCs, the IRS took the position that it would not challenge 
if U.S. corporations claim a U.S. foreign tax credit. In contrast, 
taxes imposed in the 50 states can be deducted when calculating Federal 
income tax, provided they are attributable to the conduct of the 
corporation's business. Effectively, the U.S. Treasury subsidized 
Puerto Rico's 4 percent excise tax increase almost dollar for dollar. 
This unrecorded tax expenditure is not available in the 50 states.
    Politically, the CFCs are effectively in control of our major 
political parties and their governing agenda. Whenever the people put 
pressure for a process of self determination, millions of dollars 
appear out of nowhere to campaign against statehood, since it will be 
the death knoll for the CFC scam.
    There are hundreds of CFCs in Puerto Rico that make enormous 
campaign donations to the political leaders in Puerto Rico, many of 
whom are here today in this hearing. I have concluded it is impossible 
to fight the CFCs if we want to achieve statehood in Puerto Rico. We 
have to make the CFCs part of the political status solution.
    Mr. Chairman, I propose that the statehood bill for Puerto Rico 
that comes out of your committee include a 20-year transition for 
maintaining the CFCs in Puerto Rico. There is a precedent for adding 
temporary tax benefits in statehood bills and a transition period was 
included in the Senate Bill 712 in 1990.
    There is another tax provision that goes back almost 100 years that 
is keeping Puerto Rico back, preventing us from receiving the full 
benefits of U.S. citizenship, namely Section 933 of the Internal 
Revenue Code (IRC).
    As you know, Mr. Chairman, Congress in 1917 granted U.S. 
citizenship to individuals born in Puerto Rico. Thus, a person born in 
Puerto Rico is subject to the U.S. tax laws. However, Section 933 of 
the IRC exempts from U.S. taxation the Puerto Rico-source income 
obtained by bona fide residents of Puerto Rico.
    To exploit this special Federal tax status, the ``pro-statehood'' 
administration of former Governor Fortuno adopted two laws in 2012. Act 
20 entices millionaires who reside in the 50 states to locate to Puerto 
Rico by taxing their corporate profits from exported services at a flat 
4 percent rate and allowing those profits to be paid out to the owners 
free of Puerto Rico income tax.
    Act 22 grants new Puerto Rico residents a 0 percent rate on locally 
sourced interest and dividends as well as all capital gains accrued 
after they become residents, in order to attract hedge fund managers 
and active traders. So far 509 tax refugees have been granted Act 22 
status and another 600 will get it this year, according to the Puerto 
Rico's Department of Economic Development & Commerce.
    This egregious legislation is effectively eroding the Federal and 
state income tax base and converting Puerto Rico into a tax haven in 
the U.S. backyard. We are despised by the Members of the U.S. Congress 
of New York, California, Connecticut and other states where these 
millionaires used to live. This is what our political leaders, of both 
major parties, have turned Puerto Rico into--a tax haven in the U.S. 
backyard for a few hundred millionaires.
    Mr. Chairman, the citizens of Puerto Rico are outraged by these 
shameful tax benefits given to a few hundred millionaires, while the 
rest of us have been subject to multiple tax increases by the present 
Administration in the last 3 years. We ask Congress to end this tax 
abuse, and eliminate Section 933 of the Internal Revenue Code 
immediately.

    Some observers in the past have expressed the opinion that the 
residents of Puerto Rico are better off because Federal income tax laws 
do not apply in the Island. This opinion is not correct for two 
reasons:

  1.  The Federal income tax provides job incentives that are lacking 
            in Federal direct spending programs. For example, the 
            exclusion of Puerto Rico residents from the Federal income 
            tax has prevented almost 60 percent of working families 
            from receiving the Federal Earned Income Tax Credit 
            (EITCs). The Federal income tax could be used as an 
            effective tool to increase Puerto Rico's 40 percent labor 
            force participation rate, which is the lowest in the United 
            States.\1\
---------------------------------------------------------------------------
    \1\ See Caribbean Business, ``The real story behind Puerto Rico's 
low 40.6% labor-participation rate,'' May 10, 2011.

  2.  The introduction of the Federal income tax, with the 
            administrative support of the Internal Revenue Service, 
            would increase the effectiveness of the local tax 
            administration in Puerto Rico. Local tax auditors in the 
            Department of Hacienda have experienced a 50 percent 
            decrease in the last 6 years, at the time when the 
            underground economy in Puerto Rico has grown to about 25 
---------------------------------------------------------------------------
            percent of the market economy.

    Previous congressional studies have already shown the benefits of 
participating in the Federal tax system. For example, GAO in 1996 found 
that if IRC tax rules are applied to residents of Puerto Rico, the 
average EITC earned by eligible taxpayers would be $1,494, taxpayers 
would owe around $623 million in Federal income tax before taking into 
account the earned income tax credit (EITC), and the aggregate amount 
of EITC would total $574 million. About 59 percent of the population 
filing individual income tax returns would earn some EITC, and 41 
percent of the households filing income tax returns would have positive 
Federal income tax liabilities, greater than the EITC received. Thus, 
the introduction of the Federal income tax in Puerto Rico for 
individuals would generate a wealth transfer from higher-income 
individuals who would pay Federal income taxes, to lower-income earners 
who would receive a refundable credit.\2\
---------------------------------------------------------------------------
    \2\ Government Accountability Office, Tax Policy, Analysis of 
Certain Potential Effects of Extending Federal Income Taxation to 
Puerto Rico, GGD-96-127.
---------------------------------------------------------------------------
    Mr. Chairman, this is the right moment to draft legislation to 
resolve the political status of Puerto Rico, and include Puerto Rico in 
the U.S. tax code, with all the responsibilities and privileges of U.S. 
citizens. This historic change can be achieved by deleting Section 933 
of the Internal Revenue Code, and defining corporations incorporated in 
Puerto Rico as U.S. Corporations, for tax and other purposes.
    With Puerto Rico's full inclusion in the tax code, Congress can 
stop transfer pricing abuses and create effective tax benefits that 
generate real jobs and promotes tangible investments in Puerto Rico 
through specific legislation that treat U.S. citizens in the Island in 
a manner similar to other communities in the 50 states. There is a real 
opportunity to draft effective legislation for Puerto Rico that creates 
a direct link between each dollar of Federal tax benefits to a job, 
similar to the Earned Income Tax Credit that have benefited residents 
in the 50 states since 1975. In addition, Federal tax benefits to 
generate real investments in Puerto Rico can be designed similar to the 
provisions in Enterprise Zone acts and the Promise Zones legislative 
proposals of President Obama.
    Bringing back Puerto Rico as a full partner into the Federal tax 
system would carry significant benefits to the People of Puerto Rico 
and the U.S. Treasury, but are not possible without your strong 
commitment to carry them through to the final budget agreement. As you 
know, there are formidable moneyed interests that benefit from using 
Puerto Rico as a tax heaven, and they would not give up the hugely 
inefficient tax deferral benefits without a fight. The almost 4 million 
disenfranchised U.S. citizens in Puerto Rico count on your support to 
secure our equal rights and responsibilities.
          the status issue: the 2012 plebiscite and statehood
    Regarding the status issue, as you well know, statehood won the 
2012 plebiscite. In that same election, with the same officials, in the 
same voting areas, with the same requirements. People voted for the 
Governor, the Resident Commissioner, Legislators, Mayors who were 
elected and sit in their positions. No one challenged their victories 
or re-interpreted them.
    However, I should not have been surprised when the results were 
challenged by the spokespersons and hired guns from the economic powers 
that rule the island, among them a well-known Republican corporate 
lobbyist who sent out a statement to Congress and others (Attached) 
against the results of statehood's win. It is not the first time he 
does this, but then who wouldn't, if you're getting paid to the tune of 
>$2.745 million, just from Puerto Rico. I am sure there is even more 
$$$ to fight attacks against offshore corporations from their 
``corporate clients'' with vested interest in keeping their business 
free of tax in the U.S. ``FOREIGN'' colony of U.S. Citizens in Puerto 
Rico.
    Mr. Chairman, we thank for your support, and ask that Congress does 
not hold any more plebiscites on status.
    We ask that you present a Puerto Rico statehood admission bill with 
the above terms and others that are considered fair, and ask the U.S. 
citizens in Puerto Rico to vote if they agree to Congress' terms and 
conditions.
    I am submitting a draft admission act prepared by my constitutional 
counsel, Attorney Roberto Santana, which also includes what I call the 
Costas amendment, in honor of Attorney Luis Costas who first educated 
me on these issues. To get the CFC's on our side, (or rather off our 
backs), award the Corporations special tax incentives for a period of 
20 years in the transition process. Then Congress and the people of 
Puerto Rico would negotiate the details of the transition process, 
which may or may not be submitted again to the people for final 
approval.

    This is the way we designed it in the original Young bill.

C'MON FELLOW AMERICAN CITIZENS HERE IN CONGRESS!! LET'S DO THIS!

                               APPENDIX 1

Draft of Bill to Include Puerto Rico as Part of the United States

26 Sec. 7701. Definitions

    (a) When used in this title, where not otherwise distinctly 
expressed or manifestly incompatible with the intent thereof----

    . . .

    (4) Domestic

    The term ``domestic'' when applied to a corporation or partnership 
means created or organized in the United States or under the law of the 
United States, or of any State, or Puerto Rico unless, in the case of a 
partnership, the Secretary provides otherwise by regulations.

    . . .

    (9) United States

    The term ``United States'' when used in a geographical sense 
includes only the States, the District of Columbia and Puerto Rico.

       PUERTO RICO--A ``FOREIGN'' TAX HAVEN IN THE U.S. BACKYARD

    This brief describes the unexpected results of two Federal tax acts 
which have defined Puerto Rico's tax identity since it became a U.S. 
territory in 1898. The first law--the Revenue Act of 1921--classified 
Puerto Rico as a ``foreign country'' for tax purposes. The second 
piece--the Small Business Job Protection Act of 1996 Act--eliminated 
the main Federal tax incentive, known as Section 936, that the U.S. 
Congress used to promote new manufacturing jobs and investments in 
Puerto Rico until 1996.
    What remained untouched after 1996 was Puerto Rico's ``foreign'' 
tax label, which was embraced by former Section 936 firms in order to 
obtain the benefits of tax deferral, converting to Controlled Foreign 
Corporations (CFCs). Unlike the former Section 936 program, however, 
the CFCs in Puerto Rico do not have to create jobs and generate real 
investments to benefit from tax deferral, and the U.S. Treasury does 
not have formal indicators to measure their cost effectiveness. This 
brief takes a first step to restore accountability and transparency for 
the CFCs in Puerto Rico, providing the evidence to assess growing CFC 
Federal tax benefits at a time of decreasing jobs and investments in 
Puerto Rico.
Section 1--Controlled Foreign Corporations (CFCs) in Puerto Rico
    Puerto Rico has been an unincorporated territory of the United 
States under the jurisdiction of the U.S. Congress since the Spanish-
American War of 1898.\3\ Although major U.S. taxes apply in Puerto Rico 
as in the 50 states, e.g. Social Security taxes, for income tax 
purposes the U.S. Congress has excluded Puerto Rico since 1921 from the 
definition of ``United States''.\4\ As a result, although Puerto Rico 
belongs to the United States and most of its residents are U.S. 
citizens, the income earned in Puerto Rico is considered ``foreign-
source income'' and Puerto Rico corporations are considered 
``foreign.'' This category includes the CFCs with a U.S. parent entity, 
which are analyzed in this brief.
---------------------------------------------------------------------------
    \3\ The Web site www.puertoricoreport.com provides summaries of 
Federal commissions that examined Puerto Rico's territorial status 
subject to Congressional powers.
    \4\ IRC Sec 7701(a)(9) defines the term ``United States'' in a 
geographical sense to include ``only the States and the District of 
Columbia.'' In contrast, The Revenue Act of 1916 (Part III, Sec. 15), 
defines the word ``State'' or ``United States'' to include any 
Territory, the District of Columbia, Porto Rico, and the Philippine 
Islands. The Revenue Act of 1921 (Title I, Sec. 1), excludes Porto Rico 
and the Philippines from the definition of the ``United States.''
---------------------------------------------------------------------------
    The 1921 Revenue Act also created the predecessor of the IRC 
Section 936, which became the preferred alternative to operate a U.S. 
subsidiary in the Island because it possessed two ideal features of a 
tax haven: Puerto Rico-source income was spared 100 percent of the U.S. 
Federal tax and it was subject to a minuscule P.R. tax, right inside 
the U.S. borders.\5\
---------------------------------------------------------------------------
    \5\ See Joint Committee on Taxation, An Overview of Special Tax 
Rules Related to Puerto Rico and an Analysis of the Tax and Economic 
Policy Implications of Recent Legislative Opinions, (JCX-24-06), June 
23, 2006.
---------------------------------------------------------------------------
    U.S. electronic and pharmaceutical firms with significant 
intangible assets tried to maximize their tax benefits in Puerto Rico, 
engaging in transfer pricing practices which spawned important court 
cases and scathing U.S. Treasury reports. In order to curtail the 
abuses of Section 936 firms, Congress in 1993 tied tax benefits to 
payroll and depreciation expenses, in an effort to channel more of the 
Section 936 benefits to the U.S. citizens residing in Puerto Rico.
    Finally, the U.S. Congress replaced Section 936 with a temporary 
Section 30A credit, and initiated a 10-year phase out of existing 936 
subsidiaries. This momentous decision has created a massive conversion 
of Section 936 U.S. corporations to CFC status, and left U.S. Treasury 
without a congressional reporting mandate and performance indicators to 
assess the tax effectiveness and efficiency of CFCs in Puerto Rico.

    The CFC conversions have triggered a significant increase in CFC 
activity in Puerto Rico, shown in Tables 1 to 5:

    <bullet> There was a 122 percent increase in the reported Earnings 
            and Profits (E&P) of CFCs in Puerto Rico, to $6.6 billion 
            in 2008, which is the most recent year of available CFC 
            data (Table 1).

    <bullet> The average tax rate of CFCs in Puerto Rico was 3.9 
            percent in 2008, which was 10.2 percent lower than the 
            average tax rate by CFCs operating in the world in 2008 
            (Table 2).

    <bullet> The U.S. corporations with CFCs in Puerto Rico received in 
            just 3 years $3.5 billion of tax benefits, relative to the 
            35 percent tax rate of U.S. domestic firms (Table 3).

    <bullet> There was a wide variation in tax rates across industries. 
            Manufacturing CFCs in Puerto Rico had a 2.3 percent tax 
            rate, compared to the 14.9 percent tax rate of CFCs in 
            finance (Table 4).

    <bullet> The distribution of the tax benefits of CFCs is most 
            likely highly concentrated in a few specific firms with 
            significant intangible patents, trademarks and copyrights. 
            Congressional investigators found that one CFC reported $4 
            billion in profits, and provided 177 direct jobs, or $22.5 
            million per job.

    IRS and Congressional investigations have started to uncover 
significant transfer pricing abuses that lie behind the growing trend 
in earnings of U.S. CFCs in Puerto Rico. As early as 1997, the IRS 
designated Section 936 conversions to CFCs as a Tier I issue, with high 
potential compliance risks.\6\ In 2011 IRS sent notices of deficiency 
to Medtronic for $958 million and to Boston Scientific for $452 million 
over their Section 936 conversions to CFC status.\7\
---------------------------------------------------------------------------
    \6\ See Audit Guidelines Related to Section 936 Conversion Issues 
in www.irs.gov.
    \7\ See Puerto Rico Tax Break Shifts to Cayman Islands, in 
www.bloomberg.com, and docket number 006944-11 in www.taxcourt.gov.
---------------------------------------------------------------------------
    In 2012 the staff of the U.S. Senate Permanent Subcommittee on 
Investigations analyzed the complex layers of tax haven subsidiaries 
created by Microsoft to minimize its tax on sales of products 
manufactured in Puerto Rico and sold in the United States. According to 
the congressional report, in 2011 the CFC of Microsoft in Puerto Rico 
reported $4 billion in profits, and provided 177 direct jobs earning an 
average salary of $44,000 a year, or $22.5 million per person. This 
example shows the low ineffectiveness of a specific CFC in Puerto Rico. 
Ideally, the U.S. Treasury should conduct an in-depth examination of 
the whole program of CFC tax incentives in Puerto Rico, as was done of 
the Section 936 tax program.

  Table 1: Assets, Receipts, Earnings & Profits, and Taxes of CFCs in 
                              Puerto Rico

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Source: IRS Statistics of Income (SOI) Bulletin, ``Controlled 
Foreign Corporations'', Table 3, Summer 2008, Winter 2011, Winter 2013.

    Note: Data are based on the SOI corporate sample. Since 2004 this 
sample is far more inclusive than earlier SOI studies of CFCs.

    Table 2: Average tax rates of CFCs in Puerto Rico and in other 
                               countries


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Note: Average tax rate is defined as income tax divided by E&P 
before income taxes.

    Source: IRS Statistics of Income Bulletin, ``Controlled Foreign 
Corporations'', Summer 2008, Winter 2011, Winter 2013.

 Table 3: Tax benefits of operating in Puerto Rico as CFC, compared to 
  operating as a U.S. domestic firm, annually and average figures in 
                             latest 3 years

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Note: Author's calculation, based on data reported in IRS 
Statistics of Income Bulletin, ``Controlled Foreign Corporations'', 
Summer 2008, Winter 2011, Winter 2013.

       Table 4: Average tax rates of CFCs in Puerto Rico in 2008

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Note: Average tax rate is defined as income tax divided by E&P 
before income taxes.

    Source: IRS Statistics of Income Bulletin, ``Controlled Foreign 
Corporations'', Summer 2008, Winter 2011, Winter 2013.

    Given the trend in Federal tax benefits received by CFCs operating 
in Puerto Rico, it is appropriate to assess how this Federal tax 
program has contributed to the economic well-being of the almost 4 
million U.S. citizens in Puerto Rico. Measures of effectiveness and 
efficiency of the tax benefits of manufacturing CFCs are discussed in 
the next section of this brief.
Section 2--Measuring the cost effectiveness of the CFCs in Puerto Rico
    CFCs were introduced in 1921 in Puerto Rico ``primarily to help 
U.S. corporations compete with foreign firms in the Philippines.'' \8\ 
There is no question that for U.S. multinationals the benefits of tax 
deferral can be significant, since indefinite deferral of U.S. tax 
liability generates a complete tax exemption on the foreign-source 
income. As was shown in Section 1 of this brief, tax deferral is a 
powerful tax tool to enhance the financial capacity of U.S. 
multinationals to compete against all firms, especially the domestic 
U.S. firms that pay the 35 percent maximum Federal corporate tax rate.
---------------------------------------------------------------------------
    \8\ Joint Committee on Taxation, JCX-24-06, op. cit., page 50.
---------------------------------------------------------------------------
    However, utilizing the 1921 tax law criterion--``help U.S. 
businesses to compete in foreign countries against foreign firms''--is 
not appropriate for determining the CFC benefits in Puerto Rico for 
three reasons: the Island is a territory of the United States, almost 
all of its 3.7 million residents are U.S. citizens, and the 423 CFCs in 
Puerto Rico represent less than 1 percent of the 83,642 CFCs in the 
World.
    Congress did introduce a different objective when it enacted 
Section 936 tax benefits for Puerto Rico, namely, ``to assist the U.S. 
possession in obtaining employment producing investments by U.S. 
corporations.'' \9\ In order to obtain a precise estimate of tax 
benefits per employee it is necessary to obtain firm-specific tax and 
jobs data, which is not available to the public.
---------------------------------------------------------------------------
    \9\ Joint Committee on Taxation, JCX-24-06, op. cit., page 50.
---------------------------------------------------------------------------
    An imprecise estimate of tax benefits per employee is obtained with 
U.S. Bureau of census data of manufacturing establishments in Puerto 
Rico, which are owned by CFCs and others. For example, in 2008 there 
were 2,064 manufacturing establishments with 106,132 employees in 
Puerto Rico, shown in Table 5. Estimates of the average CFC earnings 
before income taxes of manufacturing establishments range from $12,739 
(if all jobs are assigned to the CFCs) to $25,477 per employee (if 50 
percent of the jobs are assigned to CFCs) in 2008. These averages, in 
contrast to the $22 million per job earned by Microsoft Puerto Rico in 
2011, show that the distribution of the tax benefits of CFCs is most 
likely highly concentrated in a few specific firms with significant 
intangible patents, trademarks and copyrights.

Table 5: Manufacturing Operations in Puerto Rico, Tax Benefits of CFCs 
                             and Jobs, 2008


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





Sources: (1) U.S. Bureau of Census, County Business Patterns, 
published annually. (2) Federal tax benefits estimated using IRS SOI 
Bulletin, ``Controlled Foreign Corporations'', published in even years.

    Keeping Puerto Rico as a ``foreign'' country inside the United 
States undermines the U.S. Federal tax base and creates unfair 
competition against local communities in the 50 states. For example, in 
2010 the Puerto Rico government imposed a 4 percent excise tax on CFCs 
in Puerto Rico in order to pay for a significant reduction in income 
taxes at the local level. Normally, excise taxes cannot be used as 
foreign tax credits that reduce the U.S. tax liability dollar for 
dollar. However, in the case of the Puerto Rico's 4 percent excise tax 
on the U.S. CFCs, the IRS took the position that it would not challenge 
if U.S. corporations claim a U.S. foreign tax credit. In contrast, 
taxes imposed in the 50 states can be deducted when calculating Federal 
income tax, provided they are attributable to the conduct of the 
corporation's business. Effectively, the U.S. Treasury subsidized 
Puerto Rico's 4 percent excise tax increase almost dollar for dollar. 
This tax expenditure is not available in the 50 states.
    How do these estimated Federal cost estimates compare to another 
Federal credit that is directly linked to job creation, namely, the 
Earned Income Tax Credit (EITC), is discussed in the next section of 
this brief.
Section 3--Incorporating Puerto Rico Residents into the Federal Income 
        Tax System and I.R.C. Section 933
    Congress in 1917 granted U.S. citizenship to individuals born in 
Puerto Rico. Thus, a person born in Puerto Rico is subject to the U.S. 
tax laws. However, Section 933 of the IRC exempts from U.S. taxation 
the Puerto Rico-source income obtained by bona fide residents of Puerto 
Rico. Some observers have expressed the opinion that the residents of 
Puerto Rico are better off because Federal income tax laws do not apply 
in the Island. This opinion is not correct for two reasons:

  1.  The Federal income tax provides job incentives that are lacking 
            in Federal direct spending programs. For example, the 
            exclusion of Puerto Rico residents from the Federal income 
            tax has prevented almost 60 percent of working families 
            from receiving the Federal Earned Income Tax Credit 
            (EITCs). The Federal income tax could be used as an 
            effective tool to increase Puerto Rico's 40 percent labor 
            force participation rate, which is the lowest in the United 
            States.\10\
---------------------------------------------------------------------------
    \10\ See Caribbean Business, ``The real story behind Puerto Rico's 
low 40.6% labor-participation rate,'' May 10, 2011.

  2.  The introduction of the Federal income tax, with the 
            administrative support of the Internal Revenue Service, 
            would increase the effectiveness of the local tax 
            administration in Puerto Rico. Local tax auditors in the 
            Department of Hacienda have experienced a 50 percent 
            decrease in the last 6 years, at the time when the 
            underground economy in Puerto Rico has grown to about 25 
---------------------------------------------------------------------------
            percent of the market economy.

    Previous congressional studies have already shown the benefits of 
participating in the Federal tax system. For example, GAO in 1996 found 
that if IRC tax rules are applied to residents of Puerto Rico, the 
average EITC earned by eligible taxpayers would be $1,494, taxpayers 
would owe around $623 million in Federal income tax before taking into 
account the earned income tax credit (EITC), and the aggregate amount 
of EITC would total $574 million. About 59 percent of the population 
filing individual income tax returns would earn some EITC, and 41 
percent of the households filing income tax returns would have positive 
Federal income tax liabilities, greater than the EITC received. Thus, 
the introduction of the Federal income tax in Puerto Rico for 
individuals would generate a wealth transfer from higher-income 
individuals who would pay Federal income taxes, to lower-income earners 
who would receive a refundable credit.\11\
---------------------------------------------------------------------------
    \11\ Government Accountability Office, Tax Policy, Analysis of 
Certain Potential Effects of Extending Federal Income Taxation to 
Puerto Rico, GGD-96-127.
---------------------------------------------------------------------------
                               conclusion
    This brief has demonstrated the importance of incorporating Puerto 
Rico back into the United States for income tax purposes. This 
fundamental change is necessary to protect the U.S. tax base from the 
abuses in the ill-defined CFC regime in Puerto Rico. Furthermore, the 
inclusion of individual taxpayers into the Federal income tax regime 
would allow families in the Island to receive significant incentives 
that are likely to increase Puerto Rico's low labor force participation 
rate, and restore economic growth in the Island.

                               * * * * * 

                          DRAFT ADMISSION ACT

                  Prepared by Attorney Roberto Santana

                           Admission of State

                               Section 1

                                 AN ACT

    To provide for the admission of the Commonwealth of Puerto Rico

                             into the Union

    Be it enacted by the Senate and House of Representatives of the 
United States of America in Congress assembled, That, subject to the 
provisions of this Act, Congress consents that the territory properly 
included within and rightfully belonging to the territory of Puerto 
Rico, officially known and hereinafter referred to as the 
``Commonwealth of Puerto Rico,'' may be erected into a new State, with 
the consent of the existing Government in order that the same may by 
admitted as one of the States of this Union on an equal footing with 
the other States in all respects whatever, subject to the affirmative 
vote of the eligible voters of the Commonwealth of Puerto Rico 
accepting the terms and conditions of this Act.

                               Territory

                               Section 2

    The official name of the State of Puerto Rico shall remain to be 
``Commonwealth of Puerto Rico'' and the newly admitted State shall 
consist of all its islands, together with their appurtenant reefs and 
territorial waters, including but not limited to the main island of 
Puerto Rico, and the islands of Vieques, Culebra, Mona, Monito, 
Ratones, Caja de Muertos, Palomino, Palominito, Luis Pena, Lobos, 
Icacos, Isleta Marina and other smaller islands, atolls and reefs 
presently under the jurisdiction of the Commonwealth of Puerto Rico and 
including a ten and thirty five hundreths of a mile (10.35) mile 
Exclusive Economic Zone (EEZ) which is the sea zone over which the 
Commonwealth of Puerto Rico has special rights over the exploration and 
use of marine resources and stretching from the seaward edge of the 
Commonwealth of Puerto Rico's territorial sea out to 10.35 nautical 
miles from its coast and including the territorial sea and the 
continental shelf beyond the 10.35 nautical mile limit.

                              Constitution

                               Section 3

    Congress finds that the Constitution of the Commonwealth of Puerto 
Rico is republican in form; it is not repugnant to the Constitution of 
the United States and the principles of the Declaration of Independence 
and is the functional equivalent of a state constitution.

                      Agreement with United States

                               Section 4

    The Commonwealth of Puerto Rico and its people, by the affirmative 
vote of the eligible voters of the Commonwealth of Puerto Rico 
accepting the terms and conditions of this Act do agree and declare 
that they forever disclaim all right and title to any lands or other 
property not granted or confirmed to the State or its political 
subdivisions by or under the authority of this Act, the right or title 
to which is held by the United States or is subject to disposition by 
the United States, and to any lands or other property, (including 
fishing rights); that all such lands or other property, belonging to 
the United States shall be and remain under the absolute jurisdiction 
and control of the United States until disposed of under its authority, 
except to such extent as the Congress has prescribed or may hereafter 
prescribe. Provided, That nothing contained in this Act shall 
recognize, deny, enlarge, impair, or otherwise affect any claim against 
the United States, and any such claim shall be governed by the laws of 
the United States applicable thereto; and nothing in this Act is 
intended or shall be construed as a finding, interpretation, or 
construction by the Congress that any law applicable thereto 
authorizes, establishes, recognizes, or confirms the validity or 
invalidity of any such claim, and the determination of the 
applicability or effect of any law to any such claim shall be 
unaffected by anything in this Act: And provided further, That no taxes 
shall be imposed by said State upon any lands or other property now 
owned or hereafter acquired by the United States, except to such extent 
as the Congress has prescribed or may hereafter prescribe.

  Title to Property; Land Grants; Reservation of Lands; Public School 
                        Support; Submerged Lands

                               Section 5

    The Commonwealth of Puerto Rico and its political subdivisions, 
respectively, shall have and retain title to all property, real and 
personal, within the Commonwealth of Puerto Rico or any of the 
subdivisions. Except as provided herein, the United States shall retain 
title to all property, real and personal, to which it has title, 
including public lands. Provided that:

    (a) Except as provided in subsection (c) of this section, the 
Commonwealth of Puerto Rico and its political subdivisions, as the case 
may be, shall retain title of its properties before the passing of this 
Act and its subdivisions in those lands and other properties in which 
the Territory and its subdivisions now hold title.

    (b) Except as provided in subsection (c) and (d) of this section, 
the United States grants to the Commonwealth of Puerto Rico, effective 
upon its admission into the Union, the United States' title to all the 
public lands and other public property, in the Island of Vieques after 
certification by the secretary of the Interior that any and all of such 
lands have been cleaned of all debris and unexploded ordinance used by 
the Armed Forces of the United States in training of the Military, 
title to which is held by the United States immediately prior to the 
Commonwealth of Puerto Rico's admission into the Union. The grant 
hereby made shall be in lieu of any and all grants provided for new 
States by provisions of law other than this Act, and such grants shall 
not extend to the Commonwealth of Puerto Rico.

    (c) Any lands and other properties that, on the date Puerto Rico is 
admitted into the Union, are set aside pursuant to law for the use of 
the United States under any (1) Act of Congress, (2) Executive order, 
(3) proclamation of the President, or (4) proclamation of the Governor 
of Puerto Rico shall remain the property of the United States subject 
only to the limitations, if any, imposed under (1), (2), (3), or (4), 
as the case may be.

    (d) Any public lands or other public property that is conveyed to 
the Commonwealth of Puerto Rico by subsection (b) of this section but 
that, immediately prior to the admission of said State into the Union, 
is controlled by the United States pursuant to permit, license, of 
permission, written or verbal, from the Commonwealth of Puerto Rico or 
any department thereof may, at any time during the five years following 
the admission of Puerto Rico into the Union, be set aside by Act of 
Congress or by Executive Order of the President, made pursuant to law, 
for the use of the United States, and the lands or property so set 
aside shall, subject only to valid rights then existing, be the 
property of the United States.

    (e) Within five years from the date Commonwealth of Puerto Rico is 
admitted into the Union, each Federal agency having control over any 
land or property that is retained by the United States pursuant to 
subsections (c) and (d) of this section shall report to the President 
the facts regarding its continued need for such land or property, and 
if the President determines that the land or property is no longer 
needed by the United States it shall be conveyed to the Commonwealth of 
Puerto Rico.

    (f) The lands granted to the Commonwealth of Puerto Rico by 
subsection (b) of this section and public lands retained by the United 
States under subsections (c) and (d) and later conveyed to the State 
under subsection (e), together with the proceeds from the sale or other 
disposition of any such lands and the income therefrom, shall be held 
by said State as a public trust for the support of the public schools 
and other public educational institutions, for the betterment of the 
conditions of Puerto Ricans. Such lands, proceeds, and income shall be 
managed and disposed of for one or more of the foregoing purposes in 
such manner as the constitution and laws of said State may provide, and 
their use for any other object shall constitute a breach of trust for 
which suit may be brought by the United States. The schools and other 
educational institutions supported, in whole or in part, out of such 
public trust shall forever remain under the exclusive control of said 
State; and no part of the proceeds or income from the lands granted 
under this Act shall be used for the support of any sectarian or 
denominational school, college, or university.

    (g) As used in this Act, the term `lands and other properties' 
includes public lands and other public property, and the term `public 
lands and other public property' means, and is limited to, the lands 
and properties that were ceded to the United States by Spain under the 
Treaty of Paris of 1898, or that have been acquired in exchange for 
lands or properties so ceded.

    (h) All laws of the United States reserving to the United States 
the free use or enjoyment of property which vests in or is conveyed to 
the Commonwealth of Puerto Rico or its political subdivisions pursuant 
to subsection (a), (b), or (e) of this section or reserving the right 
to alter, amend, or repeal laws relating thereto shall cease to be 
effective upon the admission of the Commonwealth of Puerto Rico into 
the Union.

    (i) The Submerged Lands Act of 1953 (Public Law 31, Eighty-third 
Congress, first session; 67 Stat. 29) and the Outer Continental Shelf 
Lands Act of 1953 (Public Law 212, Eighty-third Congress, first 
session, 67 Stat. 462) shall be applicable to the Commonwealth of 
Puerto Rico, and the said State shall have the same rights as do 
existing States thereunder. (As amended Pub. L. 86-624, Sec. 41, July 
12, 1960, 74 Stat. 422, Pub. L. 95-372, Title II, Sec. 202, 92 Stat. 
634; Apr. 7, 1986, Pub. L. 99-272, Title VIII, Sec. 8002, 100 Stat. 
148)

                       Assumption of Public Debt

                               Section 6

    For the purposes of furthering the development of the new State, 
and the expansion of its economy, and in exchange of the citizens of 
the Commonwealth of Puerto Rico acquiring as taxpaying citizens of the 
United States their corresponding share of the National Debt of the 
United States, the Public Debt of the Commonwealth of Puerto Rico, as 
of the date of Admission, is hereby acquired by the Treasury of the 
United States and shall be paid according to its terms and as it 
becomes due.

                       Presidential Certification

                               Section 7

    Upon enactment of this Act, it shall be the duty of the President 
of the United States, not later than 30 days thereafter, to certify 
such fact to the Governor of the Commonwealth of Puerto Rico and to the 
presidents of the Senate and of the House of Representatives of Puerto 
Rico. Thereupon, (1) the legislature of the Commonwealth of Puerto Rico 
shall enact legislation to provide for the vote by the eligible voters 
of the Commonwealth of Puerto Rico as defined by law to accept or 
reject the terms and conditions of this Act, by simple majority vote, 
which referendum will take place not later than 180 days after the 
Presidential Certification made pursuant to this section and (2) The 
State Elections Commission of Puerto Rico is authorized to provide for 
a vote on the admission of Puerto Rico into the Union as a State within 
one hundred and eighty days from the date of the Presidential 
Certification made pursuant to this section, in accordance with rules 
and regulations determined by the Commission, including qualifications 
for voter eligibility. The ballot shall ask the following question: 
``Shall Puerto Rico be admitted as a State of the United States 
pursuant to the Act of Congress dated [the date of this Act]?

Yes ___ No ___.''

    The funds made available pursuant to Public Law 113-76 may be used 
to conduct the vote.

    The Governor of the Commonwealth of Puerto Rico is hereby 
authorized and directed to take such action as may be necessary or 
appropriate to insure the submission of said proposition to the people. 
The return of the votes cast on said referendum shall be made by the 
election officers directly to the State Elections Commission, which 
entity shall certify the results to the Governor. The Governor shall 
certify the results of said referendum, as so ascertained, to the 
President of the United States, the Speaker of the House of 
Representatives, and the President Pro Tempore of the Senate.

                 Election, Certification, Proclamation,

                             Laws in Effect

                               Section 8

    (a) Upon the affirmative vote of the eligible voters of the 
Commonwealth of Puerto Rico accepting the offer of Statehood, the 
Governor of the Commonwealth of Puerto Rico shall call for the holding 
of a Primary Election for Federal office and a General Election to 
elect such federal elected official, on dates to be fixed by the 
Governor of the Commonwealth of Puerto Rico. Provided, that the 
elections for Federal office shall not be held later than the date 
already legislated by the laws of the Commonwealth for the holding of 
the next regular General Elections that are held on November on the 
same year as that of the Presidential Elections of the United States 
and at such elections there shall be elected 2 Senators and 5 
Representatives, each of whom shall first take office on the first day 
of the next Congress commencing immediately after said election. The 
Legislature of Puerto Rico shall delineate and enact the corresponding 
congressional districts. The officers required to be elected as 
provided in this section shall be chosen by the eligible voters of the 
Commonwealth of Puerto Rico. Such elections shall be held, and the 
qualifications of voters thereat shall be, as prescribed by the 
Constitution of the Commonwealth of Puerto Rico for the election of 
members of the State legislature. The Legislature of Puerto Rico shall 
delineate and enact the corresponding congressional districts. The 
returns thereof shall be made and certified in such manner as the 
constitution and laws of the Commonwealth of Puerto Rico may prescribe. 
The Governor of the Commonwealth of Puerto Rico shall certify the 
results of said elections to the President of the United States, the 
Speaker of the House of Representatives, and the President Pro Tempore 
of the Senate.

    (b) In the election of Senators from Puerto Rico pursuant to this 
section, the 2 Senate offices shall be separately identified and 
designated, and no person may be a candidate for both offices. No such 
identification or designation of either of the offices shall refer to 
or be taken to refer to the terms of such offices, or in any way impair 
the privilege of the Senate to determine the class to which each of the 
Senators elected shall be assigned.

    (c) The President of the United States, once notified by the 
Governor of the election of the federal officials prescribed pursuant 
to this section, upon certification of the returns of the election of 
the officers required to be elected as provided herein, shall thereupon 
issue his proclamation announcing the results of said election as so 
ascertained. Upon the issuance of said proclamation by the President, 
the Commonwealth of Puerto Rico shall be deemed admitted into the Union 
as provided in this Act.

    (d) Until Puerto Rico is so admitted into the Union, all of the 
officers of the Commonwealth of Puerto Rico, including its Resident 
Commissioner, shall continue to discharge the duties of their 
respective offices. Upon the issuance of said proclamation by the 
President of the United States and the admission of the Commonwealth of 
Puerto Rico into the Union, the officers elected at said election, and 
qualified under the provisions of the constitution and laws of said 
State, shall proceed to exercise all the functions pertaining to their 
offices in or under or by authority of the government of said State, 
and officers not required to be elected at said initial election shall 
be selected or continued in office as provided by the constitution and 
laws of said State.

    (e) The State Elections Commission of Puerto Rico shall certify the 
election of the Senators and Representative in the manner required by 
law, and the said Senators and Representative shall be entitled to be 
admitted to seats in Congress and to all the rights and privileges of 
Senators and Representatives of other States in the Congress of the 
United States.

    (f) Upon admission of the Commonwealth of Puerto Rico into the 
Union as herein provided, all of the territorial laws then in force in 
the Commonwealth of Puerto Rico shall be and continue in full force and 
effect throughout said State except as modified or changed by this Act, 
or by the Constitution of the State, or as thereafter modified or 
changed by the legislature of the State. All of the laws of the United 
States shall have the same force and effect within said State as 
elsewhere within the United States. As used in this paragraph, the term 
``territorial laws'' includes (in addition to laws enacted by the 
Legislature of Puerto Rico) all laws or parts thereof enacted by 
Congress, the validity of which is dependent solely upon the authority 
of Congress to provide for the government of prior to the admission of 
the Commonwealth of Puerto Rico into the Union, and the term ``laws of 
the United States'' includes all laws or parts thereof enacted by 
Congress that (1) apply to or within Puerto Rico at the time of the 
admission of the Commonwealth of Puerto Rico into the Union, (2) are 
not ``Territorial laws'' as defined in this paragraph, and (3) are not 
in conflict with any other provisions of this Act.

                  House of Representatives Membership

                               Section 9

    (a) The Commonwealth of Puerto Rico upon its admission into the 
Union shall be entitled to the number of Representatives mentioned in 
Section 8 of this Act until the taking effect of the next 
reapportionment, and such Representatives shall be in addition to the 
membership of the House of Representatives as now prescribed by law: 
Provided, That such temporary increase in the membership shall not 
operate to either increase or decrease the permanent membership of the 
House of Representatives as prescribed in the Act of August 8, 1911 (37 
Stat. 13) nor shall such temporary increase affect the basis of 
apportionment established by the Act of November 15, 1941 (55 Stat. 
761; 2 U.S.C., section 2a), for the Eighty-third Congress and each 
Congress thereafter.

    (b) Effective on the date on which a Representative from Puerto 
Rico first takes office in accordance with this subsection, the Office 
of the Resident Commissioner to the United States, as described in 
section 36 of the Act of March 2, 1917 (48 U.S.C. 891 et seq.), is 
terminated.

                    Continuation of Civil Cases and

                          Criminal Proceedings

                               Section 10

    No writ, action, indictment, cause, or proceeding pending in the 
United States District Court for the District of Puerto Rico on the 
date when said Territory shall become a State, and no case pending in 
an appellate court upon appeal from the United States District Court 
for the district of Puerto Rico at the time said Territory shall become 
a State, shall abate by the admission of the Commonwealth of Puerto 
Rico into the Union, but the same shall be transferred and proceeded 
with as hereinafter provided.

    All civil causes of action and all criminal offenses which shall 
have arisen or been committed prior to the admission of said State, but 
as to which no suit, action, or prosecution shall be pending at the 
date of such admission, shall be subject to prosecution in the 
appropriate State courts or in the United States District Court for the 
District of Puerto Rico in like manner, to the same extent, and with 
like right of appellate review, as if said State had been created and 
said courts had been established prior to the accrual of said causes of 
action or the commission of such offenses; and such of said criminal 
offenses as shall have been committed against the laws of the Territory 
shall be tried and punished by the appropriate courts of said State, 
and such as shall have been committed against the laws of the United 
States shall be tried and punished in the United States District Court 
for the District of Puerto Rico.

                                Appeals

                               Section 11

    All appeals taken from the United States District Court District of 
Puerto Rico to the Supreme Court of the United States or the United 
States Court of Appeals for the First Circuit, previous to the 
admission of Puerto Rico as a State, shall be prosecuted to final 
determination as though this Act had not been passed. All cases in 
which final judgment has been rendered in such district court, and in 
which appeals might be had except for the admission of such State, may 
still be sued out, taken, and prosecuted to the Supreme Court of the 
United States or the United States Court of Appeals for the First 
Circuit under the provisions of then existing law, and there held and 
determined in like manner; and in either case, the Supreme Court of the 
United States, or the United States Court of Appeals, in the event of 
reversal, shall remand the said cause to either the Puerto Rico Supreme 
Court, or the United States District Court for the District of Puerto 
Rico, as the case may require: Provided, That the time allowed by 
existing law for appeals from the district court for said Territory 
shall not be enlarged thereby.

                         Continuation of Cases

                               Section 12

    All causes pending or determined in the United States District 
Court for the District of Puerto Rico at the time of the admission of 
Puerto Rico as a State shall continue under the jurisdiction of the 
United States District Court for the District of Puerto Rico for final 
disposition and enforcement in the same manner as is now provided by 
law with reference to the judgments and decrees. All other causes 
pending or determined in the State Courts of the Commonwealth of Puerto 
Rico at the time of the admission of Puerto Rico as a State shall 
continue under the jurisdiction of the State Courts of the Commonwealth 
of Puerto Rico. All final judgments and decrees rendered in the United 
States District Court for the District of Puerto Rico may be reviewed 
by the Supreme Court of the United States or by the United States Court 
of Appeals for the First Circuit in the same manner as is now provided 
by law with reference to the judgments and decrees in existing United 
States district courts.

                Retention of Jurisdiction and Appeals in

                              State Court

                               Section 13

    Jurisdiction of all cases pending or determined in the General 
Court of Justice of the Commonwealth of Puerto Rico shall devolve upon 
and be exercised by said court and, as such, it shall retain custody of 
all records, dockets, journals, and files pertaining to such cases. All 
appeals taken from the Supreme Court of Puerto Rico to the Supreme 
Court of the United States, previous to the admission of Puerto Rico as 
a State, shall be prosecuted to final determination as though this Act 
had not been passed. All cases in which final judgment has been 
rendered in such court, and in which appeals might be had except for 
the admission of such State, may still be sued out, taken, and 
prosecuted to the Supreme Court of the United States under the 
provisions of then existing law, and there held and determined in like 
manner; and in either case, the Supreme Court of the United States, in 
the event of reversal, shall remand the said cause to the Puerto Rico 
Supreme Court as the case may require: Provided, That the time allowed 
by existing law for appeals from the Supreme Court of Puerto Rico shall 
not be enlarged thereby.

                     Federal Reserve Act; Amendment

                               Section 14

    The next to last sentence of the first paragraph of section 2 of 
the Federal Reserve Act (38 Stat. 251) as amended, is hereby amended by 
inserting after the word `Hawaii' the words `or Puerto Rico.'

                            Maritime Matters

                               Section 15

    Nothing contained in this Act shall be construed as depriving the 
Federal Maritime Board of the exclusive jurisdiction heretofore 
conferred on it over common carriers engaged in transportation by water 
between any port in the Commonwealth of Puerto Rico and other ports in 
the United States, or possessions, or as conferring on the Interstate 
Commerce Commission jurisdiction over transportation by water between 
any such ports.

                                Taxation

                               Section 16

    Upon the effective date of the Admission of the Commonwealth of 
Puerto Rico as the 51st State of the Union, those individuals and 
corporations then currently enjoying tax status and tax benefits 
existing under Puerto Rico Income, Gift and Estate Tax Statutes and the 
U.S. Internal Revenue Code on that date, shall continue in that status 
and with those benefits for a period of twenty (20) years from that 
effective date of Admission. The U.S. Internal Revenue Service shall 
promulgate such Rules and Regulations as may be deemed necessary and/or 
convenient in order to carry out this Statutory Provision.

                                 Repeal

                               Section 17

    All parts of the Puerto Rican Federal Relations Act, Pub. L. No. 
81-600, 64 Stat. 3 19 (1950) (codified at 48 U.S.C. Sec. Sec. 731b-731e 
(1994)) (``Public Law 600'') and any remaining sections in effect of 
the Act of Apr. 12, 1900, 31 Stat. 77 (``Foraker Act'') and of the Act 
of Mar. 2, 1917, 39 Stat. 961, as amended, (``the Puerto Rican Federal 
Relations Act,'' also popularly known as the ``Jones Act''), which are 
in conflict with the provisions of this Act, are hereby repealed.

                       United States Citizenship

                               Section 18

    Nothing contained in this Act shall operate to confer United States 
citizenship, nor to terminate citizenship heretofore lawfully acquired, 
nor restore citizenship heretofore lost under any law of the United 
States or under any treaty to which the United States may have been a 
party.

                              Separability

                               Section 19

    If any provision of this Act, or any section, subsection, sentence, 
clause, phrase, or individual word, or the application thereof to any 
person or circumstance is held invalid, the validity of the remainder 
of the Act and of the application of any such provision, section, 
subsection, sentence, clause, phrase, or individual word to other 
persons and circumstances shall not be affected thereby.

                  General Amendment and General Repeal

                               Section 20

    All Acts or parts of Acts referring to ``the 50 states'' shall be 
amended to read ``the 51 states'' and all such Acts or parts of Acts 
referring to the Islands and Territories of Guam, American Samoa, 
Northern Mariana Islands, Puerto Rico and the Virgin Islands shall be 
amended to exclude the words ``Puerto Rico,'' whether such Acts or 
parts of Acts were passed by the legislature of Puerto Rico or by 
Congress.

    All Acts or parts of Acts in conflict with the provisions of this 
Act, whether passed by the legislature of Puerto Rico or by Congress, 
are hereby repealed.

                                 ______
                                 

    Mr. Young. Thank you, Miriam.
    I will recognize the Ranking Member, and he is going to 
yield to the good lady from Guam.
    Mr. Sablan. Yes, I am going to yield to the dean of those 
Members of Congress who don't have a vote. She is our dean.
    [Laughter.]
    Mr. Young. Don't knock it.
    Ms. Bordallo. Thank you very much to our Ranking Member, 
Mr. Sablan, from the CNMI.
    Mr. Chairman, there are four of us up here, territorial 
delegates. One is missing. I think she belongs--oh, she just--
that is right. We are now complete. Five of us. And let me say 
this, and I want to go on record as saying that the life of a 
territorial delegate in the U.S. Congress is the most 
frustrating job you would have ever expected it to be. When 
your colleagues are going over to vote, you are standing there 
watching them. And they say, ``Why don't you go to vote?''
    I said, ``Well, we don't vote.'' Oh, that is right. So, 
ladies and gentlemen, I sympathize in everything that is being 
said here. Guam is in the same boat. We don't have 3 or 4 
million people; we are very small. But when you are not able to 
vote for the U.S. President, as a citizen, and you cannot vote 
for amendments and final passage in the U.S. Congress, yet we 
sit in the committees, that is a frustrating position. And I 
have been here 13 years; I know all about it.
    Now, the Governor, in his opening testimony, he asked three 
questions. My answer to those three questions is yes, yes, yes. 
You are absolutely right. Or--no? Would it have been no? What 
was the question again, Governor? It was yes, right?
    Mr. Barcelo. Yes. It was a yes.
    Ms. Bordallo. It was a yes. OK.
    Mr. Barcelo. It was a yes.
    Ms. Bordallo. I want to be sure that I am on the right 
side.
    [Laughter.]
    Ms. Bordallo. Thank you, Governor. Yes, yes, yes. All 
right.
    I do have a question here for Mr. Vila. I am interested in 
your views on the idea of mutual consent. As I understand it, 
mutual consent between the United States and Puerto Rico is 
still being discussed among the people of Puerto Rico, as part 
of an opinion for political status. How would mutual consent be 
formulated to satisfy objections that it is unconstitutional, 
or to meet any objections by the Department of Justice?
    Mr. Vila. In my written statement, and in the documents 
that I included, I go a little bit deeper on that. I think that 
approach is not the right one. And I do say with total honesty 
and respect, I think that so far we have been discussing this 
from a political, legal view. I think it is about time just to 
discuss the economic relationship between Puerto Rico and the 
United States.
    I firmly believe that statehood, economically, is not the 
alternative, and we can go into deeper discussion on that. It 
is in my written statement, I don't want to waste your time. 
But I firmly believe it is not a good solution for Puerto Rico 
or for the United States either. I firmly believe independence 
is not the right economic answer to our situation, and I firmly 
believe doing nothing, the status quo, is also not the 
alternative.
    I believe that we need to sit down and come up with a new 
economic arrangement. What is the problem? The problem is that 
Puerto Rico is, and has always been, a developing economy. But 
then we have to play by the rules of the most developed economy 
in the world, which is the U.S. economy. And when you apply the 
rules of the most developed economy to a developing economy, 
you have the problem we have. And if we become a state, it will 
be even worse, because you will apply the tax rules of the most 
developing economy to a still developing economy.
    So, in that sense, my approach is let's reach an agreement 
on a new kind of economic relationship, and then, based on 
that, let's reach an agreement in what the mayor called, ELA 
Soberano, estado libre asociado soberano, a new political 
arrangement, clearly non-colonial and non-territorial.
    Ms. Bordallo. Thank you very much.
    Mr. Chairman, thank you for being so supportive of our 
issues. And, Ranking Member Sablan, thank you for the time.
    Mr. Barcelo. Mr. Chairman, could I----
    Mr. Young. You have 21 seconds, then I have to let her ask 
questions.
    Mr. Barcelo. Could I address, myself, to some of the things 
that he has mentioned about the economy?
    Mr. Young. We will get that next time.
    Mr. Barcelo. OK.
    Mr. Young. Madam Vice Chair.
    Mrs. Radewagen. Thank you, Mr. Chairman. I too want to 
welcome the panel of very distinguished public servants. I see 
Governor Romero, who was a colleague of my dad when they served 
together as Governors of American Samoa and Puerto Rico, 
respectively; Governor Luis Fortuno, a former Member of this 
body and a colleague on the RNC. Warm welcome to all of you.
    When I spoke in this committee room at a hearing earlier 
this year, I used the term ``colonialism by another name.'' 
Well, a three-judge panel gave it another name: ``Cultural 
imperialism.'' That Federal court of appeals just rejected the 
argument lawyers made in a case claiming the national 
citizenship clause in the Constitution applies in American 
Samoa and all other unincorporated U.S. territories.
    So once again, the courts have confirmed that U.S. 
nationals in American Samoa and U.S. nationals from Puerto Rico 
and the three other unincorporated territories are required to 
relocate to a state of the Union to secure full and equal 
rights and duties of U.S. citizenship. That means full and 
equal rights of national citizenship, including the fundamental 
right of government by consent through voting rights in the 
Federal elections are guaranteed only through citizenship in a 
state, rather than a territory.
    So, for residents of all five unincorporated territories 
who don't move to a state, the status of a U.S. national in 
American Samoa and a U.S. citizen in a territory is 
constitutionally the same, with only those rights under the 
Constitution and Federal law confirmed by Congress and Federal 
statutes enacted under the territorial power.
    I have a question for Governor Fortuno. Given the 
predicament for the territories and for Congress due to the 
twisted saga of unincorporated territory status, do you agree 
that the best path forward is for Congress to support self-
determination for each territory, based on status options that 
are legally valid, politically feasible, and compatible with 
the freely expressed wishes of a majority in votes held 
whenever each territory decides to seek a change of status?
    Also, would you care to comment on the consistent Federal 
court rulings that confirm full and equal rights of U.S. 
national citizenship that include that Federal voting rights 
are attainable only through state citizenship, and what it 
means for those citizens in Puerto Rico who democratically have 
expressed a desire for new status with equal rights of national 
citizenship that includes Federal voting rights?
    Mr. Fortuno. Thank you, and I commend you for raising this 
very important question. And, it is an honor to see you sitting 
up there on the dais.
    As you very well state, there is a situation that was 
court-created of a so-called unincorporated territory. And what 
it means is that it grants Congress carte blanche to 
essentially do whatever it wants with the U.S. citizens 
residing in the territories. Initially, it was only applicable 
to territories with non-citizens. But it has been extended and 
applied to territories where American citizens reside, American 
citizens that actually have served with valor and courage in 
every single war, in our case, since 1917.
    The only way to address this situation whereby our 
constitutional rights are never the same if we live in a 
territory is to either move to one of the 50 states or become a 
state. In order to attain that, there ought to be, in my 
opinion, number one, a process by which majority rules in the 
territory, in terms of the terms that are acceptable, but also 
in terms that are acceptable to Congress, because Congress has 
the ultimate word in this matter. And that is why H.R. 727 
makes a lot of sense.
    Mrs. Radewagen. Thank you.
    Thank you, Mr. Chairman. I yield back.
    Mr. Young. Resident Commissioner, you are up.
    Mr. Pierluisi. Yes. Thank you, Chairman. Listening to 
Governor Acevedo Vila, and former Member of Congress, I just 
want to raise a question to see if you can explain to me what 
kind of status you envision in Puerto Rico's future? What is 
your specific position on status? Because I, frankly, do not 
get it.
    And I will be respectful. You know very well the way 
Congress works. Congress approves bills every day we are in 
session that apply or not to Puerto Rico, based on its power 
under the territory clause of the U.S. Constitution. The 
Supreme Court of the United States, ever since the beginning of 
the 20th century, decided that Puerto Rico is an unincorporated 
territory, meaning that Puerto Rico could become either a state 
or a nation. Two choices: statehood or nationhood.
    Yet we are a territory. We have our own constitution--good 
constitution, by the way. We are called a commonwealth. But, as 
you well know, that is the situation. Any day here, they can 
deal with us and we have no vote. We have a say, but no vote.
    Now, looking at the future, what do you want Puerto Rico to 
be? Do you want Puerto Rico to be recognized as a sovereign 
nation, and then strike getting to a compact or treaty with the 
United States providing for the economic benefits you were 
talking about? Is that what you want? Or do you want Puerto 
Rico to continue being a territory as it is, and then keep 
trying to get better treatment in the laws that Congress 
approves on a daily basis?
    Mr. Vila. Resident Commissioner, I just said that, for me, 
status quo is not the alternative, and doing nothing is not the 
alternative. I also said that what we need to get to is a new 
economic relationship which is described in many of my essays. 
One of them is included as an annex to my written statement.
    In that sense, what I think we need to establish is a new 
relationship based on a compact in which we clarify the powers 
of Congress and we clarify the powers the people and the 
government of Puerto Rico will have.
    To me, this is a political will situation, not a legal 
question. Actually, I ask any of you to look into the U.S. 
Constitution and read to me the clause where it talks about 
unincorporated territory. It is nowhere. It is nowhere. The 
Constitution only talks about territories.
    But when the U.S. Government came to the realization that 
they had Puerto Rico--back then Philippines, many of the 
territories--but that they were not on the path toward 
statehood, they had a political situation. And then a new 
theory came to accommodate that new reality, and now we are 
called unincorporated territories. But that is not in the 
Constitution. That is nowhere in the Constitution.
    So, to me, what we need is to reach a political will for 
the new economic relationship. And I firmly believe that the 
best alternative for the people of Puerto Rico and for the 
United States is what we have called sovereign commonwealth, 
estado libre asociado soberano, where you clarify the powers of 
Congress, and you clarify the powers of the people of Puerto 
Rico. For me, the most important one has to do with economic 
development.
    Mr. Pierluisi. Would that be a territory, or would that be 
a sovereign nation in association with the United States?
    Mr. Vila. A new relationship, the same way that, before, 
there were only territories, and then, after that, it was 
accepted to have unincorporated territories. I think what we 
have to reach is a political and economic agreement, and then 
we will deal with the legal structure.
    Mr. Pierluisi. And would Puerto Ricans continue to be 
American citizens----
    Mr. Vila. Yes.
    Mr. Pierluisi [continuing]. Even if they are residing in a 
sovereign nation, as opposed to the United States?
    Mr. Vila. Yes, it is a matter of political will.
    Mr. Young. We will continue this.
    Mr. LaMalfa.
    Mr. LaMalfa. Thank you, Mr. Chairman. I just had a question 
I wanted to throw out there on the idea of Puerto Rican bonds 
that might be going into bankruptcy. I am trying to work 
through this a little bit here, I am trying to get familiar 
here, but it is the possibility that previous bonds could end 
up in bankruptcy. What would that mean for investors? And then, 
what kind of confidence would anybody have in future bonds 
going forward?
    And then, how would this lay over with how things look with 
Greece--how would that differ from the country of Greece, with 
those governments defaulting? What kind of confidence would 
investors be able to have with Puerto Rico at that point?
    Mr. Fortuno. Mr. Chairman, should I give it a try?
    Mr. Young. He just put it out. Anybody wants to answer it--
--
    Mr. Fortuno. I will be happy to, of course. And some of the 
members of this committee know my background. I slashed 
expenses by 20 percent. I am proud to be a fiscal conservative. 
But I can tell you that I believe that the rules in the country 
should apply in the same way for creditors and debtors across 
the country, regardless of whether you are dealing with the 
credit of Detroit, California, Florida, or Puerto Rico. And, in 
that sense, I believe that certainty is required.
    Some people have stated in the past, well, if you now 
implement a Chapter 9, or you allow Chapter 9 to actually 
benefit both creditors and debtors of debt issued by Puerto 
Rico, you will be changing the rules of the game. That is 
exactly what this Congress does every day, and that is exactly 
what investors in every type of paper face every single day. 
Congress changes rules, especially tax rules, every single day.
    So, in that sense, nothing special. But I strongly believe 
that there ought to be fiscal responsibility on the part of the 
territory, but there ought to be certain rules that apply to 
debtors and creditors. And Chapter 9 applies in the 50 states; 
it ought to apply across the country, including the 
territories.
    Mr. Vila. May I just add that what will happen is the same 
thing that happened in Detroit. The same thing. You have an 
orderly process to deal with the situation. We are not--we are 
talking about municipalities or instrumentalities of the 
central government that might go bankrupt. So, in that sense, 
you have a very recent experience in Detroit. So that is the 
same. It is basically allowing those corporations and those 
instrumentalities of the government of Puerto Rico to use that 
tool.
    And I just want to clarify also that the reason Resident 
Commissioner Pierluisi's bill is so important is because the 
local government in Puerto Rico approved a local law and was 
declared unconstitutional by a Federal court. That case is 
pending in Boston, in the First Circuit, Boston Court of 
Appeals. We will see what happens.
    The problem is that we don't get action from Congress. And 
then, when the local legislature of Puerto Rico decided to 
somehow act, then we have a Federal court say, ``You cannot do 
that.'' So I don't know of any other place in the world that 
doesn't have rules----
    Mr. LaMalfa. And that feels like----
    Mr. Vila [continuing]. To deal with the status----
    Mr. LaMalfa [continuing]. Already, right? If the court is 
stopping you from doing things. But----
    Mr. Vila. I missed you, sorry.
    Mr. Barcelo. Can I make a statement?
    Mr. LaMalfa. We don't change tax rules every day around 
here. We have had a package that has been very difficult to do 
tax reform around here, so it is not as easy as maybe it is 
made out to be.
    But go ahead, sir.
    Mr. Barcelo. We are very concerned. People are concerned 
about the bond holders, and they think of the bond holders as 
wealthy bond holders from the Nation, from the United States. A 
lot of the bond holders--and I don't know how much of a 
percentage, but a large percentage are poor people of Puerto 
Rico, retirees. And some of the retirement funds in Puerto Rico 
have invested heavily in Puerto Rican bonds, because they have 
faith in the government of Puerto Rico. So they would also be 
subject to not only the bond holders in Wall Street, but the 
individual bond holders and family bond holders in Puerto Rico 
will be affected by anything that is done.
    And when something is done in an orderly fashion, it is the 
best way to do it. If nothing is done, and then the roof falls 
down on everyone, then everybody is going different ways, and 
going to court, and court proceedings for years and years and 
years. That is why it is being sought. Nobody expected this to 
ever happen.
    One of the problems is that in Puerto Rico there has been 
a--as a colony, we have created a dependency. You have heard 
Governor Vila speak about how he wants to have U.S. citizenship 
and not participate in the democratic process. How can anybody 
that says that they believe in democracy and that they want the 
U.S. citizenship, not want to participate in the democratic 
process of the nation they are citizens with? Somebody is 
telling a lie or does not understand what democracy is, and 
does not understand what U.S. citizenship means, because they 
want citizenship but they don't want to vote. Oh, that is bad, 
to have representation in the government of our Nation is 
prejudicial.
    I mean how can that even be accepted? I wouldn't have the 
gall to go any place and say, ``I am a Democrat, I believe in 
democracy, but I don't want to have the right to vote or the 
right to representation.''
    Mr. LaMalfa. Yes, I am sorry, sir.
    Mr. Young. Time is up.
    Mr. LaMalfa. OK, thank you. Just be careful on asking for 
statehood, because you might get more EPA than you ever asked 
for, because my resources, we can't get at in California any 
more due to those guys.
    Mr. Young. The Ranking Member.
    Mr. Sablan. Yes, on the EPA part, you get it whether you 
are an outlying area, you could be in Midway and get the EPA. 
Trust me.
    [Laughter.]
    Mr. Sablan. Would it be possible for the people of Puerto 
Rico to come together and figure this out themselves, and then 
come to Congress and tell us what it is you want?
    I have learned in my short 7 years here in Congress that 
you don't ask a question unless you know the answer. If you are 
really going to look to Congress for guidance--seriously, is 
there a way for you to finally come together and----
    Mr. Pierluisi. Would the gentleman yield?
    Mr. Sablan. I yield to the gentleman from Puerto Rico.
    Mr. Pierluisi. See, the problem, Mr. Sablan, is that as I 
was saying, in Alaska they held a referendum, a plebiscite, 
years before they came a state. And 57 percent chose statehood, 
and 43 percent said they didn't want it. It always happens. In 
Alaska--correct me if I am wrong, Mr. Chairman--but I believe 
there are people who still want Alaska to be independent.
    [Laughter.]
    Mr. Young. Primarily because of the EPA.
    [Laughter.]
    Mr. Pierluisi. The same happened in Texas. Texas was an 
independent nation before it joined the Union. So you will 
always have different opinions and different factions. So, to 
ask Puerto Ricans, ``Oh, why don't you just agree, all of 
you,'' it is just an easy way out, with all due respect----
    Mr. Sablan. Reclaiming my time----
    Mr. Pierluisi [continuing]. Because Congress needs to act--
--
    Mr. Sablan. Reclaiming my time. I am just suggesting--I am 
naive--that in Puerto Rico, just like in the Northern Mariana 
Islands, politics is something we discuss breakfast, lunch, and 
dinner.
    I reclaim, Mr. Chairman, and this is interesting, I hope I 
didn't offend anyone. And, if I did, then that is your problem, 
not mine.
    [Laughter.]
    Mr. Sablan. But I am enlightened. I am going through the 
same growing pains, although Puerto Rico has been in this since 
1902--or 1908.
    Mr. Pierluisi. In 1898 we became a territory, a U.S. 
territory.
    Mr. Sablan. 1898. Well, see, that is what happened when 
that war broke out in Cuba. The United States won the war. They 
kept Puerto Rico and sold off to the Germans. And that is where 
we left off, but now I am so glad we are together again. See, 
it is so wonderful. The world goes around in circles. And in 
100 years we will probably be down there and you are up here, 
because you are a state.
    But I will tell you this much. There are so many times when 
I am trying to get something done in Congress and I pray, ``If 
only Puerto Rico were a state, and they would be out of my 
way.''
    [Laughter.]
    Mr. Sablan. Thank you very much, Mr. Chairman, for this 
hearing.
    Mr. Vila. May I react to his comment? I know it was not a 
question, but I think that probably we all agree.
    I am going to say two things in terms of things that are 
happening and have been shown here. For example, Pierluisi's 
bill for Chapter 9 has bipartisan support in Puerto Rico, and 
that is very rare. So you have statehooders, pro-
commonwealthers, all sectors supporting that. A coalition has 
been created to deal with the health issue, Medicare and 
Medicaid, also with bipartisan support. That is new. Probably 
10 years ago that would have been impossible. That is why my 
presentation is basically about the economic crisis.
    I think you have a responsibility and a unique opportunity. 
I am not talking only about Congress. It has to do also with 
the executive branch. This crisis is going to get complicated. 
And as I said, and I repeat it, we are in this together. The 
solution for this crisis needs the U.S. Government to come to 
the table and be part of that solution. I think, on that, we 
might also be able to get some kind of agreement beyond 
political parties in Puerto Rico.
    Mr. Young. I want to thank everybody at this table. I may 
have to leave here in a moment if--my Vice Chairman, because we 
have a vote on.
    Miriam, what is--and this is for all of you--how does this 
tax structure work for the bigger companies that--
pharmaceuticals and I don't know what else is down there. How 
does that work, and what benefit does it bring to Puerto Rico?
    Mr. Barcelo. I think it hurts Puerto Rico.
    Mr. Young. Pardon?
    Mr. Barcelo. I think it hurts Puerto Rico, Mr. Chairman. I 
think that--for a long time I have been saying that if we 
reduce this 90 percent tax credit to the corporations, 
basically the pharmaceuticals, down to 70 percent, instead of 
paying 4 percent they would pay 12 percent. It would mean about 
$3 to $4 billion more in revenues for the government of Puerto 
Rico, and we could start solving this economic situation.
    But the incumbent now, the government, the Governor and the 
Popular Party, will never do that because when the campaign 
comes along, the lobbyists and the lawyers from these 
corporations, they raise a lot of money for them. And that is--
--
    Mr. Young. Well, what I am leading up to, it is just not 
pharmaceuticals. There are other ones. But that would bring 
money into the Puerto Rican economy.
    Mr. Barcelo. Definitely, yes.
    Mr. Young. Because, right now, some of these companies 
don't even have workers from Puerto Rico, do they?
    Mr. Barcelo. Yes, they do----
    Mr. Young. But Miriam--wait a minute. Miriam, go ahead.
    Ms. Ramirez. Well, I have spent a lot of years now looking 
at this, because when I first started coming up here I thought 
it was the independentistas who were obstructing the deal. And 
I was bumping into these lobbyists who were actually----
    Mr. Young. Now, don't knock lobbyists all the time. I want 
you to know something. They do inform people. But I just--
because you are basically all lobbyists, sitting at that table.
    Ms. Ramirez. I realize that.
    Mr. Young. OK. So----
    Ms. Ramirez. What I mean to say is that I found these pro-
corporation--this particular type of corporation lobbyists 
interfering with the work that we were doing up here to try to 
convince Congress to move on this issue. And since then, the 
GAO has produced--I have introduced that and have links in my 
testimony--has produced evidence that this is one of the 
biggest tax evasion scams in the whole world. Almost every 
country is looking at this very seriously. And I have met with 
people in the finance--in the Ways & Means Committee, and they 
are very concerned about the fact that there are all these 
trillion--this is in the papers every day--trillion dollars of 
money out there in foreign countries.
    But here is the problem. We are coded as foreign in the 
IRS. I don't know if the other territories are, but we are 
coded as foreign under Section 933, which is what has allowed 
the benefits for these people who relocated to Puerto Rico, for 
these corporations. And I just have the numbers from Microsoft, 
because they became public. But I know for a fact that this is 
happening also with the pharmaceuticals and everybody else. The 
contrast is here we are talking about how Puerto Rico is 
sinking in bankruptcy, how Puerto Rico--do you think the people 
of Puerto Rico don't see that? That is why they are leaving.
    Mr. Young. OK, stop right there. What I am looking for, if 
that is happening--because we have another bill that has been 
introduced by, I believe, a gentleman--Duncan, is it Duncan, 
South Carolina--that wants a congressional control board.
    Does anybody there support that?
    Mr. Pierluisi. Mr. Chairman, would you yield?
    Mr. Young. I am going to, yes.
    Mr. Pierluisi. It is not a bill. He wrote a letter. And 
some are advocating for that. I should say for the record that 
I oppose that.
    Mr. Young. OK.
    Mr. Pierluisi. I mean Puerto Rico, as we have discussed, we 
have a republican form of government, a constitution blessed by 
this Congress.
    So, unless you suspend the effectiveness of our 
constitution--which makes no sense--you don't appoint a 
financial control board to take over Puerto Rico. Puerto Rico, 
with all due respect to the District of Columbia, is not the 
District of Columbia. It is not the city of New York. We are a 
territory. And there is case law from the Supreme Court saying 
that----
    Mr. Young. I understand what the gentleman----
    Mr. Pierluisi [continuing]. We deserve deference, in terms 
of our own self-government for our local----
    Mr. Young. I am about ready to run out of time. But here is 
what I am looking for.
    As you know, I am a proponent, because it is probably the 
central solution, and you all have a vote, just say you are 
going to be a state and be a state. And then that may not 
happen, because this is--this cannon is an awful--has a long 
fuse on it.
    I have problems, and with the Congress. I have, like I 
said, been in this business for a long time and watched the 
attitude, which is bad. We don't need a bunch of foreigners--by 
the way, back in the United States--we don't need two Senators 
that are new. We don't need five Democrat Congressmen--which is 
not true, by the way, you would probably end up all being 
Republicans, all due respects.
    [Laughter.]
    Mr. Young. Because I lived through that. We were all 
Democrats, now we are all Republican.
    But I do think we have to--and my job is to try to keep 
this alive and moving, because somewhere we have to solve this 
economic problem. I personally think statehood would do it. I 
may be wrong.
    We also have to consider the fact that maybe we change the 
tax laws so we can pick those up a little bit, where we can 
take--be more solvent. But the present system, the status quo, 
is not working. I said this 21 years ago, and if I am alive 20 
more--God help you guys if I am alive 20 more years. But the 
fact is I would like to see this not be a black eye on American 
citizens, and Puerto Rico be accepted as equal.
    I do apologize, and I want to thank the panel, we have a 
vote on. And for those Delegates that don't have to vote, 
you've got it made. You don't have to run over there and have a 
vote and miss a vote, you know? If you miss a vote, they say 
you have committed a crime.
    If there are no other questions, I will adjourn.
    Ms. Bordallo. Mr. Chairman?
    Mr. Young. Yes, ma'am.
    Ms. Bordallo. May the territories take over this meeting?
    Mr. Young. Absolutely. I have offered to her [Delegate 
Radewagen], if she wants to do it. Are you through? OK.
    We are adjourned.
    [Whereupon, at 4:35 p.m., the subcommittee was adjourned.]

            [ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD]

[LIST OF DOCUMENTS SUBMITTED FOR THE RECORD RETAINED IN THE COMMITTEE'S 
                            OFFICIAL FILES]

  -- June 22, 2015, Diaspora Puerto Rico 51st State, Statement 
            for the Record.

  -- June 23, 2015, Mr. Luis G. Rivera Marin, Esq. Statement 
            for the Record.

  -- June 23, 2015, Dr. Gabriel J. Roman, President, Citizens 
            Movement for Statehood, Guayama, Puerto Rico, 
            Statement for the Record.

  -- June 23, 2015, The Honorable Larry Seilhamer, Minority 
            Leader, New Progressive Party Delegation, Senate of 
            Puerto Rico, Statement for the Record.

  -- June 24, 2015, Dr. Gladys Escalona de Motta, Senator Jose 
            A. Ortiz-Daliot, Alliance for Free Association 
            ALAS, Letter to Chairman Don Young.

  -- June 24, 2015, The Honorable Sergio E. Estevez, Municipal 
            Legislator, Municipality of Carolina, Minority Whip 
            Leader for the New Progressive Party, Statement for 
            the Record.

  -- June 24, 2015, Dennis O. Freytes, American Patriots for 
            Equality (Igualdad)--Civil Rights, Statement for 
            the Record.

  -- June 24, 2015, Mr. Franklin D. Lopez, ``The Time for 
            Equality is Now! ,'' Statement for the Record.

  -- June 24, 2015, Anibal Acevedo Vila, former Governor of 
            Puerto Rico, Submission for the Record, ``Supreme 
            Court of the United States, LIMTIACO v. CAMACHO.''

  -- June 24, 2015, Anibal Acevedo Vila, former Governor of 
            Puerto Rico, Submission for the Record, ``Toward 
            the Economic Refounding of Puerto Rico and its 
            Commonwealth Status.''

                                 [all]
</pre></body></html>
